<html>
<title> - S. Hrg. 107-69 FEDERAL ELECTION PRACTICES AND PROCEDURES</title>
<body><pre>[Senate Hearing 107-69]
[From the U.S. Government Printing Office]



 
                                                         S. Hrg. 107-69

               FEDERAL ELECTION PRACTICES AND PROCEDURES

=======================================================================




                                HEARINGS

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               ----------                              

                           MAY 3 AND 9, 2001

                               ----------                              

      Printed for the use of the Committee on Governmental Affairs

               FEDERAL ELECTION PRACTICES AND PROCEDURES
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
 
73-391 PDF

2002

                                                         S. Hrg. 107-69

               FEDERAL ELECTION PRACTICES AND PROCEDURES

=======================================================================




                                HEARINGS

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                           MAY 3 AND 9, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              CARL LEVIN, Michigan
GEORGE V. VOINOVICH, Ohio            DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
JUDD GREGG, New Hampshire            MAX CLELAND, Georgia
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
                                     JEAN CARNAHAN, Missouri
             Hannah S. Sistare, Staff Director and Counsel
               William M. Outhier, Investigative Counsel
                    Jana Sinclair, Associate Counsel
     Joyce A. Rechtschaffen, Democratic Staff Director and Counsel
               Cynthia Gooen, Lesser, Democratic Counsel
                     Darla D. Cassell, Chief Clerk
                            C O N T E N T S

                                 ------                                
                                                                   Page

Opening statements:
    Senator Thompson............................................. 1, 67
    Senator Lieberman............................................ 3, 68
    Senator Bennett..............................................     6
    Senator Carnahan.............................................     8
    Senator Durbin...............................................    17
    Senator Levin...............................................47, 110
Prepared statement:
    Senator Levin............................................. 115, 116
    Senator Cleland........................................... 117, 118

                               WITNESSES
                         Thursday, May 3, 2001

Hon. Christopher S. ``Kit'' Bond, a U.S. Senator from the State 
  of Missouri....................................................     9
Hon. William Lacy Clay, a Representative in Congress from the 
  State of Missouri..............................................    19
Carolyn Jefferson-Jenkins, Ph.D., President, League of Women 
  Voters of the United States....................................    27
Ralph G. Neas, President, People for the American Way and People 
  for the American Way Foundation................................    29
Deborah M. Phillips, Chairman, The Voting Integrity Project......    31
Larry J. Sabato, Ph.D., Director, The Center for Governmental 
  Studies, University of Virginia................................    34
R. Michael Alvarez, Ph.D., Associate Professor of Political 
  Science, California Institute of Technology....................    51
Daniel B. Perrin, Executive Director, Committee for Honest 
  Politics.......................................................    53
Gary McIntosh, State Elections Director, State of Washington.....    55
Hon. John T. Willis, Secretary of State, State of Maryland.......    57

                         Wednesday, May 9, 2001

Arturo Vargas, Executive Director, National Association of Latino 
  Elected and Appointed Officials, Educational Fund..............    70
Hilary O. Shelton, Director, Washington Bureau, National 
  Association for the Advancement of Colored People..............    72
Stephen Knack, Senior Research Economist, The World Bank.........    76
Hans A. von Spakovsky, Member, Fulton County Board of 
  Registration and Elections, Fulton County, Georgia.............    79
Hon. Sharon Priest, Secretary of State, State of Arkansas, on 
  behalf of the National Association of Secretaries of State.....    90
R. Doug Lewis, Executive Director, The Election Center...........    92
Conny B. McCormack, Registrar-Recorder/County Clerk of Los 
  Angeles County, California.....................................    95
Samuel F. Wright, Co-Chair, Uniformed Services Voting Rights 
  Committee, Reserve Officers Association of the United States...    99

                     Alphabetical List of Witnesses

Alvarez, R. Michael:
    Testimony....................................................    51
    Prepared statement with attachments..........................   166
Bond, Hon. Christopher S. ``Kit'':
    Testimony....................................................     9
    Prepared statement...........................................   123
Clay, Hon. William Lacy:
    Testimony....................................................    19
    Prepared statement...........................................   131
Jefferson-Jenkins, Carolyn:
    Testimony....................................................    27
    Prepared statement with an attachment........................   137
Knack, Stephen:
    Testimony....................................................    76
    Prepared statement with attachments..........................   224
Lewis, R. Doug:
    Testimony....................................................    92
    Prepared statement...........................................   286
McCormack, Conny B.:
    Testimony....................................................    95
    Prepared statement with attachments..........................   290
McIntosh, Gary:
    Testimony....................................................    55
    Prepared statement with attachments..........................   199
Neas, Ralph G.:
    Testimony....................................................    29
    Prepared statement...........................................   152
Perrin, Daniel B.
    Testimony....................................................    53
    Prepared statement with attachments..........................   191
Phillips, Deborah M.:
    Testimony....................................................    31
    Prepared statement with attachments..........................   157
Priest, Hon. Sharon:
    Testimony....................................................    90
    Prepared statement with an attachment........................   284
Sabato, Larry J.:
    Testimony....................................................    34
    Prepared statement...........................................   162
Shelton, Hilary O.:
    Testimony....................................................    72
    Prepared statement...........................................   218
Vargas, Arturo:
    Testimony....................................................    70
    Prepared statement...........................................   212
von Spakovsky, Hans A.:
    Testimony....................................................    79
    Prepared statement...........................................   278
Willis, Hon. John T.:
    Testimony....................................................    57
    Prepared statement with attachments..........................   203
Wright, Samuel F.:
    Testimony....................................................    99
    Prepared statement...........................................   310

                                Appendix

Article entitled ``Constitution: Voting reform requires federal 
  help,'' The Atlanta Journal Constitution, dated March 28, 2001.   120
Article entitled ``Technology Slashes Detroit Voting Error, 
  `Second Chance' Scanners Allow Correction,'' by Ellen Nakashima 
  and Dan Keating, The Washington Post, dated April 5, 2001......   121
Hon. Cathy Cox, Georgia Secretary of State, prepared statement...   314
Hon. Bill Jones, California Secretary of State, prepared 
  statement......................................................   319
James C. Dickson, Chair, Disabled Vote Project, prepared 
  statement......................................................   325
Federal Election Commission, prepared statement with attachments.   328
National Council on Disability, prepared statement with 
  attachments....................................................   347
The National Federation of the Blind, prepared statement.........   398

 
               FEDERAL ELECTION PRACTICES AND PROCEDURES

                              ----------                              


                         THURSDAY, MAY 3, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Fred Thompson, 
Chairman of the Committee, presiding.
    Present: Senators Thompson, Bennett, Lieberman, Levin, 
Durbin, and Carnahan.

             OPENING STATEMENT OF CHAIRMAN THOMPSON

    Chairman Thompson. Let's come to order, please. Good 
morning. Today, we began two hearings on election reform. 
Pursuant to the voters' decision to make us 50-50 in the 
Senate, Senator Lieberman and I agreed that we would work 
together to have a certain number of hearings of his 
suggestion, and try to schedule those on a regular basis. He 
has been extremely cooperative with me over the years, in 
scheduling hearings that we have scheduled, and I have tried to 
be just as cooperative pursuant to that arrangement, and this 
is the first hearing we have had pursuant to that arrangement, 
pursuant to Senator Lieberman's suggestion.
    During the first hearing, we will discuss issues involving 
access to the polls, including problems with registration and 
voter rolls. On May 9, we will have a second hearing regarding 
problems people encountered at the polls, including problems 
with equipment, instructions and various irregularities.
    The subject of election reform has been studied at great 
length over the last few months. There has been some criticism 
that this issue has not received adequate attention, that it 
has fallen by the wayside. I cannot agree with that. Already 
the Senate Rules and Commerce Committees have conducted 
hearings on the issue, and I believe both have more scheduled. 
The House Administration Committee is holding hearings. The 
House Democratic Caucus Special Committee on Election Reform 
has held public hearings and plans to hold more. The NAACP has 
conducted public hearings in multiple States on problems 
encountered in the last election, some of which have been 
carried by C-SPAN. The National Commission on Federal election 
reform has been organized with such distinguished members as 
former Presidents Carter and Ford, Lloyd Cutler, Bob Michel, 
Slade Gorton, and many others.
    That commission is also holding several public hearings and 
will issue a report later in the year. The U.S. Commission on 
Civil Rights held hearings and received testimony. I believe 
the Center for Governmental Studies at Virginia and Larry 
Sabato, one of our witnesses, has been holding public symposia 
on the issue and will release a report later this year. The 
League of Women Voters has also held public forums on the 
subject. I believe there are over 30 bills that have been 
introduced in Congress, and NBC has reported there have been 
some 1,200 introduced in State legislatures, which are also 
holding hearings on the subject.
    So I think almost all of our witnesses today have 
participated in at least one of these various panels. So I do 
not believe the subject has been deprived of attention, 
especially as far as the factual allegations are concerned. 
Perhaps we can concentrate on solutions and decide maybe what 
we ought to do about this factual record that we have heard 
time and time again.
    The fact of the matter is it is perhaps not as simple as a 
lot of people thought it would be, in arriving at correct 
solutions for these problems. In the first place, we have to 
decide what is or should be the Federal role in all of this. 
Under the Constitution, the Constitution has delegated to the 
States substantial authority in this regard, time, place, and 
manner and so forth, unless Congress chooses to act. Congress 
has acted to a certain extent. The question is should it go 
further now and step into these roles that have heretofore been 
the province of the States, or is it a matter of money, and if 
we are going to start sending money to the States to help clean 
up this process, should we direct it in a particular provision? 
In other words, should it be targeted, because we have decided 
better than what the States have been able to decide what the 
problem is and here is where the money ought to go.
    So those are pretty tough decisions. Plus, I think, we are 
becoming more and more aware of the fact, those of us maybe--
who were not as aware of the history on it as perhaps we should 
be--is that what we are seeing now probably, in my opinion 
anyway, is an example of what goes on in every election every 
year. We are going to have at least one witness talk about the 
legacy we have in this country. Unfortunately, over the years, 
we have had substantial problems and cause for both Democrats 
and Republicans and Independents and Whigs and everyone else, I 
guess, to complain at one time or another.
    So we have thousands and thousands of locales in every 
major election where these potential problems arise. The big 
difference here, of course, is that this last election--we had 
an extremely close election and it was a Presidential election. 
So it is justly getting more attention, but it is not like 
these problems just started, by any stretch of the imagination. 
So that has to be figured into the equation, too, and I think 
Congress is rightfully not leaping in with something that 
changes something that has been a problem with us for a long 
time, and evidently one in which we have felt, up until now, 
that it is best to expose those problems and get the localities 
in which they exist, some year after year, in some cities in 
America, presumably--to get them to do something about it. So 
those are the issues, as I see them, that we are confronting, 
and they are not easy issues to deal with. Congress has 
received a great deal of testimony already describing how 
individuals were denied the opportunity to vote because their 
registrations were not processed in a timely fashion; they were 
mistakenly purged from the voter rolls and for other reasons.
    Clearly, that is a problem that needs to be remedied. 
People who register honestly should be able to vote. However, 
it should be noted that voter fraud can be just as damaging to 
the electoral process as other registration problems. When 
people vote multiple times or under fictitious names, it 
dilutes the single vote of the honest individual. There are 
safeguards that I hope we will hear about today, that could be 
put into place to deter and prevent voter fraud, such as 
requiring identification at the polls, tightening rules on 
absentee ballots and putting in place a computer system that 
makes maintaining voter rolls easier and more efficient.
    I think also one of the problems we have is that it is so 
easily turned into a partisan debate, one side saying you do 
not want people to vote and the other side saying you want 
people who are not entitled to vote to vote. But it appears to 
me that in the end, we all want the same thing, and that is we 
want those that are properly registered to vote to be on the 
rolls on election day. On the other hand, we want to protect 
the integrity of our elections by deterring and preventing 
voter fraud. Perhaps today we can continue the ongoing dialogue 
on these goals and come to a better understanding of how to 
ensure the integrity of our electoral process.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman, thanks for an 
excellent statement, and thanks also for agreeing to hold this 
hearing today and a second one next Wednesday, as you 
indicated, because the subject that we are about to explore 
could not be any more important to our national values, and I 
think could not be more directly related to the jurisdiction of 
this Committee which is, as you know, of course, in our rules, 
gives us jurisdiction over intergovernmental matters; and that, 
in one perspective, is exactly what the organization of 
elections is about, certainly national elections in which we 
delegate the rules and the administration of the process to 
State and local governments.
    So I think this Committee has a very strong interest in 
this matter. Talking about interest in the matter, Mr. 
Chairman, you may remember that I had some personal involvement 
in last year's election. I hope you remember, anyway. 
[Laughter.]
    Chairman Thompson. Good to have you back. That is all I 
will say. [Laughter.]
    Senator Lieberman. Thank you. I was thinking, when you were 
talking about the multiple voting, that I am grateful that the 
people of Connecticut voted for me twice, legally, last year, 
which enables me to have the honor of returning as your 
colleague on this Committee. But while I obviously would have 
preferred a different outcome to last year's election, that is 
not at all what this hearing is about. It is not about the 
outcome. It is not about Florida.
    I dearly believe that what this hearing is and should be 
about is the much larger problem that we came across on 
Election Day 2000, that you spoke of, concerning our national 
voting processes; and, of course, we came across this problem 
because of the extreme closeness of the election, certainly in 
Florida, where, whichever point of view you take, it was 
virtually a tie.
    The fact is an enormous number of Americans, as we 
discovered last year across the country, were disfranchised. 
Many were denied access, as you said, to the polling booth 
because of a breakdown in the registration system; others cast 
ballots that were simply never counted. Either way, these 
problems strike at the heart of who we are as Americans, and I 
think call on us in Congress to try to do something to make 
sure that these problems never occur again, certainly not to 
the extent that we discovered they occurred last year, and 
presumably, as your statement indicated, have been occurring in 
elections for quite a long time.
    Our Nation was founded upon and continues to flourish 
according to the essential principle of self-government. The 
authority of our self-governing democracy derives from the 
right of our citizens to vote. When that right is compromised, 
the strength and integrity of our democracy is diminished.
    As the majority wrote in a 1964 Supreme Court opinion: ``To 
the extent that a citizen's right to vote is debased, he is 
that much less a citizen.'' I would add that to the extent that 
a citizen's right to vote is debased, we are all that much less 
citizens.
    Over our history, and most notably in the modern era, since 
the 1960's, we have struggled to remove barriers, both legal 
and practical, that have stood between citizens and their right 
to vote. The sobering lesson of last year's Presidential 
election is that the struggle for full voting rights is not 
over. Difficult as it was for some to believe, American still 
cannot take for granted that their votes will be counted or 
even that they will be permitted to cast a ballot in the first 
place when they clearly have a right to do so.
    I have seen estimates that say that as many as 2.5 million 
ballots that were cast around the country last year went 
uncounted; and, of course, we will never know how many more 
Americans were denied even the right to vote because of 
registration problems and questions at the polls. We do have a 
pretty good idea of all the things that went wrong in different 
places: Faulty voting equipment failed to record voters' 
choices; voters received poor instructions or no instructions 
at all about how to mark the ballot or use the machines; poll 
workers hassled voters with a supposed 1-minute rule for voting 
or demanded to see identification from some voters, and here 
there were particular allegations about that being done to 
African-American voters, but not from others.
    In some places, there were no ballots for non-English-
language voters. Long lines prevented others with a time clock 
to punch or children to attend to from voting at all; and some 
disabled voters faced a disenfranchising lack of access to a 
polling machine or place. These were the problems confronted by 
those who made it into a polling booth, but in cities and towns 
across the country, registered voters or at least people who 
believe they were registered, were turned away at the polls by 
workers who could not find their names on the voting lists.
    These mishaps are troubling, and, of course, have eroded 
the faith of many Americans in what they had assumed was their 
right to vote. That is clearly one of the reasons this 
Committee is holding this hearing and why so many others in 
Washington and throughout America are exploring ways to reform 
our voting systems. We must together find a solution to this 
problem, so that we can achieve our Nation's ideal and restore 
our Nation's confidence, not only in every citizen's right to 
vote, but then, of course, to have his or her vote counted.
    Today, as you have said, Mr. Chairman, we will address the 
problems voters had in reaching the polls; that is, in getting 
registered to vote and remaining on the rolls. Next Wednesday, 
we are going to look at the problems voters had once they got 
to the polls, in getting their votes cast and counted. In the 
last century, voter registration was actually the original 
barrier to the ballot, and according to news accounts last fall 
from States as far-flung and diverse as Maine, Virginia, 
Pennsylvania, Illinois, Florida, and elsewhere, it remains a 
barrier today.
    In 1993, Congress passed the National Voter Registration 
Act, or Motor Voter, as it is known, with the intent of 
broadening the franchise by making it more accessible. The law 
was meant to make it easier for a potential voter to be added 
to the rolls, and harder for a voter to be taken off.
    According to the 1999 Federal Election Commission survey, 
75 percent of registration applications were submitted at motor 
vehicle departments, other State agencies, or by mail. That was 
a surprisingly large number to me, and impressively so. Voter 
registration was up 4 percent in 2 years, an addition of more 
than 7 million voters to the rolls, and I think that is an 
unequivocally good thing for American democracy.
    Yet some States are obviously still struggling to keep 
their rolls clean, and to ensure that applications submitted at 
agencies like the DMVs are actually sent to the registrar with 
the necessary information; and the specter of fraud is often 
used to argue for restricting access to registration 
applications and for more frequent purges of the rolls. It is 
not a Hobson's Choice, I think, between open access or 
widespread fraud. I certainly hope not. Actual evidence of 
fraudulent voting, as you look at national patterns, is not 
great.
    Innovation and planning can help to deter and detect voter 
mischief, and, of course, we must be persistent and relentless 
in pursuit of that. We are not a society governed by fear. We 
are a society governed by openness and freedom, and our 
ultimate priority has to be encouraging as many people to vote 
as possible. Local officials cannot and should not shoulder the 
blame for these problems. Most do the best they can with the 
resources they have. I think we all have to take some 
responsibility here.
    In numerous public opinion surveys, the American people 
have expressed their support for improving the elections 
system, and I hope that these two hearings that we are holding, 
Mr. Chairman, will create some context in which we in Congress 
can go forward to do our part, and also join with the 
administration to find the necessary funds to facilitate State 
and local election reform.
    Voting is at the heart of our political system. Our 
political system is also, largely and I suppose too often, a 
partisan system, and therefore efforts to change the rules or 
improve by some lights, confused by other lights, the way in 
which our electoral systems work, can always be touched and, in 
fact, derailed by partisanship. That seems to have happened, in 
part, in the House of Representatives on this question this 
year, thus far.
    Mr. Chairman, you and I have worked well together over a 
host of different problems, some even more controversial and 
potentially partisan than this one, and I hope that we and the 
Members of this Committee can set a similar tone here, in 
trying to find problems and correct them. I hope that we can 
move forward together and prove that even the New York Times 
was wrong in its recent editorial prediction, that election 
reform will become, ``merely another partisan battleground.'' I 
hope not. The integrity of our national policy depends on us 
making more progress than that.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. Senator Bennett.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you, Mr. Chairman.
    I cannot resist making the comment that the New York Times 
is almost always wrong, at least on the editorial page.
    Senator Lieberman. You notice the representative of the 
Times chose to walk in at just that moment.
    Senator Bennett. Just that moment. That is why I added the 
comment about the editorial page, assuming this was a reporter.
    Senator Lieberman. I am going to repeat my kind words. 
[Laughter.]
    Senator Bennett. Close elections always bring out the 
difficulties in our system. When somebody wins by 65 percent, 
everybody relaxes and says, ``Well, it does not really matter. 
The election was so overwhelming that if somebody was not 
allowed to get to the polls or if someone went to the polls and 
voted seven times, it does not really matter, because the 
decision was so decisive--the outcome was so decisive that we 
do not have to look at it.''
    This last election, arguably the closest in our history, 
throws a spotlight on all of the problems, and therefore I 
think it is appropriate for us, in the aftermath of the last 
election, to look at those problems. If I could go back in 
history for just a minute and give you an example of how this 
happens, we used to have a Senator around here known as 
Landslide Lyndon, and the history of Lyndon Johnson's being 
elected to the Senate was that he was actually elected twice 
before he got to take his seat.
    He made the mistake in Texas, the first time he was 
elected, of releasing or allowing to be released the number of 
votes that had been cast for him, and that meant his opponent 
had time to scrounge up the necessary votes to defeat him. When 
he ran for the Senate the second time, he and his operatives 
made sure they would never release how many votes he had until 
the other side had released their votes, and it went late into 
the night, with each side holding back and holding back, until 
finally the then-incumbent Governor's forces said, ``Well, this 
is how many votes we have.'' It was kind of like a poker game: 
``This is the card we have.'' And then Landslide Lyndon was 
somehow able to come up with 87 more votes at the last possible 
moment, having learned his lesson in the previous election, 
which is you never, ever release your total until you see the 
other person's total, because you can then go back and create 
new votes.
    I think that was one of the most dramatic examples of how 
the election system in this country did not work properly, and 
no one will ever know how many votes Lyndon Johnson really got, 
and no one will ever know how many votes his opponent got. The 
historians that have looked at that have said, ``Well, both 
sides were cheating enormously by the votes they were 
manufacturing, that we really do not know which side was more 
corrupt.''
    I do not think we had that kind of wholesale corruption in 
this last election, but because it was so close and because we 
were fighting for an electoral victory that turned on a single 
vote, it has thrown a spotlight on the whole question of who 
did not get to the polls and would that have made a difference, 
who went to the polls multiple times and did that make a 
difference, that we are having this hearing today; and I think 
it is appropriate that we explore all aspects of that.
    One other comment; Senator Lieberman has mentioned Motor 
Voter. I am not expert in how Motor Voter has worked in other 
States. I talked to the people that administer Motor Voter in 
the State of Utah, and they consider, basically, it has been, 
at best, a waste of time and, at worst, a disaster; that it has 
not increased access to the registration rolls on the part of 
those who really want to vote. It has, in fact, cluttered up 
the rolls as some aggressive folks have gone after welfare 
recipients and said, ``You will not get your welfare unless you 
register to vote,'' and the people who thus registered say, 
``What is this all about?'' They have no interest in voting, 
and then somebody else may try to vote their names.
    Now, fortunately, we have sufficient bipartisan poll 
watchers in the State of Utah, that has not happened; but at 
least in my State, the Motor Voter law has not contributed in 
any positive sense to increasing access to the election. One 
other comment; as we deal with this question of getting people 
into the polls, I note that we now have a Federal mandate, for 
which I voted, against some criticism, that says you have to 
present photo ID before you can buy cigarettes, and yet you do 
not have to present photo ID before you can vote.
    You have to present photo ID before you can get on an 
airplane, but you do not have to present photo ID before you 
can vote. The days when all of your neighbors knew you, which 
is when our voter laws were written in the State of Utah; so 
that you showed up, the poll watcher took one look at you and 
said, ``Yeah, I know who you are; go ahead and vote,'' are 
over.
    We now have so many people showing up at the polling places 
that, I think, to add to the confidence in the outcome that 
Senator Lieberman talks about, we ought to consider some kind 
of mandate for a photo ID for people showing up, so that the 
arguments over who is this person and did this person really 
have the right to vote and so on, all disappear. You can 
present a photo ID the same way you do when you buy cigarettes. 
It can be checked off, the name can be recorded, and there can 
be no suspicion anymore that anybody is trying to do something 
that they should not do.
    With that, Mr. Chairman, I will be happy to hear the 
witnesses.
    Chairman Thompson. Thank you very much. Senator Carnahan.

             OPENING STATEMENT OF SENATOR CARNAHAN

    Senator Carnahan. Last November, when Missourians walked 
into the voting booth, a majority of them did something they 
had never done before. They voted for my husband, though he had 
perished in an airplane accident 3 weeks earlier. It was a 
defiant act on their part. It was a bold statement, but that is 
the way voters speak: ``We will not be defeated. We will be 
heard,'' and that was the clear message that they wanted to 
convey.
    You see, a vote is a voice. By itself, it is just a soft 
whisper; but combined with others, it becomes a thunderous 
roar. It is reported that the children of Israel, standing 
outside the city of Jericho, shouted with a great voice and the 
walls fell down. Well, the voice of voting Americans has 
leveled many walls of repression and injustice during the past 
227 years of our Republic.
    The 15th Amendment gave African-Americans a say in our 
government. The 19th Amendment gave the same right to women; 
and the 26th Amendment ensured that Americans considered old 
enough to give their lives for their country were counted old 
enough to vote in our Nation's elections. Yes, the voice of 
voters must be augmented, not diminished. We must continue to 
look for the most reliable ways to make the will of the voter 
known.
    For that reason, I join with those today who call for 
electoral reform; and I want to say to those urging us to 
eliminate voter fraud and to punish those who abuse the system, 
that I agree with you most heartily. But far too many States 
and local registrars are handicapped by insufficient 
technology, so we must work harder to put systems in place that 
will help us maintain accurate voter rolls, and we must educate 
our citizens to understand what steps they should take to 
register properly; and we must make sure that poll workers are 
properly trained in their duties, making them better able to 
deal with potential problems that might arise on Election Day. 
To those who say we must live up to the promise of the 
Constitution and bring more people into the process, I say that 
I agree with you, as well. The struggle for suffrage has been 
too long and too costly to be sacrificed in the voting booth. 
Any barrier to the exercise of this hard earned right 
diminishes us as a free people.
    There are several ways that we can make sure that we 
promote and not impede the voting process. We should implement 
uniform, statewide standards; modernize the voting process, 
including voting machines and other ballot technologies; and we 
should protect the voting rights of our Nation's military 
personnel.
    I look forward to the testimony today, including that of 
the testimony of two distinguished Missourians, Senator Kit 
Bond and Congressman Lacy Clay, as well as to hearing from 
others who want to strengthen our democracy by reforming the 
electoral process. But as we listen today, I urge you to heed 
the words of Franklin D. Roosevelt, who said, ``Let us never 
forget that government is ourselves, and not an alien over us. 
The ultimate rulers of our democracy are not the President or 
Senators or Congressman or Government officials, but the voters 
of this country.''
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. It is difficult to 
pursue these matters without talking about specifics, and it is 
difficult to seem like you are singling some situations out and 
leaving out others, but some have received quite a bit more 
publicity than others. One of those situations has been St. 
Louis, Election Day, and we do have with us a distinguished 
Senator and a distinguished Representative, to discuss those 
matters as to what may have happened, what happened, and what 
we might constructively do about it? So we are delighted to 
have leading off today Senator Christopher Bond.
    Senator Bond, do you have a statement?

 TESTIMONY HON. CHRISTOPHER S. ``KIT'' BOND,\1\ A U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman, 
distinguished Ranking Member, my colleagues from Illinois, from 
the State of Missouri, Delaware and Utah. I thank you for 
giving me the opportunity to testify today. No one wants their 
State to be the poster child for a problem. No one wants their 
home town to become a laughingstock, so it is with much dismay 
that I come before you today, to describe what has gone on in 
the City of St. Louis, and what is going on with some reforms 
that I think are vital.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Bond appears in the Appendix 
on page 123.
---------------------------------------------------------------------------
    Over the past months, many Americans saw for the first time 
how actual vote counting is done--or not done. We have had a 
real-life civics lesson, and those of us in positions of 
responsibility need to fix what needs fixing, reform what needs 
reforming, and prosecute where actual wrongdoing has occurred.
    Voting is the most important duty and responsibility of a 
citizen of our Republic. It should not be diluted by fraud, 
false filing in lawsuits, judges who do not follow the law, and 
politicians who try to profit from the confusion.
    At the same time, voters should not be unduly confused by 
complicated ballots, voting rosters, or confounded by 
inadequate poll lines or voting booths or other facilities, in 
an effort to vote.
    Mr. Chairman, I want to make one simple point as I begin. 
Vote fraud is not about partisanship. It is not about Democrats 
versus Republicans. It is not about the north side of St. Louis 
versus the south side of St. Louis. It is about justice. As has 
already been said by the distinguished panel, vote fraud is a 
criminal, not a political act.
    Illegal votes dilute the value of votes cast legally. When 
people try to stuff the ballot box, what they are really doing 
is trying to steal political power from those who follow 
election laws.
    The Missouri Court of Appeals recently wrote: ``Equal 
vigilance is required to ensure that only those entitled to 
vote are allowed to cast a ballot. Otherwise, the rights of 
those lawfully entitled to vote are inevitably diluted.''
    St. Louis City Democrats had this to say over the past few 
months, my own friend, State Representative Quincy Troupe: 
``There is no doubt in any black elected official's mind that 
the whole process has discouraged honest elections in the City 
of St. Louis for some time. We know that we have people who 
cheat in every election. The only way you can win a close 
election in this town, you have to beat the cheat.''
    St. Louis' outgoing Mayor Clarence Harmon: ``I think there 
is ample, longstanding evidence of voter fraud in our 
community.''
    Eleventh Ward Alderman Matt Villa: ``Who knows who did it, 
but it is apparent they are trying to cheat and steal this 
election.''
    What we have seen in St. Louis over the past few months has 
been nothing short of astonishing, and that's why I say a 
laughingstock. We have had dead people registered, and, yes, 
even a dog, Ritsy Meckler. Ritsy was on the poll list for 6 
years--do not know how many times she voted. We have had fake 
names registered. We have had people registered from addresses 
which are vacant lots and voter rolls with more names than 
there are people of voting age in the City of St. Louis.
    A city judge violated State law by providing extended 
voting hours just for a few selected polling places with an 
overwhelming dominance of one party; and allowing voters going 
to the polls to vote, even though they are not registered. We 
have discovered in our ongoing review another major problem in 
St. Louis. The voter rolls are so clogged with incorrect or 
fraudulent data that legal voters are shortchanged. St. Louis 
City actually has more voters listed on its voter rolls than 
the voting age population in the city, over 100 percent 
registration rate. That is amazing, but not surprising, if you 
have dogs and dead people registered.
    Equally amazing, we discovered, in the City of St. Louis, 1 
out of every 10 registered voters is also registered somewhere 
else in the State. In fact, over 24,000 people are dual-
registered in St. Louis City, as well as somewhere else in 
Missouri. My staff reviewed almost 17,000 multiple-registered 
names, found that 12,420 had moved out of the city and 
registered at new addresses; 487 voters were actually 
registered twice in the city itself; 285 voters were registered 
three different places, and of these, 285 were actually 
registered three times in St. Louis. Three voters were 
registered at four different places in this State. It gives you 
a real opportunity to participate in an election.
    It is painfully clear that the registration system is 
broken and desperately needs repairing. We have seen all kinds 
of illegal registration schemes. A city grand jury in St. Louis 
is now investigating 3,800 voter registration cards dumped on 
the election board on the last day to register before the March 
6 primary. Press reports noted that at least 1,000 were bogus 
registrations for people already registered, and, of course, 
some were the deceased public officials. Now a Federal grand 
jury investigation is underway as the FBI recently issued a 
subpoena to the St. Louis Election Board for all records 
pertaining to any person who registered to vote between October 
1, 2000 and March 6, 2001; it also requested all records of 
anyone who cast absentee ballots or regular ballots during that 
period, as well as anyone turned away from the polls and barred 
from voting.
    Mr. Chairman, I think it is obvious there has been brazen 
fraud with these bogus voter registration--dead people, fake 
names, and phony addresses. The system is being abused. Because 
nearly all of these fraudulent registrations were mail-in 
forms, I would urge the Committee to make real reforms in the 
Federal law in this area. At a minimum, States need to be given 
the authority to require on a mail registration form a place 
for a notarization or some other form of identification.
    Current Federal law prohibits States from including this 
safeguard. That is one area where Federal law is an impediment 
to anti-fraud efforts. In addition, election boards need time 
to review cards, as they are most likely to be brought in on 
the last days of registration. Given what we have seen the past 
months, same-day registration would be an absolute invitation 
to fraud.
    As the Missouri Court of Appeals wrote when they shut down 
the improper efforts to keep certain polling places open on 
election night in November, 2000: ``. . . Commendable zeal to 
protect voting rights must be tempered by the corresponding 
duty to protect the integrity of the voting process. . . . 
Equal vigilance is required to ensure that only those entitled 
to vote are allowed to cast a ballot. Otherwise, the rights of 
those lawfully entitled to vote are inevitably diluted.''
    As I noted earlier, I believe it is our duty to fix what 
needs to be fixed, reform what needs to be reformed and 
prosecute where necessary. Criminal investigations are ongoing. 
I hope if criminal violations are found, they will be 
prosecuted, but we must get a handle on voter rolls.
    People who register and follow the rules should not be 
frustrated by inadequate polling places, phone lines or 
confused, out-of-date lists. At the same time, we must require 
voter lists to be scrubbed and reviewed in a much more timely 
manner, so that cheaters cannot use confusion as their friend.
    States should be permitted, when voters come in after 
having registered by mail for the first time in a Federal 
election, to present a photo ID, as my colleague from Utah has 
said, to indicate that they are who they say they are; that 
they are not a dog; that they are not dead; that they do have a 
real, physical presence. I do not want the City of St. Louis to 
continue to have a lasting regulation as that described by 
Representative Troupe: ``The only way you can win a close 
election in this town, you have to beat the cheat.''
    Unfortunately, some of the provisions in Federal law make 
it difficult to ensure honest elections. We have had 
investigations by the outgoing Secretary of State in Missouri. 
The newly-elected Secretary of State in Missouri is continuing 
those investigations. I believe the Missouri General Assembly 
will be acting on recommendations for State improvement in 
voting procedures, and I think that is where much of the reform 
needs to be done, but we at the Federal level must be sure that 
our Federal requirements do not impede the ability of State and 
local officials to ensure that the election process is honest, 
that all eligible voters are allowed to vote, and no one is 
allowed to vote illegally.
    I thank the Chairman.
    Chairman Thompson. Thank you very much, Senator. You 
mentioned the Federal prohibition on States providing for a 
place for a notarization on a registration. Is that what you 
referred to?
    Senator Bond. Yes, sir.
    Chairman Thompson. Are there any other Federal provisions 
you think would bear revisiting, that present a problem. It 
seems to me like most of the things that you have listed still 
remain under the purview of the local election officials.
    Senator Bond. Well, one of the things that makes it more 
difficult is when you have inaccurate voter registration lists 
if you have registered, and it is a mail-in registration, the 
election authority, the local election authority, sends out a 
notice to the voter, and under the Motor Voter law, if that 
notice is returned as undeliverable, then you cannot remove 
that voter from the list until they have not voted for two 
elections.
    It would seem to me that States should be given some 
greater leeway. The States should not be hampered in their 
ability to clean up the rolls. That is one of the most 
important things I think is needed, and I would require before 
a voter casts a vote in a Federal election. If they have voted 
by mail--if they have registered by mail, they should be 
required to vote in person and show a photo ID when they come 
in to vote. That would at least get the dog off the rolls.
    Chairman Thompson. Would that be in any way prohibited 
under Federal law as it now stands, in your opinion?
    Senator Bond. Well, there is some question about what 
Federal law would permit or prevent. I think the requirement 
should be a Federal requirement, if we have required that 
voters be allowed to register by mail, I think we ought to 
build some safeguards into it. The City of St. Louis, after the 
tremendous attention focused on the voting in the general 
election of November 2000, required photo IDs; and they found 
that the system worked surprisingly well. There was great 
concern about fraud, because it was really an important 
election. It was a mayor's primary election. It was not one 
dealing with Presidents and Governors and Senators and 
Congressman. It was about jobs in St. Louis City. So they took 
that very seriously.
    Chairman Thompson. In the general election, there was a 
lawsuit filed, as I recall, to keep the polls open. That was 
upheld by the local Federal District Judge, as I understand it, 
and overturned by the Court of Appeals. What was the nature of 
that lawsuit and the circumstances surrounding that; and what 
was the significance of that lawsuit with regard to this 
election?
    Senator Bond. That is an old-time Missouri custom. Prior to 
my election as Governor in 1972, there was an anomaly in 1940. 
A Republican was elected, apparently elected, Governor of 
Missouri. Challenges went on until March of that year. He was 
finally seated, but he was the only one between the Depression 
and 1972. In 1972, I ran for Governor against Mr. Dowd, a 
leading official in the City of St. Louis. And we found on 
election afternoon an order was issued keeping the polls open 
in the City of St. Louis, and they stayed open and they stayed 
open. Finally, after midnight on election night, November 1972, 
when enough votes came in from out-of-state to give me a margin 
greater than all the voters in the City of St. Louis, the polls 
were allowed to close.
    So this time around, we were very interested when we read 
in the paper the morning of the election that there were plans 
to keep the polls open. I asked that lawyers be prepared to go 
in to challenge that, and sure enough an order was entered on 
the election afternoon. The Gore-Lieberman campaign filed a 
lawsuit on behalf of Robert D. Odom, who claimed in court that 
he has not been able to vote and fears he will not be able to 
vote because of long lines at the polling places and machine 
breakdowns. His attorney said Mr. Odom is here and prepared to 
testify. He was denied the right to vote based on the 
allegations of the petition. We found out a little problem: 
Robert D. Odom had passed away 2 years previously.
    His lawyer then came back and said that our team was just 
wrong; we cannot even keep the voters straight. What they 
really meant was that it was Robert M. Odom, who is known as 
Mark Odom. Well, it turns out that Mark Odom had already voted 
before the lawsuit was filed. So he probably would have a tough 
time testifying truthfully that he was afraid he would not be 
able to vote. About that time, recorded calls, which had been 
prepared by Reverend Jesse Jackson, started coming in to the 
City of St. Louis, saying you can vote until 10 o'clock, the 
polls will be kept open, and if you want to vote as late as 
midnight, you can go to the city election board.
    It strikes me--it strikes one as perhaps having been 
planned. There was a charge that, somehow, the St. Louis City 
Election Board, which was democratically appointed, although it 
is supposed to be bipartisan, approved by the Democratic Senate 
in a city, the City of St. Louis, which is 4-1 Democratic, that 
the election board was somehow taking steps to deny Democratic 
voters the right to vote for Democratic candidates. It seems to 
me that one does not pass the laugh test. This was a major 
effort consistent with what had been done in the past. 
Fortunately, the Missouri Court of Appeals overturned the 
Missouri trial judge's order and closed the polls within about 
45 minutes; but we found the other evidence, as we looked at 
the election, of questionable registrations, some 30,000 voter 
registration postcards were dropped in a month before the 
election, right on the close of the registration, and we 
understand that some 17,000 of those people voted. We do not 
know all the details, but there was a major effort, I believe, 
to change the will of the people as it had been expressed by 
those lawfully voting as eligible voters during the time when 
polls were supposed to be open.
    Incidentally, a similar suit was filed by Gore-Lieberman in 
Kansas City, to keep polls open there. That application was 
denied by the court in Jackson County.
    Chairman Thompson. Thank you very much. My time is almost 
up. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. I do not know 
enough about the situation that Senator Bond describes in St. 
Louis to get into the details, but I do want to try to draw 
from it a few lessons for our concern, because it does 
highlight some of the choices we have to make. Obviously, if I 
heard you correctly, Senator, there were more names on the 
registration lists in St. Louis than there were voters of 
voting age.
    Senator Bond. That is correct.
    Senator Lieberman. So, as I believe you said, obviously, 
the first thing necessary there was to clean up the list.
    Senator Bond. That is correct.
    Senator Lieberman. In other words, the number of voters 
shows that there is clearly a problem, but not inherently that 
there is fraud, based on that list, because a lot of people 
continue to move. Young people, minorities, etc., tend to move 
more frequently. Is there any indication on the record in St. 
Louis why the lists were not cleaned up?
    Senator Bond. One of the things is that Federal law makes 
it difficult to clean them up. You have to, if they mail a 
notice to you and it is returned, you cannot take voters off 
the rolls until they have not voted in two consecutive 
elections. So the city election board, the State, cannot 
develop more effective means for cleaning up the election 
rolls; and there is evidence, I believe, before the grand jury 
about possible abuses of the votes. But, again, that will await 
final determination by either the circuit attorney or the U.S. 
Attorney relying on the work of the FBI. I do not have any--I 
cannot give you a specific example of any crime that was 
committed there.
    Senator Lieberman. I must say that the more I get into 
these kinds of cases, the more I get focused--because of the 
difficulties on the voter registration lists--on what we can do 
at the polls to make it easy for people to, if they come, to 
vote, and the photo ID is one possibility.
    I know that there has been criticism or concern expressed 
about that, because not everybody has a photo ID, and I believe 
there is a court case--I think it might have been Louisiana--
where is says you can require a photo ID, but in the 
alternative, if a person does not have it, they have to sign an 
affirmation under penalty of perjury that they are who they say 
they are. How would you feel about that combination?
    Senator Bond. If there is a means of identifying that 
person through affirmation and a notarized application--if 
there is a means for the election board or the election 
authority and the prosecuting authorities to follow up on it, 
then that would seem to work.
    If, however, you are engaged in a wholesale vote scam, it 
may be difficult if people have been brought in from other 
areas. Of course, you can also manufacture a phony ID. For 
every better mousetrap, there is a smarter mouse. But we need 
to have, at least, some decent mousetraps in place that would 
make it more difficult and threaten the wrongdoer with some 
kind of criminal activity--punishment.
    Senator Lieberman. Part of the balance here I think we are 
all dealing with is you obviously do not want to tolerate voter 
fraud. In fact, you want to punish it and deter it by any means 
you can, but you do not want to do so much that you are ending 
up discouraging or making it harder for people who have a 
legitimate right to vote, to vote; and that is the balance, I 
think, we are looking for.
    Whenever I heard the numbers that came out last year 
nationally, that as many as 2.5 million people cast votes that 
were not counted, not to mention those who did not get to vote 
when they came to the polling place, my guess is--and this is a 
totally unscientific guess--that the number of those who may be 
voting fraudulently, which is unacceptable, is much less than 
the number of those who are coming to vote and not getting to 
vote or having their votes counted, and we have got to find a 
way to balance that.
    One of the ways that people have talked about is either 
provisional registration or same-day, election day, 
registration, which exists in--each of those ideas exist in 
some other State. Provisional registration is somewhat similar 
to the affirmation we have talked about, where you show up at 
the poll, you sign your name, you affirm your citizenship, your 
age, your address, and you sign a document, again under the 
penalty of perjury. If, afterward, as the registrars have the 
chance--in other words, when you are challenged, you can 
resolve the challenge quickly and vote by provisionally 
registering right there, and then it is understood after that, 
there will be an investigation by the registrar. Your vote will 
not count until that investigation is completed, or the other, 
of course, is same-day registration, which existed in at least 
one State. I have forgotten which one right now. What would you 
think about those two ideas?
    Senator Bond. I think they are open invitations to fraud. 
Unfortunately, it is very difficult to clean up the 
registration rolls when we have a month between the close of 
registration and actual voting day. There are instances, I 
believe, too many instances where people have voted twice and 
they have never been prosecuted. That is against the law right 
now, but it is difficult, after the election is over, to get 
people to go out and make the investigations.
    I think we ought to do a better job of prosecuting where 
these fraudulent activities have occurred. There is information 
that we have turned over, where it appears that a number of 
people may have voted twice. Generally, this is not regarded as 
a serious crime. Voting twice is just showing a healthy 
appetite for participation in the electoral process. I do not 
think it is a healthy appetite.
    Senator Lieberman. I am sure all of us agree with you.
    Senator Bond. I think it is one that is a crime, and same-
day registration or provisional registration, I think, would 
increase the number of people attempting to vote numerous 
times.
    Senator Lieberman. I look forward to asking some of the 
expert witnesses on the panels that follow about that, because 
I believe that has not been the case in the places where it has 
been tried. I do not have any further questions. My staff just 
handed me a copy of an article from the St. Louis Post 
Dispatch, January 6, 2001, which reports on an investigation of 
this election that you refer to in St. Louis, by the former 
Secretary of State, Becky Cook, and this is in regard to the 
polls being kept open after 7 p.m., that apparently fewer than 
100 people actually voted after 7 p.m., when the polls were 
kept open because of a court order, which was not enough to 
sway any of the elections being held there.
    So, thank you, Senator Bond.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.
    You talk about Missouri. One of the books I have read in my 
lifetime was the biography of Harry Truman, by his daughter, 
Margaret, and you trigger a memory here. In that book, she is 
somewhat defensive of her father's good friend, Tom Pendergast, 
and describing one of his elections, she goes on at great 
length about how corrupt things are in St. Louis, where another 
political boss, whose name I cannot remember, was running up a 
huge anti-Truman majority, and it was clearly fraud, because 
there were 89 percent, 90 percent of the voters in St. Louis in 
this Democratic primary voting for Truman's opponent, and that 
kind of thing could only be achieved by fraud.
    But, she says in the book, good old loyal Tom Pendergast 
did his best, and in Kansas City, they got 91 percent and 
Truman got elected, and I thought, now, wait a minute, that is 
the way politics is played, and you have given us an indication 
that Missouri does have some of that history.
    I want to raise with you this possibility and get your 
reaction to it. As we talk about voter fraud and, frankly, 
voter problems, the access problems to which Senator Lieberman 
referred, they seem almost always to come in big cities. This 
is where anonymity is. Again, you go back to my district in 
Utah, when I walk in there, everybody knows me. We do not get 
that concerned, because we do not have the kind of anonymity 
that comes in what the social scientists call the Lonely Crowd.
    I hear anecdotes, do not know how true they are, about 
Chicago. We do know, in the 1960 election, there were more 
votes cast than there were people living in some districts, and 
the ballots were destroyed within 24 hours of having been 
counted. So there was no way to go back and deal with it.
    The story is told in Boston about the election official. 
The press approach him and say, ``Do you own that triplex at 
such-and-such an address?'' And he said, ``Yes.'' They said, 
``According to the voting registrar, there are over 300 voters 
at that address and there are only three apartments, 300 
voters. How do you explain that?'' He said, ``Very simple. 
Haven't rented out the third floor yet.''
    I have been told that, in Philadelphia, they do it 
differently than the way you have described in St. Louis, and 
in Philadelphia there are some precincts where, at 8 o'clock, 
they close the doors very promptly, and then they go to the 
back of the machine, open it up, find out how many votes short 
of registered voters have been cast, go back to the front of 
the machine, grab the favored lever, and pull it 75 times or 87 
times, or however many necessary to bring the vote up to the 
established number of registered voters.
    It seems to me, as I think about these examples, the 
problem arises from the fact that in many of these precincts 
there are not, in fact, poll watchers for the other party. If 
you have one party running the poll, absolutely, even if you 
have photo ID in place, even if you have the laws in place, the 
opportunity to do what I have just described is always there 
because there is no one watching.
    In contrast, in Florida, there were lawyers for both sides, 
watching every single dangling chad, so that nobody could 
really get away with anything. Indeed, even better than that, 
the television cameras were there. As I talked to some of the 
people that were monitoring what was happening in Florida, they 
said the results changed, whether the television cameras were 
there or were not, that one candidate would surge when the 
cameras were turned off, and then would not do so well when the 
cameras were turned on.
    This kind of sunshine exposure seems to me to be the 
solution, both to too long of lines. If lines are too long and 
the people cannot vote, the party that thinks, ``Gee, we are 
being disadvantaged by that,'' will be the one that will speak 
out, accurately and proper. But if there is only one party 
there and they can say, ``Well, we are going to go do what we 
do in court or whatever, and nobody is watching us,'' that is 
where you get the difficulty.
    First, I would like your response to that, and then assume 
that you agree with me that accurate poll watchers of both 
parties will help solve both the fraudulent problem and the 
access problem. How do we do it from the Federal level? Are we 
talking about funding federally-paid poll watchers, things of 
that kind? I have not thought that one through, and I would 
appreciate your reaction.
    Senator Bond. I would agree with you on the importance of 
sunshine and full disclosure and coverage. I would agree with 
you that true partisans representing both parties or more than 
two parties, if that is the case, are essential. I do not think 
the Federal Government is going to be able to go out and select 
poll watchers. The voting mechanisms are basically controlled 
by the States. The States are the entities responsible. The 
local election boards--we have boards in St. Louis City and 
County, and Jackson County. We have county clerks in other 
parts of the State. They have to be responsible.
    I think it is incumbent upon the parties to make sure that 
they have bona fide representatives of their parties available 
at every polling place and, to some extent, there have been 
instances, I know in Missouri, where there have not been, where 
the Republican Party has not put up good poll watchers. I would 
agree with you, as I said, that having coverage is vitally 
important.
    I believe the coverage resulting from the questions raised 
about the November election may have made the mayor's primary 
in St. Louis, Missouri, in 2001, perhaps the cleanest election 
it has ever had. I hope they might like it and continue to try 
it in the future, but I think the scrutiny of the media and the 
media in St. Louis, with help from other media around the 
State, have focused attention on it, and that is one of the 
best disinfectants, is to publicize the wrongdoing.
    I would say with respect to lengths of polls, there are 
areas where--Republican areas of the State--friends of mine 
waited an hour and 45 minutes, 2 hours, anecdotal. This is 
unacceptable, whether it is in a Democratic area, a Republican 
area or an evenly divided area, and that is something that the 
Missouri Secretary of State, the general assembly, the local 
election officials, must look at to make sure that you have 
adequate polling places and adequate equipment, so that 
everybody who is an eligible voter who presents himself or 
herself for an election, has the opportunity to vote in a 
reasonable time.
    There were cases where people I know had to go to work and 
left the polls after an hour or so, because they were still too 
far away to vote, and those people were not able to vote, and 
this is a problem. This is unacceptable, whether it is a 
partisan area or a bipartisan area.
    Senator Bennett. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Mr. Chairman. I am glad you are 
having this hearing. There cannot be a topic that is of more 
importance and more timely than to talk about how elections are 
run in our country and whether they are fair.
    I still think, as we travel around, that we find a lot of 
people are harboring anger and resentment over what happened 
last November. I think we have an obligation, both parties have 
an obligation, to try to make this system better. But I think 
it is worthwhile at least for a moment or two, to reflect on 
the history of this debate and this issue, and I see that Ralph 
Neas is going to be making note of some of this in his 
testimony. But after the Civil War and Reconstruction, what 
happened across America, particularly in the South, was 
something which was reprehensible.
    It was a coordinated effort to make certain that people of 
color did not have a chance to vote, and it worked. It worked 
effectively, with poll taxes and literacy tests and, ``cleaning 
up the rolls,'' they virtually disenfranchised African-
Americans in this country. In the 1960's, as part of the civil 
rights debate, one of the most important elements was our 
decision to really put an end to that practice, and to say that 
wherever you lived in this country, black, white, or brown, you 
had a right to vote as an American.
    That Voting Rights Act, I think, really spoke to some basic 
values in this country, and values we should not forget. In 
1993, we updated that earlier Voting Rights Act, to try to make 
it easier for people to have a chance to vote in this country. 
I do not disagree with Senator Bond's suggestion of a photo ID. 
I think there are ways we can deal with that, and I hope we 
will. I hope, during the course of this conversation on our 
elections, that we will try to get rid of some of the haphazard 
procedures that are used for registration across our country.
    How in the world can we countenance all the obstacles we 
throw in the paths of people who just want to exercise their 
right as Americans to vote? How can we explain to them that 
when they come to the polling place, they are going to face 
voting machinery that is virtually antiquated? Over 120,000 
voters in Cook County did their civic duty, took off time from 
their job, went into the polling place, cast their votes, and 
they were not counted because the machinery there is so bad. 
What a coincidence that the worst voting machinery in America 
happens to be the voting machinery used the most by minorities. 
That is a fact.
    But there are other problems in the system, too. Thousands 
of voters in Republican DuPage County were disenfranchised 
because the Motor Voter rolls and the regular rolls in that 
county were not reconciled. Good, strong Republican voters, 
Senator Bond, were turned away. They did not get their chance 
to vote, either, and we should be ashamed of that. At this time 
in our history, when we have the technological capability to 
not only register people and do it effectively, and give them a 
means to vote effectively, it is disgraceful that we are 
ignoring it.
    I think of some of the people that have taken the time to 
meet their civic responsibility, who must be so angry and 
frustrated at what they ran into in the November 7 election. I 
hope that we can do something about this, and I hope we can do 
it on a bipartisan basis, and I can tell you from the 
experiences in your home State of Missouri and my home State of 
Illinois, the State legislatures are not giving us much hope 
that they are going to address it at all, not at all.
    Now, here is our challenge. If this is truly a national 
value and a national right and a national principle, can we 
really surrender all jurisdiction to the maintenance and 
coordination of the elections to local and State officials, and 
expect anything other than the haphazard results we have seen? 
If we want to purge the rolls of any people who should not be 
on them, and I certainly do, who are illegally and dishonestly 
trying to vote more than once or vote when they are not 
entitled to, then frankly we have to talk about national 
standards.
    We hate to do that. We like to leave all this authority at 
the State and local level, and look what you end up with: 
People who are conscientiously trying to exercise their right 
to vote, trying to figure out what in the world is going to 
meet them if they turn up at the polls to vote. One last point 
I want to make: 24 million Americans are illiterate. Tens of 
millions of Americans have limited skills. They walk into a 
polling place once every year or 2 years. They are handed some 
instructions and a piece of machinery with a long line behind 
them and told quickly vote and let's get going.
    They are trying to do their best, and we ought to be able 
to create a process in this country where a person with a 
limited education, limited experience, still has a chance to be 
a full-fledged American. I think that is part of what our 
mandate should be as a result of these hearings.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. Senator Carnahan.
    Senator Carnahan. No questions at this time.
    Chairman Thompson. Thank you very much, Senator Bond. We 
appreciate your being with us today.
    Senator Bond. Thank you very much, Mr. Chairman and Members 
of the Committee.
    Chairman Thompson. We will now proceed with Representative 
Lacy Clay. Welcome to the Governmental Affairs Committee, 
Congressman; appreciate your being with us today. Please 
proceed with your testimony. Your written remarks will be 
entered into the record in their entirety.

  TESTIMONY OF HON. WILLIAM LACY CLAY,\1\ A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MISSOURI

    Mr. Clay. Thank you, Mr. Chairman, Senator Lieberman, and 
distinguished Members of the Committee. Thank you for allowing 
me this opportunity to detail the election problems that 
occurred in the City of St. Louis during the November 2000 
Presidential elections, and to add my voice to those calling 
for meaningful and comprehensive election reform.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Clay appears in the Appendix on 
page 131.
---------------------------------------------------------------------------
    Last November's general election in the City of St. Louis 
exposed a voting system that is riddled with serious election 
procedural mistakes, major deficiencies in poll worker 
training, obsolete and inadequate equipment, and gross errors 
in maintaining accurate voter rolls that resulted in the 
disenfranchisement of thousands of qualified voters in my 
district.
    These factors led to an election conducted amid widespread 
voter chaos at polling places throughout the city, the result 
of a record voter turnout and the arbitrary and capricious 
removal by the St. Louis Board of Elections, of over 50,000 
qualified voters from the city's active voter rolls. When these 
voters, most of whom were African-American, arrived at the 
polls to cast their votes, they were told by election officials 
they were not on the active voter list and that they would not 
be allowed to vote at their normal voter precinct.
    Due to inadequate communication between polling precincts 
and the central election office, election workers were unable 
to verify the eligibility of these voters. Additionally, poll 
workers did not receive training for dealing with these 
situations, so they ultimately directed all of the affected 
voters to go to the central election board office downtown, to 
verify their status.
    The resulting confusion at the central election office led 
to a near-riot as thousands of eligible voters attempted to 
cast their vote, some to no avail. To make matters worse, while 
the election board was clearly unprepared for the massive voter 
turnout, they were also slow to react to the growing voter 
confusion they created as the day progressed. Equally troubling 
was the election board officials' resistance to reasonable 
remedies designed to ensure that every qualified voter be 
afforded the opportunity to cast his or her vote without 
obstruction. Clearly, such a situation cannot and must not be 
tolerated. Such conditions not only create confusion among 
voters, they also threaten the integrity of the electoral 
process itself.
    It is imperative that Federal, State and local officials 
join in a common effort to reform how we conduct our elections. 
The Nation should never again be subjected to the voting 
travesty of the last Presidential election. The system is 
broken and it is time that we admit it and work toward common 
sense solutions.
    First, we must take legislative action to provide the 
necessary funds for modern, state-of-the-art, uniform voting 
equipment, paying particular attention to lower-income 
communities that have long been burdened with outdated and 
obsolete voting equipment; and to the maximum extent possible, 
we must mandate uniform ballot designs and eliminate the 
current 40-year-old punch card system. We must also require 
that local election officials develop comprehensive training 
standards for their workers, and hold them accountable for 
implementing such training.
    Last, and most importantly, we must mandate election 
procedure reform to ensure that qualified voters are not 
arbitrarily or inadvertently removed from active voter rolls. 
This was a major failure in the City of St. Louis, and I 
suspect the situation is widespread across the country. Voters 
should not continue to suffer disenfranchisement because 
election officials are unwilling or unable to safeguard their 
fundamental right to vote. If we fail to act now, we will not 
only inflict further damage to the democratic process, we will 
also fail in our sworn duty to protect and defend the 
fundamental rights of every citizen.Thank you, Mr. Chairman, 
and I will yield for any questions at this time.
    Chairman Thompson. Thank you, Representative Clay. The 
50,000 voters you were talking about, are those voters who 
showed up at the polls and were determined to be--or later it 
appears that they were inactive voters, and the people at the 
polling places only had lists of active voters, they had no 
lists of inactive voters?
    Mr. Clay. No. The inactive voter list was compiled 
illegally by the St. Louis City Board of Election 
Commissioners. Now, under the Motor Voter Act, there is a 
method of compiling and purging voters from the rolls. The St. 
Louis City Board of Election Commissioners, if you go to the 
Cook report, the former Secretary of State's report, in Exhibit 
B, it will tell you that the St. Louis City Board of Election 
Commissioners illegally compiled this voter list, did not 
follow NVRA, did not follow the Voting Rights Act, and so, 
therefore, they compiled an arbitrary list and did not 
distribute it properly to poll workers, to poll judges.
    So, when they showed up, they had the list for the entire 
city, and if your name was on that list, you were told that you 
could participate. Now, the criteria for making the list was 
that you had not voted in the last 6 years. Mr. Chairman, 
because you did not participate in an election in the last 6 
years does not preclude you from voting. I am sorry. If you 
register one time in your life, you are qualified to vote.
    Chairman Thompson. Well, the law, though, provides for a 
purging after a certain period of time; does it not?
    Mr. Clay. Yes, it does.
    Chairman Thompson. Then you are not on the list, and then 
you cannot----
    Mr. Clay. No, then you are actually purged. However, in 
this case, the city election board did not follow Federal or 
State statutes to actually purge the voter. They had an 
arbitrary list that was there to more or less discourage voter 
participation, but not to actually purge those voters.
    Chairman Thompson. You actually think those local election 
officials there in St. Louis were trying to discourage people 
from voting?
    Mr. Clay. That was the ultimate use of the list, and what 
happened on Election Day was that those people sought to 
exercise their constitutional right to vote, and so they follow 
the judge's instructions, to go to the central office downtown. 
They went downtown, insisting of voting, and there was a near-
riot downtown, Mr. Chairman.
    Chairman Thompson. Well, my understanding is that if there 
is no activity with regard to a voter in a certain number of 
years, you are put on an inactive list. You are not purged yet, 
but you are on an inactive list. You can still vote, and that 
is where the confusion was. They had an active list, but they 
did not have an inactive list, and some people were turned away 
that should not have been turned away.
    Mr. Clay. That is accurate, Mr. Chairman.
    Chairman Thompson. You heard Senator Bond's testimony of 
what appears to be massive fraud or attempts at fraud. Do you 
generally subscribe to the extent of the problem there with 
regard to that last election?
    Mr. Clay. I am very disappointed at the mischaracterization 
of the election process in the City of St. Louis. Having been 
on the ballot for about 20 elections myself, I was never taught 
that you had to cheat to win an election. We do not subscribe 
to that. I agree with everyone in this room that any fraudulent 
election activity should be prosecuted to its fullest, and so I 
am disappointed at the characterization of my hometown and its 
election process.
    You do not have to cheat to win, and that is one thing I 
have always been taught and one thing that we have always 
followed in our politics. You do not need to cheat to win, you 
just turn out your vote. You get the maximum number of people 
out to the polls and beat your opponent. That is what elections 
are all about. That is what the American process of 
electioneering is all about. So I am really disappointed at the 
characterization that I have heard here today.
    Chairman Thompson. You mentioned, and other Members up here 
today, have mentioned the problem with regard to the equipment, 
and the heavy implication, anyway, is that it is more than 
perhaps a coincidence that faulty equipment shows up in some 
places or better equipment shows up in other places. I was 
looking at a study conducted by Dr. Steven Knack, University of 
Maryland, along with Professor Martha Kroft, from the 
University of Missouri, Kansas City, and I guess the best way 
to refer to this is Mr. Knack's statement before the Rules 
Committee, and he said this: That their study showed first that 
nationally racial differences in punch card use across the 
country are negligible; 31.9 percent of whites and 31.4 percent 
of African-Americans live in counties using punch card 
equipment.
    First, controlling for county size and other factors that 
affect the type of equipment in use, it turns out that a higher 
percentage of African-Americans actually is associated with a 
significantly lower probability that counties use punch card 
voting equipment. Second, African-Americans are more likely 
than whites to live in counties using electronic voting or 
lever machines, the two types of equipment in which overvoting 
is impossible if the equipment is programmed correctly.
    Third, Hispanics are more likely to live in punch card 
counties than blacks or whites. This disparity is entirely 
attributable to the use of punch card voting in Los Angeles 
County. Fourth, based on Presidential voting patterns in 1996, 
Democratic and Republican voters across the country were 
equally likely to live in punch card counties. He further says 
public resources do not seem to matter much. Counties with 
punch card systems tend to have higher incomes, higher property 
tax revenues per capita, and larger populations than do 
counties with more modern voting equipment.
    In counties using electronic voting systems, the most 
expensive type, income and tax revenues are actually lower than 
in counties using punch card or other type of voting 
technology. Florida fits this pattern. In Florida, it is the 
largest and richest counties, with the highest property tax 
revenue, that tend to have punch card equipment. I was 
wondering if that is an accurate study, that funds might be 
better spent in modernizing our registration system.
    Of course, any comments you might have about that, but do 
you support setting up a centralized, statewide database, for 
example, in Missouri?
    Mr. Clay. On the issue of centralized database, sure, I 
would support that wholeheartedly. The system should be that if 
you register in one locale, then you should be purged from the 
other locale. In order to do that, you would need a statewide 
database. On the issue of punch cards, we know that is the one 
voting device that gave us the most difficulty in November 
2000, nationally. Having voted myself since 1974, since I was 
18 years old, never missed an election, always voted in the 
City of St. Louis, I have never voted on any type of machine 
but a punch card machine.
    So electronic voting, maybe we need to find a uniform 
system of voting, and maybe it is electronic, because it seems 
to me that the punch card gives us the most difficulty. It 
allows for more confusion with the butterfly ballot. So, 
therefore, I would look for a uniform system of voting 
nationally.
    Chairman Thompson. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. I was interested 
in that study you read, and I would actually like to take a 
look at it, but I do remember that part from where the 
different voting machines were; that there was a study awhile 
ago, within the last 3 or 4 weeks, in USA Today, that said that 
African-Americans in this country had a four times greater rate 
of uncounted votes cast than other voters. That ought to be a 
focus of our inquiry here. Obviously, some of it was the voting 
machines or processes. Some must have been other factors, but 
that was a stunning number to me when I read it.
    I appreciate your testimony, Congressman Clay. I am curious 
as to--there was reference earlier to the March election in St. 
Louis--whether you saw improvements in that election from last 
November?
    Mr. Clay. There were improvements from November because 
there was so much attention to the process. We were able to 
press the election board to suspend the use of the inactive 
voter list. I petitioned U.S. Attorney General Ashcroft to send 
in Federal observers for the March election, so that they could 
determine whether the use of the inactive voter list was a 
direct violation of the Voting Rights Act.
    You know, when we talk about disenfranchisement and 
enfranchisement of voters, I always think back to how many 
people in this country's history have lost their lives fighting 
for the right to vote. I think about three freedom riders in 
Philadelphia, and Mississippi back in 1963, who lost their 
lives fighting for the rights of others to vote. I think about 
those four little girls in that Alabama church, whose murderer 
has just been brought to justice this week, and how that whole 
struggle, the civil rights struggle, was about ensuring the 
voting rights of all Americans.
    So I would ask the Committee to proceed with caution about 
infringing on the voting rights of any American, and the Voting 
Rights Act has worked pretty well for us, for the last 36 
years, and I would hate to see us diminish that in any way, 
Senator.
    Senator Lieberman. Let me ask you a few more questions 
briefly; one is to get your reaction to the idea of provisional 
voting, which I may not have described quite accurately or 
clearly when I asked Senator Bond about it, but this is the 
idea that is available in some States, where if you come to the 
polls, you believe you are registered, but for some reason your 
right to vote is questioned; they allow you to cast a 
provisional vote, in which you affirm that you are who you say 
you are, and you are eligible to vote, and then you go ahead 
and vote, but your votes are separated until the registrar can 
investigate after the election and only count it after that 
investigation is today. What would you think about that as a 
way to resolve some of the problems that voters had in St. 
Louis on Election Day last year?
    Mr. Clay. That would have been a great solution for St. 
Louis City and probably other locales throughout the country. 
When a voter's eligibility comes into question, that may be the 
way to go, Senator, to hold that vote in abeyance until you can 
clarify, sometime in the near future, whether that voter is 
qualified or not to cast that ballot. That may be the proper 
approach. I like that suggestion.
    Senator Lieberman. I appreciated what you said earlier 
about your disappointment with the way the voting system was 
described in St. Louis; and from your own experience, you were 
not raised or involved in St. Louis politics to conclude that 
you had to cheat to get elected. You are still obviously very 
young, but you have been in it awhile. Based on your own 
experience, how do you balance what we are dealing with here, 
which is the clear desire that we all share not to have 
fraudulent voting, but then setting that against the other 
clear desire, which is at the heart of our democracy, as you 
have just eloquently spoken to it, of the right of every 
American to vote. So how do we put those two together?
    Mr. Clay. Sure. The way you balance it is you have zero 
tolerance for voting fraud or any type of fraudulent activity 
surrounding voting, zero tolerance for that, but you ensure 
that all Americans have the proper access to voting. You do not 
set up or allow the establishment of arbitrary and capricious 
impediments and obstacles to people voting, and that is what 
caught my ire on Election Day.
    What Senator Bond failed to mention also was that I was a 
plaintiff in that suit, and I was not disenfranchised, but I do 
not have to be disenfranchised, because I witnessed thousands 
of St. Louisans being disenfranchised. It is my right, my 
constitutional right, to go for judicial redress, which I did, 
and we prevailed at the circuit court level. He talked about 
how polls were left open and radio messages. Well, I got a call 
at 8:30 p.m. that night, after the St. Louis polls were forced 
to close, and it was from Springfield, Missouri, which is 
predominantly a Republican area, and a friend of mine told me 
that they are still voting down here in Springfield. So it was 
quite a dramatic Election Day in Missouri, and there were 
problems throughout the State.
    Senator Lieberman. Thanks, Congressman. Thanks for taking 
the time and thanks for the substance of your testimony.
    Chairman Thompson. Thank you. Senator Bennett.
    Senator Bennett. Congressman, I am tempted to get into the 
details of the lawsuit, but I think maybe we better not. I am 
not sure that it would be productive. I do listen to Senator 
Lieberman, saying there were only 100 votes cast after 8 p.m., 
which suggests to me that the lawsuit saying that there are 
huge lines and thousands of people being disenfranchised does 
not add up, because if there were thousands of people, there 
would have been thousands of votes cast.
    But let's get to the heart of what you are saying. You have 
given us a stinging indictment of the St. Louis voter election 
board. What do you think their motive was?
    Mr. Clay. I do not even care to speculate about motive. 
What I do know today is that yesterday, our newly-elected 
Governor Holden replaced the entire election board. He put on 
what I think are four fine people, two Republicans, two 
Democrats. So he has asked them to go in and fully reform their 
procedures at that board, and I welcome that change. As far as 
motive of the previous board, you have a board set up that is 
appointed by the Governor.
    Senator Bennett. So the previous board was appointed by the 
Governor.
    Mr. Clay. Yes, two Republicans, two Democrats. The staff is 
split evenly, 28 Republicans, 28 Democrats. You have two 
directors of elections, one Democrat, one Republican. So it is 
supposed to operate in a nonpartisan fashion, and, I guess, 
ideally that is the way it is supposed to function. In 
practicality, it does not.
    Senator Bennett. Yes. OK. You gave us, as I say, a stinging 
indictment of what they did in the 2000 election, and I want to 
go to the heart of that. Is it sheer incompetence on their 
part? Was there a deliberate attempt to disenfranchise African-
American voters, on their part? If so, was there some point 
along the way when someone could have seen that they were going 
in that direction? You have listed all of their sins, but we 
need to go behind that and say did the previous governor, 
deliberately appoint people who would try to disenfranchise 
African-Americans? Was there a conspiracy here? Was it just 
sheer stupidity? Was it lack of devotion to duty? They were all 
out playing golf when they should have been purging lists? Why 
did we have what you have described?
    Mr. Clay. It was partly what you described. Part of it was 
sheer stupidity. Part of it was gross incompetence. Part of it 
may have been by design----
    Senator Bennett. OK. Let----
    Mr. Clay. Wait. Let me finish.
    Senator Bennett. Sure.
    Mr. Clay. What I base my statements on were my past 
experiences with that board. Having gone through 10 other 
elections with them, I knew the system. I knew how they set up 
these impediments and obstructions, so I knew what was coming. 
Having seen how they operated in the 1996 Presidential 
election, I knew what the problems were. As a matter of fact, 
we even sent about 100 workers down to vote about a week before 
Election Day, so that they would not have to vote on Election 
Day, and they encountered problems voting. So we knew what was 
coming on Election Day, because several of those workers were 
on the inactive voter lists and they had to jump through all of 
these hoops in order to vote.
    We pressed the issue and ensured that they were eventually 
able to vote, but we had a week's headstart, and so we knew 
what was coming on Election Day.
    Senator Bennett. Well, let's go back to your statement that 
some of it was by design. Incompetence, ignorance, and so on, 
yes, a new broom sweeps clean and you get people who will be 
dedicated to their duty. It is a fairly serious charge to say 
that some of it is by design. We want to know who. Again, I go 
back to the question of motive. Was there a deliberate design 
to see to it that African-Americans were disenfranchised in St. 
Louis, and if so, whose design was behind that deliberate 
decision?
    Mr. Clay. Senator, I could not prove that here in this 
room, but what I can tell you is that with the board being 
evenly divided, you have to look at the personalities and the 
players. On one side, you have a Republican director of 
elections who actually was running the show in a Democratic 
city. On the other side, you have a very ill-of-health 
Democratic director of elections who was very rarely at work on 
a regular basis. You had an assistant director that was well-
connected to two other elected officials. So you have to look 
at the personalities. You have to look at the players in this, 
and then you draw your own conclusion.
    I cannot sit here and tell you I have evidence to suggest 
that this was by design, and then that this was a scheme to 
disenfranchise African-Americans. No, I cannot tell you that, 
Senator.
    Senator Bennett. One last question: Assuming that the new 
board is going to be diligent in its duties, and you are going 
to clean all of this up and do it right, would you object to 
photo ID?
    Mr. Clay. Would I object to photo ID? I would not make that 
the single requirement of voting, because what you have to 
understand in economically-disadvantaged communities, some 
people do not have photo ID. What is required by State law now 
are copies of utility bills--mostly any type of ID, because 
when most of our statutes were written, at the time, it did not 
necessarily require photos on the IDs; so maybe a combination 
of both.
    Senator Bennett. In many States--I do not know if this is 
true in Missouri--recognizing that many people do not, for a 
variety of reasons, have driver's licenses, the DMV does issue 
identification cards that can provide photo ID for those who do 
not have a driver's license, and thus make it uniformly 
available. I am a little nervous about utility bills. The dog 
may have been able to get its name on a utility bill and come 
in, and a photo ID would see to it that dogs do not vote.
    So I would just suggest that maybe you talk to the folks in 
Missouri about making photo ID available to everybody. As I 
say, we do have Federal statutes saying you have to show photo 
ID to buy cigarettes, and there are a lot of folks in the 
disadvantaged communities who buy cigarettes and who find some 
way to deal with that challenge.
    Thank you very much for your testimony.
    Mr. Clay. Thank you for your suggestion.
    Chairman Thompson. Thank you very much, Congressman, for 
being with us.
    Mr. Clay. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    Chairman Thompson. We will proceed to our next panel. The 
witnesses are Dr. Carolyn Jefferson-Jenkins, President of the 
League of Women Voters; Ralph Neas, President of People for the 
American Way and People for the American Way Foundation; 
Deborah Phillips, Chairman of the Voting Integrity Project; and 
Dr. Larry Sabato, Director of the Center for Governmental 
Studies at the University of Virginia.
    Thank you very much for being with us.
    Dr. Jefferson-Jenkins, please proceed with your testimony. 
Your written remarks will be entered into the record in their 
entirety.

 TESTIMONY OF CAROLYN JEFFERSON-JENKINS, Ph.D.,\1\ PRESIDENT, 
          LEAGUE OF WOMEN VOTERS OF THE UNITED STATES

    Ms. Jefferson-Jenkins. Thank you, Mr. Chairman. Good 
morning, Mr. Chairman, Senator Lieberman and Members of the 
Committee. I am Carolyn Jefferson-Jenkins, President of the 
League of Women Voters of the United States. As we all know, 
last year's Presidential election called the Nation's attention 
to the urgent need for improvements in the methods, practices, 
and technology through which our elections are administered. 
Voter registration is a particularly important part of this 
process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jefferson-Jenkins with an 
attachment appears in the Appendix on page 137.
---------------------------------------------------------------------------
    Voter registration is the gateway to participation in our 
electoral system, and the procedural means for preserving a 
citizen's right to vote. For all citizens, the voter 
registration process must be accessible and non-discriminatory. 
It has not always been so, and problems remain. Until the 
enactment of the Voting Rights Act in 1965 and the National 
Voter Registration Act in 1993, bureaucratic obstacles to voter 
registration were commonplace. Literacy tests, poll taxes, 
selectively-applied identification requirements, threats, 
intimidation and violence successfully disenfranchised African-
Americans and others through most of the 20th Century.
    From the 1970's to the 1980's, restrictive registration 
practices ranged from requiring notarization of voter 
registration applications and significantly limiting the times 
and places for registration to selectively purging voters' 
names from the rolls and dropping voters from their rolls for 
failing to vote in one election. The need for voter 
registration reform was debated for 5 years in Congress. In 
1993, the National Voter Registration Act, or Motor Voter law, 
was enacted, establishing uniform, non-discriminatory standards 
for voter registration.
    Motor Voter took effect in most States in 1995. The law 
provides for convenient and routine access to registration 
through driver's license agencies, public assistance agencies, 
and agencies that serve people with disabilities, and through 
mail-in registration. It requires States to keep their lists 
up-to-date, but it prohibits dropping voters' names from the 
rolls simply for not voting. The act establishes uniform, non-
discriminatory standards for voter confirmation programs.
    With safeguards against discrimination, voters may be 
dropped from the rolls by reason of death, change of residence 
and a failure to meet voting qualifications under State law. To 
ensure that registered voters retain the right to vote in 
Federal elections, the Motor Voter law provides a failsafe 
provision. Registered voters who have moved within their 
registrar's jurisdiction and congressional district, but who 
have not updated their registration, may do so and vote at the 
new or the old polling place on Election Day, and they can do 
that through affirmation or confirmation.
    The National Voter Registration Act has been very 
successful. According to the Federal Election Commission, 
nearly 43 percent of all voter registration transactions from 
1997 and 1998 were through driver's license agencies; 44 
percent of these were changes of name or address. Mail-in 
registration programs accounted for nearly one-quarter of all 
voter registration transactions during that period. The 
problems with the National Voter Registration Act that we have 
heard about are not problems with the law, but problems with 
the implementation and the enforcement of the law.
    Statewide computerized voter registration programs in every 
State would significantly improve the management of voter 
registration lists and help identify and eliminate duplicate 
registrations and other problem areas. A Member of this 
Committee, Senator Cleland, who is not here this morning, was 
then-Secretary of State in Georgia, and in a statement for a 
1995 House Oversight Committee hearing, he wrote, ``Under our 
National Voter Registration Act implementation plan, we have 
produced an improved fraud prevention and detection program for 
Georgia. With the advent of a statewide voter registration 
program, Georgia has been able to put in place mechanisms to 
monitor many areas where fraud could be possible.''
    Unfortunately, according to a 1999 survey, only 22 States 
reported having a centralized State registration list. Even 
fewer have the type of active program described by then-
Secretary of State Cleland. Contrary to the unsubstantiated 
claims of the law's opponents, Motor Voter does not cause vote 
fraud, nor is it to blame for the ills and difficulties of 
election administration. Indeed, statewide computerized list 
maintenance systems can assist in preventing vote fraud if 
implemented properly.
    Other Motor Voter implementation issues include reports of 
Motor Voter registrants and fail-safe voters turned away on 
Election Day because they are not on the list provided at the 
polls. The inability of polling place officials in many 
locations to check the status of the voters on the official 
list must be addressed. Solutions such as the low-tech use of 
provisional ballots and the high-tech use of laptop computers 
that provide access to the official lists at polling places 
need to be encouraged.
    With regard to enforcement, the repeated failure of some 
driver's license agencies to transmit voter registration 
applications in a timely manner must be investigated and 
corrected.
    The Federal Government can no longer afford to leave the 
financial burden of administering Federal elections to State 
and local jurisdictions. In most States, local jurisdictions 
alone bear this burden. The disparity in wealth and public 
revenues from county to county are bound to be reflected in a 
disparity of resources available for election administration 
procedures and voting technologies from one county to the next.
    This is not only a question of equity among levels of 
government, but of the necessity for ensuring that all of our 
citizens are able to register, vote and have their votes 
counted in Federal elections with a minimum of administrative 
error. The League of Women Voters supports S. 379, a balanced, 
bipartisan bill introduced by Senators Schumer and Brownback. 
The Schumer-Brownback legislation provides the needed Federal 
funding, as well as guidance for its use.
    Today, this country has the technology and the financial 
means to ensure that our diverse and growing population enjoys 
the most accurate, accessible, and non-discriminatory voting 
system in the world, one that every American could have 
confidence in and be proud of. This Congress has the means and 
the opportunity to pass legislation that would provide the 
financial assistance and guidance necessary to achieve that 
goal.
    On behalf of the League of Women Voters, I want to thank 
you for your attention, and with your permission, I would like 
to submit for the record former Secretary of State Cleland's 
1995 statement and the executive summary of the FEC's 1999 
report on the impact of the Motor Voter law.\1\
---------------------------------------------------------------------------
    \1\ The information submitted by Ms. Jefferson-Jenkins (includes 
the executive summary of the FEC's 1999 report on the impact of the 
Motor Voter law and former Secretary of State Cleland's 1995 statement) 
appears in the Appendix on pages 146 and 149 respectively.
---------------------------------------------------------------------------
    Chairman Thompson. Without objection.
    Thank you very much. Mr. Neas.

   TESTIMONY OF RALPH G. NEAS,\2\ PRESIDENT, PEOPLE FOR THE 
    AMERICAN WAY AND PEOPLE FOR THE AMERICAN WAY FOUNDATION

    Mr. Neas. Good morning, Mr. Chairman and Members of the 
Committee. My name is Ralph G. Neas, President of People For 
the American Way and People For the American Way Foundation, 
citizens organizations with 500,000 members and supporters 
dedicated to protecting constitutional and civil rights, 
improving public education and promoting civic participation. I 
very much appreciate the opportunity to testify before you 
today and commend you for taking the initiative in having this 
hearing.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Neas appears in the Appendix on 
page 152.
---------------------------------------------------------------------------
    Restrictive voter registration laws and practices were 
introduced in our country in the late 19th and early 20th 
centuries, in order to keep certain groups of citizens, 
particularly new immigrants, African-Americans and other 
minorities, from exercising their right to vote. Court 
decisions and enactment of the Voting Rights Act of 1965, 
perhaps the most effective and most important law ever passed, 
eliminated some of the obvious barriers to voter registration. 
I am proud to say that I had a chance to be chief counsel to 
Senator Edward W. Brooke, who played a lead role as a State 
attorney general, and then as a U.S. Senator, with the Voting 
Rights Act. But a complex maze of local laws and practices 
continue to make it difficult for many citizens to exercise 
their right to vote.
    The historic and effective National Voter Registration Act 
(NVRA), properly known as Motor Voter, took a major step in the 
right direction. Implementation of the law was slow in some 
areas, because some States refused or delayed carrying it out. 
This led to successful legal action by the Department of 
Justice, People For the American Way Foundation, and many 
others, to defend the law. Despite the slow start in some 
areas, however, Motor Voter has been enormously successful. 
Project Vote recently estimated the law has led to more than 70 
million new voter registrations, and has been implemented, as 
the Congress intended, in a way that has continued to protect 
the integrity of the electoral process.
    The NVRA, which includes criminal penalties for voter 
fraud, specifically requires States to conduct a uniform and 
non-discriminatory program for removing ineligible voters from 
the voter rolls. The FEC reported to Congress that over 9 
million names were deleted from voter registration lists during 
the 1997-1998 cycle, and that over 14 million other names were 
subject to removal after 2000 if they failed to respond to 
notices or to vote in that election. The FEC's report is based 
on surveys from the 43 States which are subject to the law and 
the District of Columbia.
    While the report contains important recommendations from 
the States for improving implementation of voter registration 
list maintenance, what it does not contain is evidence of a 
problem with voter fraud. Unfortunately, if the 2000 elections 
proved anything, it is that we have the opposite problem. In 
States like Florida, registered voters were improperly purged 
from voter rolls and disenfranchised from participating in our 
democratic process.
    I believe strongly that the Motor Voter procedures and 
requirements of other Federal civil rights laws were violated. 
Having spent a lot of time in Florida in November, and having 
participated with Kweisi Mfume of the NAACP in a 5-hour 
hearing, I must tell you, I said to Mr. Mfume that what I was 
hearing reminded me so much of what I had experienced while 
chief counsel to Senator Edward W. Brooke during the hearings 
on the Voting Rights Act. Thousands of citizens were 
incorrectly identified as felons in Florida; countless others 
who had been placed on an inactive status were wrongly denied 
the opportunity to vote when they showed up at the polls and 
found their names missing from the rolls; and others were 
denied the opportunity to vote because of unnecessary voter 
identification requirements, including being required to 
present photo identification, even though State law provided 
alternative identification procedures.
    The media has reported, and groups like the NAACP have 
documented, similar problems in other States. I have listed a 
number of the States, and they are in my written statement, Mr. 
Chairman. For purposes of time, I think I will skip them in my 
oral presentation. As requested, I focused on problems with 
registration, but I must note that, in a number of States, 
voters also encountered intimidation, disinformation and other 
tactics designed to keep people away from the polls. And, 
outdated, inaccurate and broken voting machines inexcusably 
prevented tens of thousands of people nationwide from casting a 
vote that counted.
    Our Nation has made a lot of progress with respect to voter 
registration and participation, but events in November clearly 
indicate that we still have a long way to go. Here are some 
recommendations: First, maintaining and enforcing our existing 
laws, like the National Voter Registration Act and the Voting 
Rights Act, is absolutely critical. The idea of erecting new or 
old barriers to voting in this situation is certainly 
unfathomable. We, as a country, simply cannot move backwards to 
the days of discouraging participation by all citizens. The 
2000 elections proved there is so much that urgently needs to 
be done to move forward, to ensure uniform, non-discriminatory, 
accurate and effective implementation of list maintenance 
procedures.
    Congress can play a crucial role in that effort by holding 
hearings like this one, resisting misguided efforts to weaken 
our laws, and assisting States and localities in complying with 
these laws. In particular, some of the problems experienced in 
Florida and elsewhere could have been avoided with better-
trained-and-equipped election officials, voter registrars, and 
workers. People for the American Way therefore supports the 
Dodd-Conyers and Schumer-Brownback bills.
    Officials should prevent and remedy the wrongful purging of 
voters and ensure, as the National Voter Registration Act does, 
that all purging procedures are uniform and non-discriminatory. 
Lists of inactive voters should be maintained at polling places 
and be just as accessible to poll workers as active lists. 
Voters should be affirmatively notified of their rights at 
polling places by posted notice or otherwise, including the 
rights to assistance, to correct their ballots if they believe 
they have made an error, and to cast a challenge ballot if 
there is a dispute as to the registration.
    Election officials should ensure that no registered voter 
is turned away because of list maintenance problems. Procedures 
should be developed to eliminate unfair delays in processing 
voter registration applications, so that everyone who fills out 
registration forms on time should vote in the next election. 
Some have suggested that despite the problems experienced in 
the last election, there is no real interest among legislators 
in pursuing election reform. We fervently hope that this is not 
the case, and I am heartened, Senator, Mr. Chairman, by your 
comments at the beginning of the hearing, and by a number of 
the other Senators during this hearing, because this hearing is 
certainly an important demonstration to the contrary to what 
many have been saying.
    We urge the Congress, in a bipartisan fashion, to follow up 
this hearing with action to help guarantee all Americans the 
right to cast a vote that truly counts in all Federal 
elections. Just one point: We certainly would add to this, 
Senator Lieberman, support for same-day registration. I think 
it has worked wonderfully well in Minnesota, New York, New 
Hampshire, Idaho, and Wisconsin. There, of course, is no 
registration in North Dakota. There are plenty of splendid 
examples that we could use here in Congress to document, the 
need for the kind of legislation that you have proposed and 
supported.
    Thank you very much, everyone.
    Chairman Thompson. Thank you very much. Ms. Phillips.

   TESTIMONY OF DEBORAH M. PHILLIPS,\1\ CHAIRMAN, THE VOTING 
                       INTEGRITY PROJECT

    Ms. Phillips. Thank you. I am grateful for the opportunity 
to appear before you today, to talk about an important subject, 
guaranteeing and protecting the voting franchise of qualified 
American citizens. The Voting Integrity Project is a national, 
nonpartisan voting rights organization. Our right to vote is 
the glue that keeps our government together. I am here today to 
talk about the network of laws that are intended to ensure ease 
of registration and access, but have serious, unintended, and 
sometimes ironic consequences. I will also offer solutions.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Phillips with attachments appears 
in the Appendix on page 157.
---------------------------------------------------------------------------
    The National Voter Registration Act has produced an 
alarming level of deadwood and fictitious names on America's 
voter rolls. Such cases are now widely documented in State 
after State, and catalogued by me in previous testimony before 
the Senate and House. Such names create a source pool and 
invitation for fraudulent voting. Since a stolen vote dilutes 
the strength of a legitimate voter's ballot, vote fraud is a 
voter rights issue.
    But in election 2000, a new problem emerged. The largest 
category of voter complaints received by the Voting Integrity 
Project related to the direct disenfranchisement of qualified 
voters who, for a variety of reasons, were not on the voter 
rolls. Many who had registered by mail or through third parties 
never made it on. Some were removed incorrectly because of 
faulty data matches and lack of due diligence by election 
officials prior to purging names. This, too, is a serious 
voting rights issue. NVRA, or Motor Voter, as it has become 
known, extended the registration process beyond the control of 
the local office of elections.
    Today, virtually anyone or anything can register to vote 
through the mails without having to show any proof of 
qualification, identity or residence. The verification process 
does not even begin until a name is placed on the voter rolls. 
The current list maintenance procedures are expensive and 
labor-intensive. NVRA represents a vast, unfunded Federal 
mandate on the States.
    To understand the process and appreciate how cumbersome and 
vulnerable it is, you need look no further than the charts 
attached to my testimony, taken from the handbook of the 
Federal Elections Commission's Office of Election 
Administration. The first illustrates the catchment of voter 
registrations that includes the Department of Motor Vehicles 
and other government agencies, the availability of a universal 
mail-in application via the Internet, and third-party, 
sometimes paid, collectors of registration.
    NVRA prohibits removing names solely for failure to vote or 
change of address within a jurisdiction. As you can see in the 
second chart, the process for verification and list maintenance 
is cumbersome and uncertain. NVRA recommends use of the U.S. 
Postal Service national change of address list to identify 
invalid registration, yet that will only verify on the basis of 
residence. It does not reach to identity, citizenship or other 
qualifications. For that, an election office must obtain death 
notices, criminal conviction notices, mental incapacity 
notices, Social Security records, and citizenship records.
    Such records may not be available and can be problematic, 
since they may be kept by widely varying formats and schedules. 
NVRA does permit, but does not mandate, two possible security 
mechanisms. The first is that States may require voters who 
have registered via the mail-in process to vote the first time 
in person. However, because of failsafe procedures, such ID 
requirements can be easily thwarted.
    The second available security check is the acknowledgment 
notice sent out by the election office which, if returned as 
undeliverable, can trigger a confirmation procedure. However, 
the first notice, under NVRA, must be forwardable. Invalid 
registrations may easily go undetected. NVRA requires only that 
States make a reasonable effort to identify and remove such 
names. It does not specify procedures for doing so. In many 
cases, such names are flagged as inactive, but under NVRA 
rules, remain on the voter rolls for two Federal elections 
before removal, and if such name is voted in that period, it is 
reactivated.
    Even though NVRA requires such removals to occur at least 
90 days before a Federal election, most State registrations do 
not close until 30 days before elections, creating a 60-day 
window within which new registrations can be lodged, and 
leaving little time for due diligence. Many States do not have 
centralized voter registration. Registration is maintained on a 
local basis. Even those States that do maintain some form of 
statewide voter roll may not perform routine matching 
procedures among component jurisdictions. Certainly, there is 
no mechanism to match records of one State against another.
    Many voters assume that when they move, their old 
registration is canceled. This may not be the case even within 
a State, and certainly not across State borders. Thus, we 
believe there is an undocumented prevalence of voters who are 
registered in multiple jurisdictions and multiple States. With 
the increasing use of absentee ballots, such names can easily 
be voted.
    Last, it is important to understand that the cost of 
current list maintenance procedures is beyond many local 
budgets. Confirmation mailings must be forwardable under the 
rules of NVRA, thus they will not automatically yield 
information for list maintenance purposes. NCOA list matches 
must be performed through a limited number of commercial 
vendors, with minimum charges that become very expensive when 
there is a relatively small volume of records, such as a rural 
county.
    The alternative is to perform additional first-class 
mailings with return address requested. Given the level of 
mobility of today's society, local and State voter rolls are 
subject to an unprecedented level of churn. That is why these 
records are building up to the point where, in many States, 
registered voters far outnumber voting age populations. For 
those determined to use invalid registrations for fraudulent 
voting, it is not at all difficult to identify such names. 
Sometimes it is as simple as requesting the inactive voters 
list.
    Although documented and fully-prosecuted cases of vote 
fraud are still unusual, that probably has more to do with the 
fact that only when margins are very close is the issue even 
raised, and candidate election contests alleging fraud usually 
do not have sufficient time or resources to build an 
evidentiary record sufficient for success. Prosecutors do not 
like election fraud cases because they take precious resources 
from strained budgets needed for more serious crimes.
    So what is the solution? VIP believes that it may be time 
to consider creating a lifetime voter registration with 
stringent verification procedures. But under the current 
system, this is not possible. However, if all 50 States adopted 
central computerized voter registration systems with uniform 
record-keeping formats, it would be possible to create a 
onetime registration that would follow the voter through life, 
regardless of where they live.
    In such a system, once registered, you would remain 
registered for life. Registrations could be suspended for a 
period of time or permanently, but would remain within the 
database. Even death would not remove the record necessarily, 
only deactivate it so that no one else could use that name for 
registration purposes. Such a system would eliminate problems 
of deadwood, duplicate and fraudulent registrations, and would 
create a framework for instant verification at the polling 
place via secure online networks, thus guaranteeing franchise.
    Utilizing such secure data networks would make it possible 
for a voter to go to any official polling place and pull down 
the local ballot and vote. The technology for such a system is 
available, and I believe this can be done without creating 
another layer of intrusion into privacy or lead to government 
abuse. The process of building such a system can begin now with 
your leadership.
    Thank you.
    Chairman Thompson. Thank you very much. Dr. Sabato.

 TESTIMONY OF LARRY J. SABATO, Ph.D., \1\ DIRECTOR, THE CENTER 
        FOR GOVERNMENTAL STUDIES, UNIVERSITY OF VIRGINIA

    Mr. Sabato. Mr. Chairman, thank you very much for having me 
here today. I head up the Center for Governmental Studies at 
the University of Virginia. We have been conducting a national 
symposium series since the November election, and I want to 
say, even though my remarks are focused on voter fraud, my 
center is producing a report with the help of a number of 
former Presidential candidates, from Michael Dukakis on the 
left to Steve Forbes on the right, and Eugene McCarthy, God 
only knows where, and others who are election experts, 
suggestions that will strengthen the system and do something 
about some the problems that Senator Lieberman experienced in 
November and was discussing earlier, and I absolutely support 
that, as well. We ought to be able to do that, as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sabato appears in the Appendix on 
page 162.
---------------------------------------------------------------------------
    But I guess I disagree with a couple of the other 
panelists, in that I do believe, having researched voter fraud 
many years, that it is real. It exists. You can always argue 
about the extent to which it exists, but it is real. As far as 
Motor Voter goes, I support many of the provisions of the law. 
I do not go as far as Deborah does, although I would have to 
note, if it has been so successful, why has voter turnout 
declined from 55.2 percent, Presidential election of 1992--
Motor Voter passed in 1993--to approximately 50 percent in both 
1996 and 2000.
    I guess you could argue that it would be even worse were 
Motor Voter not there, but, that is thin gruel, with a 50-
percent turnout. Anyway, that is another subject. I would like 
to start out by discussing fraud and corruption, which has 
always intrigued me and which I have written a great deal 
about, on the sleazy side of life.
    Fraud and corruption did not start with the 2000 
Presidential election. The evidence of corruption spans the 
entire history of our Republic. In fact, listening to Senator 
Bond this morning, I pulled out a book that I wrote with Glenn 
Simpson of the Wall Street Journal, called ``Dirty Little 
Secrets,'' which has a long chapter about voter fraud, another 
one about street money, which is probably an even greater scam 
than voter fraud in American politics. But this was the 1844 
election in New York City, and they had at the time a voter 
registered pool of 41,000.
    The turnout on that Election Day was 55,000, or 135 percent 
more than they had registered. One observer at the time said: 
``The dead filled in for the sick, and the city's dogs and cats 
must have been imbued with irresistible civic spirit.'' So the 
more things change, the more they remain the same in 
democracies all around the world, and certainly our own, as 
well.
    As I am looking at voter fraud and the registration system 
and the voting process in the United States, it seems that we 
have to balance two conflicting values, two equally worthy 
objectives. First, the goal of full and informed participation 
in the electorate, and you cannot have full participation 
unless it is informed; and as you all know because you run for 
office, the level of civic education in this country is 
abysmal.
    The second value and goal is the integrity of the system. 
Now, everybody is in favor of both, full and informed 
participation and integrity. But to the extent that we keep 
expanding the participation rate and making it easier and 
easier for people to register and vote, we almost certainly 
increase the chances for voter fraud unless we are very, very 
careful. So in a sense, unfortunately, as is often true in 
life, these two great goals represent a trade-off.
    To move completely in the direction of one value as opposed 
to the other is foolhardy. We have to achieve a balance between 
these two important democratic values; and currently, I would 
argue we do not have a very good balance. As election 2000 
demonstrated, the problems are numerous. Some are suggesting, 
as my friend Ralph does, that there is not any real evidence of 
voter fraud. But I would point to a study by the Miami Herald. 
They documented, for example, the votes of a 90-year-old woman 
and a 21-year-old man last November among 2,000 illegal ballots 
cast by Florida residents in 25 of Florida's 67 counties. They 
did not review all 67 counties, just 25 of them.
    Those residents swore they were eligible to vote, but, in 
fact, they were not. Some of them were not. Now, some of them 
were not lying. Some of them simply got confused. They thought 
they were eligible and they were not. Of course, as Senator 
Lieberman knows better than anybody, it was a Presidential race 
decided by 537 ballots in Florida, and this is 2,000 illegal 
ballots in just 25 of Florida's 67 counties. These voters cast 
ballots even though their names were not on the precinct voter 
registration list, because all they had to do was to sign an 
affirmation swearing they were eligible to vote. Even though 
they were supposed to, the poll workers never checked to see if 
these 2,000 people were actually registered, in part because 
they were overwhelmed by the turnout.
    In addition to these 2,000, there were about 1,200 
instances estimated of convicted Florida felons who had been 
legally stripped of their right to vote, but nevertheless 
managed to stay on the voting rolls and cast a ballot in the 
last election. There is also some indication of at least a few 
people in Florida who maintained two residencies, cast ballots 
in two different States, one by absentee and the other in 
person. Similarly, in Wisconsin, which was another very closely 
contested State last November in the Presidential race, the 
Milwaukee Journal Sentinel newspaper found that at least 361 
felons voted illegally last November 7, breaking the State law 
that disqualifies felons from voting until they are off 
probation and parole.
    Of course, it does not stop with Florida and Wisconsin, 
either in 2000 or in earlier years. As I have documented in 
this book, in our voter fraud study, we have seen extensive 
absentee ballot fraud in Alabama, hundreds of phony 
registrations in California, nearly 1,000 illegal votes in New 
Jersey, including some by people who were unregistered and 
others who were dead. I prefer to call them life-challenged 
voters. By the way, one political consultant who has been used 
by a number of members of the Senate, very well-known, defended 
this in an off-the-record conversation with me, explaining that 
many of these people had missed a number of elections in their 
lifetimes and they were simply making up for the elections that 
they missed. I suppose that is one argument.
    Significant absentee ballot fraud in Philadelphia; votes 
stolen from the elderly and the infirm in Texas, and the list 
goes on and on. My strong suspicion, based on scores of 
investigations and also unexplored tips from political 
observers and interviewees over the years, is that some degree 
of voter fraud can be found almost everywhere, although some 
States have cleaner traditions than others, like Oregon, for 
example, but serious outbreaks can and do occur in every region 
of the country.
    Whether fraud is Democratic or Republican, or located in 
the North or South or East or the West, the effect on American 
democracy is similar. While electoral hanky-panky may affect 
the outcome in only a small proportion of elections, mainly in 
very tight races, one fraudulent ballot is one too many for the 
integrity of the system and the confidence that people have in 
the system in this very cynical age. I teach young people in 
the classroom every day. They are incredibly cynical about the 
system. They believe, I think incorrectly, that the system is 
bought and paid for; that most elections are stolen. That is 
wrong, but we encourage that belief when we allow practices 
such as vote fraud to continue.
    No system is foolproof. I think at the very least we could 
all agree, I hope, that a photo identification card of any sort 
should be produced by each voter at the polls, and I agree with 
Senator Lieberman that an affirmation statement is a good 
alternative if no photo card exists. Enough information has to 
be given on the affirmation statement so that the registrar can 
check, obviously.
    I think voters should be asked at the time of registration 
to give a number unique to them, whether it is a Social 
Security number or driver's license number, that can be 
prerecorded on the voter list provided to each precinct's 
workers. Every voter should also have to sign his name on the 
voting rolls at the polls, so that the signature, at least in 
close elections, could be compared to the one on the 
registration form to see if they match up. By the way, the 
computer technology already exists for instantaneous scrolling, 
which some DMVs use, side-by-side, comparing the poll signature 
to the registration signature.
    Also, all potential voters ought to be advised at the 
polls, whether orally by an election official or by means of a 
printed statement, of the eligibility requirements for voting 
and the penalties for fraudulent voting. A similar warning 
should be prominently featured on all absentee and early voting 
mail-in ballots. These four overlapping safeguards are not too 
burdensome for voters and poll workers, but they would go a 
long way toward discouraging fraud at many precinct stations on 
Election Day.
    One other suggestion: No early-voting, mail-in and absentee 
ballots should ever be separated from their cover sheet or 
counted until the voter signature has been carefully checked 
against the registration file signatures. Finally, Mr. 
Chairman, let me say that if these regulations--even if they 
are adopted universally and followed to the letter, they will 
be insufficient if registrars and election offices are not 
staffed and funded adequately, and that would be a wonderful 
use for Federal money, if you are going to provide some kind of 
incentive to the States to improve their voting systems.
    Also, the statutes have to punish fraud severely. Major 
felonies are required, not minor misdemeanors. Law-enforcement 
authorities, as Deborah suggested, do not make voter fraud a 
priority and they do not press for substantial legal penalties 
in most cases against those found violating the fraud statutes, 
and they ought to.
    Finally, the news media have a role here, too. They ought 
to begin to look for evidence of voter fraud, a probable 
prerequisite to their finding voter fraud. A good first step 
would be for every news organization to establish and publicize 
a campaign corruption hotline. So, one imperative unites all 
these cases, in my view. While registration and voting should 
be as easy as possible, the process should also be as 
fraudproof as possible.
    We have to maximize the full and informed participation of 
the electorate, while preserving the integrity of the system. 
One can generally observe that our zealous focus on the full, 
but not necessarily informed, participation of the electorate, 
may, in fact, challenge the integrity of the democratic 
process. Increased informed participation must be our goal. For 
this reason, my Center for Governmental Studies at the 
University of Virginia has launched the Youth Leadership 
Initiative. This program has helped thousands of schools and 
over 70,000 young people throughout America to improve their 
civic education.
    It shows middle- and high-school students across America 
the value of informed participation. Many of you on this 
Committee and in the Senate have supported us through Federal 
funding in the past. We appreciate it deeply and we encourage 
you to continue your support for the Youth Leadership 
Initiative and other programs like it, that drive young people 
into the political process and encourage them to look 
positively at that process.
    Finally, I believe strongly that a focus on civic education 
must be a part of any serious effort to combat voter fraud and 
to revive confidence in our democracy.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Mr. Neas, let me take you back to your chief counsel days, 
and ask you to just set the legal context. One of the things 
that has interested me as I have gone into the documents in 
preparing for these hearings, and it may be of surprise to most 
Americans, perhaps even a lot of members of Congress, is that 
in the exercise of the franchise which has been administered 
and, in so many ways, defined by State law and local 
administration, there is nonetheless, both through 
constitutional amendment, through statute, most notably, and 
recently the two that we have been referring to, the Voting 
Rights Act of 1965 and then the National Voter Registration 
Act, Motor Voter, in 1993, there is quite a body of precedent 
here, is there not for the Congress, for the Federal 
Government, to set the ground rules for voting throughout our 
country?
    Mr. Neas. Absolutely, Senator. I did not know it while I 
was working with Senator Brooke from 1973 to 1979, but when 
Senator Brooke was the State Attorney General of Massachusetts 
in 1965-66, just before he became a Senator, he helped 
coordinate the State attorneys general all over the country to 
file an amicus in the Katzenbach case, which, of course, is the 
case that upheld the validity of the Voting Rights Act of 1965. 
It has been some time since I taught this at Georgetown and the 
University of Chicago law school, but my recollection is that 
the Supreme Court stated in language somewhat like this that it 
was such an extraordinary national problem, that it required an 
extraordinary remedy, both with respect to Section 2 and 
Section 5 of the Voting Rights Act.
    I believe Pam Karlan, a Stanford University law professor, 
has put together, perhaps for the Committee or individual 
Members of the Committee, an outstanding preliminary legal 
brief on behalf of the constitutionality of these kinds of 
efforts and perhaps some legislation that people are looking at 
right now. Given what I knew as a law student and as a law 
professor, during my days with Senator Brooke, during the 1975 
Voting Rights Act extension, and then coordinating the national 
effort as executive director of the Leadership Conference on 
Civil Rights on behalf of the 1982 Voting Rights Act extension, 
and, of course, last year in Florida, I never cease to be 
amazed that while we have made so much progress in this 
country, extraordinary discrimination existed and unfortunately 
still exists. It is not always, of course, purposeful 
discrimination. I think this is a very important point.
    The whole battle in 1982 was to make sure that we had an 
effect standard as well as an intent standard, because so much 
of what happens really is a consequence of actions that are not 
necessarily intended to be discriminatory. But I am glad you 
asked that question, because as I think I said during my 
testimony, the Voting Rights Act was the most important and 
effective law ever passed, in my judgment, and was an 
extraordinary situation that demanded that an extraordinary 
remedy.
    Senator Lieberman. Thanks. Let's just talk briefly about a 
few examples. Am I right that the Voting Registration Act now 
actually created some ground rules for when voter's names can 
or cannot be purged from lists, locally?
    Mr. Neas. I believe that is true, but I might defer to my 
colleagues.
    Senator Lieberman. Was that not your testimony, Dr. 
Jefferson-Jenkins?
    Ms. Jefferson-Jenkins. There is some legislation, and at 
this moment, Senator, I cannot put my hands on it, but we will 
get back to you.
    Senator Lieberman. That is OK. I actually believe it is 
law. Let me ask, in terms of this sort of tension between two 
goals that we share, I presume in listening--actually, as you 
sit before me, this seems to be a little more attending along 
the spectrum, Ms. Phillips and Dr. Sabato, toward concern about 
fraud. Dr. Jefferson-Jenkins and Mr. Neas seem to be more 
concerned about disenfranchisement. I do not mean that either 
of you, any of you, is not concerned about the other.
    How would you draw the line, Dr. Jefferson-Jenkins? In 
other words, which is the larger concern and where along this 
spectrum would you draw the line, and put it another way, can 
we have both? Can we have both a high-integrity voting system 
and one that does not create barriers to either registration or 
participation?
    Ms. Jefferson-Jenkins. Senator, I would agree that my 
colleagues and I are all talking about integrity of the 
process; and for the League of Women Voters, where we draw the 
line is voter fraud is an organized effort to steal an 
election. What we are talking about today and what we are 
finding as our 50 State Leagues are investigating what is going 
on, is that we are talking about implementation and 
administration flaws, not organized efforts to steal an 
election. One of the reasons why we are in such strong support 
of statewide computerized lists, and in support of Schumer-
Brownback is that individuals who have the right to vote and 
are eligible to vote should be able to vote, and it should not 
be a function of local and State laws that discriminate against 
them and compromise the integrity of both of the voting rights 
acts that have been mentioned here today.
    So if you look at fraud from that perspective, what we are 
seeing is implementation and administrative issues, but we also 
believe that if there is fraud, it should be prosecuted, and 
there are safeguards to do that. There are checks and balances 
in NVRA and there are opportunities to prosecute to the fullest 
extent of the law, if fraud, is identified. I would caution 
this Committee, however, that many of the allegations are not 
evidence, and that we need to be very careful not to confuse 
the two.
    Senator Lieberman. Mr. Neas, I would ask you--I know you 
want to respond, and in inviting you to do so, let me ask you 
to answer this question, also, which is based on your 
knowledge, going back to your work with Senator Brooke on the 
Voting Rights Act, do you have any doubt that if there were the 
votes here in Congress to require, for instance, national 
provisional voter policies; that is, as I described them 
earlier, national same-day registration, Election Day 
registration, that we could do that?
    Mr. Neas. Constitutionally, absolutely. I think there is 
considerable legal authority to support that kind of 
legislation and support its constitutionality. I do want to 
clarify the record a little bit, especially with respect to 
some of my friend Larry Sabato's comments. I do not think we 
are that far apart. I think, given what the purpose of the 
hearing was, we certainly did focus primarily on the right to 
vote and disenfranchisement, which I think are enormously 
important issues facing us right now, not just in Florida, but 
in a number of States.
    But as Carolyn Jefferson-Jenkins just said, of course voter 
fraud has to be addressed. It has been a bipartisan problem 
throughout our history. I do believe the Motor Voter bill and 
the Voting Rights Act, and literally hundreds of State and 
local laws do address fraud. There are laws and we should 
enforce them. And, obviously, we should look at every possible 
means of making sure that there is not fraud.
    Larry Sabato also makes the point about money. We 
definitely need it, especially in these weeks of debate about 
how we are going to use the money of the Federal Government. I 
hope this would become part of the debate over the next 5 or 6 
weeks or more. In voter education, as much as I focused on the 
disenfranchisement issues in Florida, it was not just 
violations of the Voting Rights Act, disenfranchisement issues 
or just bungling administratively by State and local officials. 
We were part of the voter registration and voter turnout 
effort, and it was an extraordinary success. I think it was 
about a 50 percent increase, but there is no question that 
there were a lot of people who were not knowledgeable about 
their rights or about how to vote. There has to be extensive 
voter education and civic education, initiatives that we want 
to be a part of, to make sure that we have an informed 
electorate, and that a lot of those problems that were due to 
not knowing the law or not knowing how to vote are eliminated 
next time around.
    So I think we can probably get a bipartisan consensus, not 
only at this table, but elsewhere, to work together on that.
    Senator Lieberman. I have about a minute left in my 
questioning time. Let me ask all four of you this question and 
ask you for a quick answer, or you can defer if you think it is 
not fair to ask for a quick answer. I think we have all agreed 
that we obviously do not want to tolerate voter fraud and we do 
not want to disenfranchise voters in the various ways which we 
have described today, through registration, etc.
    My question is which is the larger problem you think our 
country faces today, the disenfranchisement through 
registration problems, voting system problems, or the fraud 
problem?
    Mr. Neas. In my judgment, this is--I am sorry, Carolyn.
    Ms. Jefferson-Jenkins. No. Go ahead.
    Mr. Neas. In my judgment, this is not a hard question. I 
think, by factor of 1,000-1, it is more important to address 
the voter disenfranchisement issues and to ensure every 
American's fundamental and constitutional right to vote, which 
is not to, in any way, dismiss the importance of addressing 
voter fraud issues. But I think, without question, it is the 
voter disenfranchisement issue.
    Ms. Jefferson-Jenkins. It is a complex issue to prioritize, 
but from the League perspective, it would be the implementation 
and administration issues of what is going on in the election 
reform area.
    Senator Lieberman. Ms. Phillips.
    Ms. Phillips. I think that NVRA sets up a natural tension 
between those two goals. You do not want voter fraud and you do 
want full enfranchisement. I do not think you can achieve both 
simultaneously under NVRA. That is why I have moved to the 
position that I have moved to, that we need to get everyone 
registered for life.
    Senator Lieberman. We do not have time today, but I think I 
am going to ask you in writing to define what the stringent 
requirements are that you would apply to the lifetime 
registration, and also the means by which we would make sure, 
to the best of our ability, that they were equally applied.
    Ms. Phillips. If I could just respond to that very quickly, 
the stringent requirements are not employed today, and that is 
one of the problems with requiring a photo ID at the polls. It 
is easily defeated, so unless you ensure that the people you 
are registering are qualified and exist and are U.S. citizens, 
and residents of the jurisdictions in which they are 
registering, it is really sort of closing the barn door after 
the horse has gotten out, to require identification at the 
polls.
    Senator Lieberman. You are not willing right now to say 
whether disenfranchisement or voter fraud is the more pressing 
problem?
    Ms. Phillips. I see them both as part of the same problem, 
which is the dirty voter-roll problem.
    Senator Lieberman. Understood. Professor Sabato.
    Mr. Sabato. Senator, as you saw firsthand in November, our 
system is a mess. I mean, it really is, and not just Florida. 
There are so many problems in so many States, and I see it as a 
piece of the whole, all of it, and we need more money, 
certainly, to do a better job at the State and Federal level, 
but we also need well-crafted rules to make sure that the money 
is spent well, and that the elections are run well.
    Senator Lieberman. Thank you. Thanks, Mr. Chairman.
    Chairman Thompson. Thank you very much. Senator Bennett.
    Senator Bennett. Thank you. I have enjoyed this hearing, 
Mr. Chairman, and I have enjoyed this panel, and I have learned 
a lot. My own sense of things, I guess I come down on Senator 
Lieberman's question pretty much with Ms. Phillips; that if you 
solve the administrative question intelligently with technology 
that is available, you make it possible to solve both the 
disenfranchise issue and the voter fraud issue.
    Ms. Phillips. Exactly.
    Senator Bennett. But let me go back, Dr. Jefferson-Jenkins; 
you made a comment with which I agree, but I am going to now 
throw back at you. You were here when I questioned Congressman 
Clay. Your comment was many of the allegations are not 
evidence, and Congressman Clay, after his indictment of the St. 
Louis voter election board, then said, as we got into it, that 
he had no evidence; he had his own suspicions, but he had no 
evidence that there was, in fact, a conspiracy in St. Louis to 
try to prevent people from voting.
    We will all agree that there is incompetence. We will all 
agree that people are off playing golf when they should be 
purging lists. We would all agree of all of those kinds of 
things. Let me ask you the question, and Mr. Neas, ask you, as 
well. Do you believe that there was a conscious conspiracy in 
certain areas, as obviously has historically been the case? I 
mean, you go back prior to the National Voting Rights Act in 
the 1960's. Clearly, there was conspiracy--more than a 
conspiracy. There were clearly established State policy, that 
we are going to prevent these people from voting.
    I think we have come away from that legally now, so that 
there is now no legal opportunity for a State or local group to 
say we are going to prevent a certain group from voting. But 
the way the rules are applied, we can create a conspiracy, and 
either one of you have the feeling that there was a deliberate 
conspiracy on the part of local officials in various 
jurisdictions to disfranchise people?
    Again, your statement, many of the allegations are not 
evidence. Do you have any evidence? First, do you believe there 
is such a conspiracy, and second, do you have any evidence?
    Ms. Jefferson-Jenkins. Well, I would like, Senator, to 
speak to my statement, and that statement was crafted to 
address the anecdotal kinds of examples we have been given, and 
my caution to the Committee was that we not use those as the 
sole basis for decisions that are made. In terms of the 
comments by Congressman Clay, at this stage, I cannot speak for 
his comments or his experience. As we look for moving forward 
in this process----
    Senator Bennett. I am not asking you to speak for that. You 
have made comments about the 2000 election. Forget St. Louis.
    Ms. Jefferson-Jenkins. OK.
    Senator Bennett. Do you have, (a) the belief that there was 
a conspiracy anywhere--you have studied this. You do not need 
to listen to Congressman Clay. You have studied this. Do you 
believe there was a conspiracy anywhere for deliberate 
disenfranchisement of particular groups of voters, and, (b) do 
you have any evidence? You can believe there is, as he 
believes, but he had no evidence, and that is a perfectly 
legitimate intellectual position to be in. So I ask you those 
two questions, nationally, from your research.
    Ms. Jefferson-Jenkins. We are currently--the Leagues are 
currently collecting that data in their localities and in their 
States to determine if there is a pattern or a trend that would 
support any allegations that have been made, and we are still 
in the process of collecting that information. Once we have 
that information, we will make it available to whatever sources 
want it.
    It is so--I do not want to say disparate--but there is like 
a mosaic throughout this country of different examples, of 
different systems, of different implementations; and the one 
advantage that we have at the League is that we have Leagues in 
every State, and we are able to capture that data and collect 
it and comprise it, and look for trends and themes. That is 
what we are doing right now. We do not have the final 
information at this point in time, but we will have it 
collected.
    Mr. Neas. Senator, I do not know very much at all about the 
St. Louis situation, except for what I have heard today. I am 
somewhat more familiar with the Florida situation, having 
participated in that hearing, I believe I described, with 
Kweisi Mfume; and we do have 19,000 members in Florida. We were 
inundated on November 8 with complaints, not just on Voting 
Rights Act grounds, but on other grounds, and I flew down 
immediately to Florida on November 8, and we spent a lot of 
time down there.
    Senator Bennett. We are familiar with Florida.
    Mr. Neas. I wanted to share with you that I have some 
knowledge of that situation in Florida. I know that you are 
familiar with it, and the Members of the Committee. From what I 
have observed, listened to, we certainly thought we had enough 
information to file a suit with the NAACP and the Lawyers' 
Committee for Civil Rights Under Law, that there were 
violations of the Voting Rights Act. There have been many more 
hearings since then by the U.S. Civil Rights Commission; and I 
believe their preliminary report says there has been serious 
evidence of violations of the Voting Rights Act.
    Was there a conspiracy? I do not think we have any kind of 
information to conclusively state that there was any 
conspiracy. I do believe, as I said in my testimony, there were 
violations of the Voting Rights Act. There certainly have been 
published accounts, especially with respect to purging, that 
perhaps the Governor and Katherine Harris were in violation of 
court orders with respect to how they handled that purging 
situation; the private company that came in with so many more 
hundreds and thousands of names of people who were not felons. 
But, again, those, I think, are issues that are going to be 
addressed in the legal process, pursuant to lawsuits that have 
been filed by us and by others.
    So, at this moment, I do not think I can look you in the 
eye and say one way or the other. But I do believe that there 
have been violations of law. I just do not know the extent yet. 
But I think that is something we will find out, hopefully in 
the near future.
    Senator Bennett. Thank you.
    Do either of the other two of you want to comment on my 
question?
    Ms. Phillips. Well, I would like to comment on the 
disfranchisement that occurred in Florida because of the poor 
matches. My understanding is that occurred because there was a 
change in data format in one of the lists supplied to the 
vendor. That is precisely why I think we need to have a 
uniformity of public data formatting in this country that will 
make it possible to conduct these pristine voter matches.
    I do not think it was a conspiracy on anyone's part to 
disenfranchise someone, but it goes to the heart of why it is 
so difficult to keep clean voter rolls in this country.
    Senator Bennett. Thank you. Dr. Sabato.
    Mr. Sabato. Senator, I would just say you cannot rule out 
the possibility that, in isolated places, there was a 
conspiracy to produce a certain result or push the election one 
way or another. My own experience with the systems across the 
United States is that most of it is just pure bumbling, but 
there are also very able people in the system. Sometimes they 
are simply overwhelmed, and the 2000 election was a perfect 
example, where despite the low turnouts in lots of places, 
there were other places like Florida, maybe St. Louis, where 
you had a tremendous turnout that was somewhat unexpected, and 
they were overwhelmed. That is a lack of money, lack of 
personnel, but also a lack of rules, well-defined rules that 
were crafted ahead of the election.
    Senator Bennett. My time is about gone, but one last 
comment. Dr. Jefferson-Jenkins, you made the comment, with 
which I agree, that as far as vote fraud is concerned, there is 
always a conspiracy. This is a deliberate attempt to steal the 
election. In the context of what we are talking about here, the 
question that we have to deal with is whether or not we are 
going to create a system where it is easy to do that, or should 
we look for a system where it is hard to do that?
    I think that should be part, Mr. Chairman, of our ultimate 
decision here; that in our efforts to achieve the goal we all 
want to achieve, and there is a great deal of unanimity in this 
whole debate, which is that every American who is entitled to 
vote should be able to vote, and without hassle. It is not just 
able to vote, but it is able to vote without hassle. In our 
efforts to get to that legitimate kind of goal, do we do it in 
such a way that makes it easy for those who want to steal an 
election, to do so?
    I go back to the example I cited in my opening statement, 
of Lyndon Johnson and the circumstance in Texas when he first 
ran for the Senate. Certainly, unless some of the Jim Crow 
aspects were still there, but assume that they were not. 
Certainly, every citizen of Texas who wanted to vote, could 
vote, because they were tremendously lax, and Brown and Root 
and others were manufacturing votes on the other side, to see 
to it that the election came out the way they wanted.
    We do not want objections to people voting, and we, at the 
same time, want to see to it that the way we do it, to see that 
everybody gets to vote, does not just throw open the doors, so 
that those criminals--and it is a criminal act--those criminals 
who decide they want to steal an election can work the system 
so easily that it becomes routine, rather than the exception.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much, Senator. I think 
you highlight the dichotomy we are dealing with here. We could 
solve these problems very easily; if we wanted to make sure 
there was no fraud, we just would not let anybody vote. Or if 
we wanted to make sure there was no disfranchisement, we would 
accept everybody that came in the door and every piece of paper 
that came through the mail. But we are not going to do either 
one of those things, clearly, and we are striving for a 
balance.
    It looks to me like, in order to determine where to go, we 
need to understand where we have been; and it seems to me, 
sitting here listening, that on both sides of these issues we 
have a history that we have to deal with. We have a history in 
some parts of our country, I am sad to say, and some places in 
the South, of disfranchisement. On the other hand, we have a 
history in some larger cities not in the South, of substantial 
voter fraud.
    We have made, I think, some headway on the disfranchisement 
problem. Congress has passed legislation. I think things are a 
lot better than they used to be. On the fraud side, I am not 
sure how much we can do, but it does not appear to me that we 
have done very much to address that problem. In fact, in trying 
to solve the disenfranchisement problem, we have created, in 
some opinion, a worse potential fraud problem.
    So we have to ask ourselves, as I think you referred to, 
not only is it not enough to say that there are laws on the 
books against voter fraud, but we have to ask ourselves whether 
or not we need to try to have, as a part of our system, making 
it more difficult to engage in it, because believe me, from 
somebody who has tried a couple of these cases, it is almost 
impossible to prove voter fraud when you get right down to it, 
and it is a deliberate act.
    On the other hand, on the disfranchisement, it is a more 
complex issue. We have attempted through legislation to solve 
that problem, but it is a more complex issue, it seems to me 
like. First of all, you have situations where there is 
deliberate disfranchisement. You have other situations where 
there is just incompetency on the local election board, 
problems in the administration of it. We have to ask ourselves, 
even though we see that time and time again, to what extent can 
the Federal Government handle the administration of local 
elections all over the country, and in a Presidential election?
    Then you have another component, and that is voter 
mistakes, something nobody has mentioned today. I do not know 
whether that has been quantified or can be or not, but some 
people just makes mistakes. When you say they are showing up, 
and they are in good-faith, the local election officials are in 
good faith, but they look and something comes in, and it is not 
signed or not signed properly--so what do you do about that?
    I think we need to acknowledge there is some civic 
responsibility to try to do our best, figure out whether or not 
there are laws on the books about deliberate misconduct. We 
have to ask ourselves whether or not we can make it somewhat 
more difficult for voter fraud and for disfranchisement, and 
then ask ourselves whether or not we need to think about 
funding some improvement.
    On making it more difficult, there seems to be some 
difference of opinion with regard to Motor Voter. We are 
clearly not going to go back from that. I mean, we have got 
that and we need to ask ourselves how we can improve it. Again, 
I mean, you can solve the disenfranchisement problem by not 
asking any questions of anybody, anybody that sends anything 
in. I understand that third parties can come and pick up 
batches of registrations and go out, and people think they are 
registered. And I think there was a situation with one of the 
Florida colleges, maybe, where that happened; they did not turn 
the batch in. It creates all kinds of problems.
    Ms. Phillips, you have mentioned a nationwide system. Is 
there anything else short of that or in addition to that, that 
would allow for Motor Voter participation and registration in 
that way, but to give people more confidence that it is working 
the way it was designed to work?
    Ms. Phillips. That is a really good question, Senator, and 
I think that there are things that can be done. First of all, I 
think more resources on the State level, directed toward the 
cleaning of the rolls; and I really want to underscore the need 
for uniform formatting of public records and access and 
cooperation among agencies with those records, because that is 
a big problem for election directors.
    If they have the access and they have the resources, they 
can conduct a fairly good purge. Then it comes down to the 
problem we have in Florida, of making sure that your local 
directors perform the due diligence required, because when do a 
match of multiple records against the voter rolls, all that 
produces is a number of questionable voters. You then have to 
go beyond that and ensure that you are not removing legitimate 
voters who are merely meeting a certain primary test, in a 
match.
    The other thing that I think would aid this situation 
tremendously, as Mr. Sabato suggested, is voter education. 
There is just a dearth of programs out there. Usually by the 
time election directors get around to----
    Chairman Thompson. Excuse me. But has anybody done any 
studies as to how many just honest mistakes that voters made?
    Ms. Phillips. Exactly. No.
    Chairman Thompson. Excuse me. We will come back to you, Ms. 
Phillips.
    Ms. Phillips. No, that is all right.
    Mr. Sabato. No. I was just going to give you one example in 
our favorite State of Florida, from November 2000, again, in 
just 8 Florida counties, 56,000 Floridians spoiled their 
ballots by voting for more than one Presidential candidate. 
Most of them did not have the butterfly ballot; 13,700 voters 
in just those 8 counties voted for 4 or more Presidential 
candidates; 4,300 voted for 7 or more Presidential candidates. 
You have to try to vote for 7 Presidential candidates.
    Chairman Thompson. I believe I have read where nationwide, 
historically, every election, thousands of ballots are thrown 
out.
    Mr. Sabato. That is absolutely correct, and Senator 
Lieberman may particularly enjoy this. Again, Florida, 537 the 
difference; 1,367 Floridians in just those 8 counties voted for 
every Presidential candidate except George W. Bush.
    Senator Lieberman. I have no comment. [Laughter.]
    Chairman Thompson. They were on the right track.
    Senator Bennett. Clear intent of the voter.
    Chairman Thompson. I may have cut you off, Ms. Phillips. Do 
you have anything else?
    Ms. Phillips. That is quite all right. Voter education is a 
really important element and deserves more resources. We had 
reports from Palm Beach County, for example, that clearly 
indicated that in those precincts where there were sufficient 
poll workers to advise the voters of how to use that funky 
little ballot, there were less problems. I would say virtually 
half of the voter reports that come in to us boil down to the 
voters simply not understanding the technology, or just basic 
procedures or what their rights are. Once explained, the 
problem goes away.
    But there is a larger area, if I can just take 1 minute to 
explain, that has received no attention whatsoever, and it goes 
to the issue of technology. That is that all of the technology 
options available to us today in voting equipment are 
proprietary systems, and that keeps the prices of this 
equipment artificially high and defeats competition, frankly.
    So we would like to see, in this whole debate, some 
discussion of moving to open architecture systems that would 
support State-centralized voter registration records and 
ultimately a national network.
    Chairman Thompson. Thank you. Any further comments? I am 
going to call on Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman. I have a prepared 
opening statement which I would appreciate be made part of the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared opening statement of Senator Levin for May 3 
appears in the Appendix on page 115.
---------------------------------------------------------------------------
    Chairman Thompson. It will be made part of the record.
    Senator Levin. First, on a later panel, Dr. Alvarez is 
going to make the point that the error rate is significantly--
or the rate of spoiled, uncounted and unmarked ballots is 
apparently significantly higher with technology of any kind 
than it was with paper ballots. I think what that means is that 
technology may have some benefits, but it also has a real 
downside, just simply in terms of counting ballots and voting. 
It is an interesting number. The figures that we have are, for 
instance, there were 3 percent in Georgia, 3 percent-plus 
ballots were either over-voted or under-voted; 3 percent in 
Florida. These are margins that exceed the margin of defeat or 
victory in many States, and it seems to me we have a major 
responsibility to see to it that simply does not happen again.
    Now, how we achieve that is a more complicated question, 
but the stakes here are huge and the technology is not 
necessarily the answer, by the way. I do not think we can go 
backward to hand-counting ballots, but we have to, I think, 
understand what the price is that we have so far paid for 
technology--we have had experiences in, I think, all of our 
States. We had some major experiences with punch card mishaps 
in the city of Detroit back in the 1970's, which, by the way, 
may have cost my brother an election for Governor. So I have 
some personal familiarity with punch cards, and fairly painful 
familiarity with it.
    I have a number of questions about the system that we have 
put in place in Michigan. It is called the Michigan Qualified 
Voter File. It has been cited again by Dr. Alvarez, as the 
best-practices example. What this is, it is a centralized 
computer database for all registered voters, and it links 
election officials throughout the State to a fully automated, 
interactive, statewide voter registration database.
    We have it in Michigan. We also have plenty of problems in 
Michigan; for instance, with students who found that when they 
got a driver's license, they unregistered themselves somewhere. 
The law in Michigan is you have to vote--you cannot be licensed 
in one place with your automobile and vote in another place, 
one or the other. The education of our voters to that 
technicality has not been great.
    So I will give you one example: A student here who had 
registered to vote in East Lansing in 1998, he went to vote in 
East Lansing. By the way, that congressional race in East 
Lansing was decided by 100 votes, 100 votes in a congressional 
race, and there was a lot of student interest in that 
congressional race. So this student goes to--he registered in 
1998, in East Lansing, but when he went to vote, he was not on 
the registration list. Why? In September 2000, he renewed his 
driver's license. When he renewed his driver's license at a 
place where his family lived or where he had his home base, 
that automatically wiped out his registration at Lansing; and 
we do not know how many hundreds or thousands of students, by 
the way, this happened to. But we had a major problem with this 
centralized, automated, interactive database.
    So even that technology, which is a best-practices 
technology, by the way, is not an answer. I am wondering if any 
of you have any comments so far--interrupt me. Yes?
    Ms. Phillips. Well, I would just like to comment on that. 
That is just a function of how the program is set up, and 
actually it is a good thing to have someone deregistered to 
prevent their being registered to vote in two different 
locations.
    Senator Levin. Anyone else want to comment so far, because 
I would like to get into the two locations question, to see 
just how that is translated into voter fraud.
    I was not able to get here because I was at the Armed 
Services Committee, but I missed Senator Bond and Congressman 
Clay earlier this morning. The one question that I was going to 
ask of both of them, actually, was this: Senator Bond's 
testimony, his written testimony, was that there were 24,000 
people dual-registered in St. Louis or Missouri, generally, I 
think his testimony was 24,000.
    And then he said: I do not know how many voted more than 
once, but the voter rolls allowed them to do so. Now, I presume 
it is a crime to do so, but nonetheless, if you are 
perpetrating a fraud, I guess that fact may not deter you. 
Senator Bond's staff, according to his written testimony, 
reviewed 11,826 of the multiple-registered names; and my 
question is do any of you know how many of those--I would have 
asked him this question if I could have gotten here--how many 
of those 11,826 multiple-registered names voted twice? If we do 
not know, why don't we know? Is it because you cannot find out 
in Missouri? Is that a matter of privacy? In my home State, you 
can find out if somebody voted or not. Obviously, you cannot 
find out who they voted for, thank God, but you can find out 
whether they voted.
    Missouri has been apparently the center of some interest in 
this last----
    Chairman Thompson. Excuse me just a minute, Senator. I am 
told that Dr. Jefferson-Jenkins really needs to leave, and I 
apologize to you, but unless you have some quick----
    Senator Levin. I would ask her that question. Do you know 
how many of those 11,000 voters----
    Ms. Jefferson-Jenkins. I do not know. So that was an easy 
answer, and I want to thank the Senators for allowing my 
testimony today and allowing the League of Women Voters' 
perspective, and if we can provide you any additional 
information, please do not hesitate to let us know.
    Chairman Thompson. Thanks for being with us.
    Senator Lieberman. Thank you. Thanks for being with us.
    Senator Levin. Thank you. I will ask the other panelists 
then; with something as visible as that, focused on, and 
obviously contentious and emotional as that issue is, do we 
have any idea how many of those 11,000 that Senator Bond's 
staff looked at, or the 24,000 that were registered in more 
than one place voted? Is there any evidence that any of them 
voted in more than one place, first of all? Is there any 
evidence, period? Do we know? And, if not, why don't we know, 
with all the interest in that particular campaign?
    Ms. Phillips. It is my understanding that election is being 
investigated. So I do not have the answer, but we may 
eventually have the answer through an investigation.
    Senator Levin. Is it the press, the media down there? I 
mean, if Senator Bond's staff can look at 11,800, I presume the 
newspapers down there can look at them. Have any of you seen 
any reports?
    Dr. Sabato.
    Mr. Sabato. Senator, I do not know whether you can even 
check. I would assume so. That has got to be a public record, I 
would just have to assume. It is in almost all States. So I do 
not know in that case. I can tell you, in other cases I have 
examined, there usually end up being a few hundred double-
voting.
    Senator Levin. A few hundred in what size?
    Mr. Sabato. In a State. Generally, they are people who 
voted by absentee and then may have forgotten, frankly, that 
they voted by absentee several weeks earlier, and show up at 
the polls on Election Day. Sometimes, the records are not clear 
enough; they did not do the background work ahead of Election 
Day. So a few hundred in a State----
    Ms. Phillips. If I could add something to that; it is 
probably less likely that someone would deliberately vote their 
own name twice than it is for someone to deliberately identify 
voters who are less likely to vote, because you can look at the 
voting history in a voter roll and see who has not voted for 
the last three, four elections, then use that list to 
perpetrate fraud. That is what we think happens. If you 
extended that out to, for example, non-U.S. citizens who wind 
up on the voting rolls inadvertently, when they get their 
driver's license, they accidentally fill out the Motor Voter 
form.
    We have never found a lot of evidence showing that they 
have voted illegally, but we believe that others, identifying 
those names, knowing that they would not be likely to vote, 
could vote using those names. So it is that sort of mechanic 
that we think is more often in play.
    Mr. Neas. Senator, I certainly do not know the answer to 
your question, and I do think it would be relatively easy to 
find out, but if Larry is correct, there are a couple of 
hundred statewide, and you are talking about people who did an 
absentee ballot and then voted. Of course, they are in the same 
location. So my guess is that if it is 200 of those kind of 
circumstances mostly, it would be very few who were in two 
different locations and voted in two different locations.
    Senator Levin. My last question is this: Back to the 
college students; should we allow a college student to vote 
where they go to college, rather than where their home is, for 
instance, their driver's license? They come from, let's say, 
one State and go to school in another State. Should we permit 
them to vote where they go to school?
    Ms. Phillips. I think they need to make a choice.
    Senator Levin. Between a driver's license address and the--
--
    Ms. Phillips. Well, of course. You cannot have them voting 
in two jurisdictions, in a Presidential election particularly. 
That does not work, but they should be able to choose which is 
their residence.
    Senator Levin. Would you allow them to vote in either 
location of their choice? Would you allow them to select 
between the two?
    Ms. Phillips. I think selection is the reasonable answer to 
that, and what we have noticed on State statutes is that 
residency is a huge gray area. It has not been clearly defined 
in election law in many jurisdictions, and it leads to a lot of 
cases where people believe they have a right to vote and they 
are prevented from doing so or vice versa.
    Senator Levin. Other comments?
    Mr. Sabato. Well, I live in a university community, the 
lovely town of Charlottesville, Virginia. It is actually a 
city. I had better watch myself. I can tell you the local 
jurisdiction there, even though it is all Democratic, opposes 
students registering and voting there, because they do not pay 
property taxes, and yet the numbers can overwhelm the 
residents. So I know that opposition exists in many university 
communities.
    Senator Levin. Thank you. Thank you very much.
    Senator Lieberman. Mr. Chairman, I cannot resist--I know we 
are running late--a real brief anecdote about absentee ballots 
and then voting, and that being in my very first election, in 
1970, I was challenging the Democratic State Senator in my 
district in a primary, and it became clear to us a day or two 
before the election that a particular senior citizen housing 
project had voted almost entirely by absentee ballot. Since we 
knew that we had not solicited those absentee ballots, we 
assumed that they were for my opponent, and I spoke to the 
immediate former mayor, God bless him, still alive, ailing now, 
Richard C. Lee of New Haven; and he had built that senior 
housing project, and he went in on Election Day. He asked me to 
provide him with three or four vans. This was all legal.
    Senator Levin. Boy, we were getting nervous. [Laughter.]
    Senator Lieberman. ``A mistake,'' he said to the folks 
there, ``A mistake must have been made, come with me and let's 
vote,'' but the point is that in Connecticut law, they could 
not be counted twice, because apparently when they voted if, on 
the record, it was shown they had absentee--that nullified 
their absentee ballot. That is the point of this story, and the 
rest is history, because I won by very few votes, thanks to the 
mayor.
    Chairman Thompson. Thank you very much. Thanks very much 
for being with us. This is very helpful.
    Let's proceed to our final panel. The witnesses are Dr. 
Michael Alvarez, Associate Professor of Political Science at 
the California Institute of Technology; Dan Perrin, Executive 
Director of the Committee for Honest Politics; Gary McIntosh, 
State Elections Director for the State of Washington; and John 
Willis, Secretary of State for Maryland. Dr. Alvarez, I will 
wait till you are seated. Let's try to stick to our 5-minute 
rule, if we can.
    Dr. Alvarez, thank you for being with us. Please proceed 
with your testimony. Your written remarks will be entered into 
the record in their entirety, all witnesses' remarks will be.

TESTIMONY OF R. MICHAEL ALVAREZ, Ph.D., \1\ ASSOCIATE PROFESSOR 
    OF POLITICAL SCIENCE, CALIFORNIA INSTITUTE OF TECHNOLOGY

    Mr. Alvarez. All right. Thank you, Mr. Chairman, and thank 
you, Senator Lieberman, and the rest of the Members for giving 
me the opportunity to participate in this today. I find it 
particularly exciting that you have allowed some West Coast 
participation in these debates, and if you pardon my idiom, we 
are doing some pretty cool things out in California these days, 
and I hope to talk a little bit about that today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Alvarez with attachments appears 
in the Appendix on page 166.
---------------------------------------------------------------------------
    I am primarily here because I am a member of the Caltech 
and MIT voting technology project, and we are doing some quite 
interesting things; and currently we are in what we consider 
the first phase of our study, which is really an empirical 
examination of voting systems, writ large, including 
registration and ballot counting systems, to try and understand 
the extent of the probably and try and really document what the 
problem is.
    We are looking very closely at machine performance, and by 
machine performance, I mean accuracy, which has already been 
discussed today a little bit, cost and also accessibility 
factors. We are looking at voter registration systems, and I 
will speak to that in a few minutes. We are looking at 
absentee, early voting and vote-by-mail systems. We are looking 
at the issue, the important issue, of standards and testing of 
all systems.
    We are taking a very close look, also, at the election 
industry itself, and it is a very interesting industry and has 
some peculiarities to it that are worth discussion at some 
other point, and we are also looking at what we call human 
factors, essentially the interaction between human beings and 
these new technologies.
    We plan to issue our report in the middle of July. I have 
been asked to talk a little bit about the machine accuracy 
study that has already been referenced. We put this out earlier 
this year, the first edition of it. There has been a subsequent 
revision, which is available on our web page, and has also been 
provided to the Committee. We wanted to get this out because 
this is obviously timely information and it was actually used 
by the Florida task force in their recommendations for what 
reform should be undertaken in Florida regarding voting 
machines. What we are looking at here is what is called 
rolloff, or the residual vote. It is the difference between the 
number of ballots that were cast and the number of ballots that 
are counted in Presidential elections going back to 1988 at the 
county level, across the United States.
    Those of you who do have a copy of the report, the easiest 
way to look at the analysis is reported in Table 2,\2\ and what 
we find there are essentially two clusters of technologies. 
There are paper ballots, lever machines and optical scans, 
which have relatively low rolloff rates, around two percent or 
less. And then there are punch cards, no surprise, but 
electronic machines, which is surprising, which have 
significantly higher rates of residual rolloff, usually around 
3 percent.
---------------------------------------------------------------------------
    \2\ Table 2 referred to appears in the Appendix on page 182.
---------------------------------------------------------------------------
    The electronic machines, the touchscreen systems, the 
result here does surprise us, and we have begun to unpack this 
a little bit, and in the current report in Table 3,\1\ the 
interesting thing that we find is that as time has progressed, 
these machines have developed as voter experience with these 
machines has grown, more important, perhaps, as election 
administrators' use of these machines has increased, the 
residual vote rates for the electronic machines has gone down.
---------------------------------------------------------------------------
    \1\ Table 3 referred to appears in the Appendix on page 183.
---------------------------------------------------------------------------
    So we are concerned about the use of these technologies, 
but we are hopeful that improvements will continue. Now, one 
other thing I did want to point out, which is not discussed in 
that particular report, but we are looking at, are I think what 
has been termed low-cost or low-tech solutions. There are lots 
of things that can be done that do not involve new technology 
to increase the accuracy rates in our elections.
    One important thing that can be done is precinct-based 
counting, and that again is what the Florida task force has 
recommended to the Florida legislature, and I believe is what 
is going to be implemented in Florida, which is a system of 
precinct-based optical scan machines where the optical scan 
machines can be programmed to examine the voter's ballot after 
it has been cast, to see if there are any errors in it, 
overvotes, for example, and that is a good thing to implement 
in precincts throughout the country.
    Senator Lieberman. And then let the voter know?
    Mr. Alvarez. And let the voter know that they have cast an 
erroneous ballot and give them the opportunity to correctly 
cast a ballot. Some other things that we have looked at are 
polling place workers. Obviously, putting more people in the 
polling place, especially paid polling place workers, can help 
significantly. Also, it turns out that some of the studies we 
have done in North Dakota recently indicate that just simply 
allowing the polling places to be open for more hours can help 
accuracy rates, so that the peak flows can spread out over time 
of voting. That seems to facilitate more accurate voting.
    So there are lots of low-tech things we have been looking 
at, and we are quite hopeful that those can be implemented. 
Regarding registration, when we first started this project, we 
were looking primarily at voting systems, but we quickly found 
out the registration systems were quite problematic in the 
United States. They are quite complex. We are asking registrars 
at county levels and Secretary of State's offices to deal with 
huge quantities of information.
    The numbers are, in my opinion, kind of staggering. In 1998 
and 1999, the FEC reports there were 35 million registrations, 
18 million of them were new; 6 percent of them were duplicates; 
and 44 percent of them were address changes. This is simply a 
complex system which allows for lots of mistakes to occur. 
There are mistakes, we think, in each step of the process. 
There are mistakes that occur when information is provided to 
voters about whether they can register and what their 
registration status is.
    In particular, I went to the Pasadena post office just 
yesterday before I left town, and happened to pick up the voter 
registration form, which I have here; and it says right at the 
very top it must be signed and postmarked at least 29 days 
before the next election. Well, that turns out to be wrong. In 
California, it is now 15 days, and it has been that way for 
about 6 months in California, and we have gone through a couple 
of election cycles, especially in southern California. This is 
a mistake. It is something that can be and should be fixed.
    There are also problems with list maintenance, problems 
with the Election Day use of lists. In addition to the 
questions of fraud and accessibility, there are some other 
criteria that I do think we ought to lay on the table. 
Registration systems obviously should be accurate and complete. 
They should be timely. They should be current. They should be 
accessible and fraudproof, but they also have to be responsive 
to local conditions. They have to be flexible. They have to 
acknowledge the fact that what might work in Los Angeles 
County, may not work in Laramie County, Wyoming.
    In the materials that I have provided to the Committee, we 
have identified some of what we call best practices, one of 
which has already been discussed, the use of electronic 
databases that are linked across State and local election 
offices; and the example there is the Michigan Qualified Voter 
File. Another best-practice example comes from my State of 
California, where they have facilitated an online registration 
system. This involves a mail step. There is an actual signature 
that is required, but it is a wonderful way of providing data 
and it has been widely-used in California.
    In terms of list maintenance and list use in the polling 
places, Orange County, Florida implemented a very interesting 
system where county workers had laptop machines with Internet 
connections, and they were able to instantaneously authenticate 
voters in the polling places, and we think that is an excellent 
use of technology. There is also a glimpse of the future, which 
is the Defense Department implemented a very interesting study 
this particular election, where they allowed for voter 
registration and voting over the Internet. So there are some 
interesting ways in which technology can work.
    Thank you.
    Chairman Thompson. Thank you very much. Mr. Perrin.

TESTIMONY OF DANIEL B. PERRIN,\1\ EXECUTIVE DIRECTOR, COMMITTEE 
                      FOR HONEST POLITICS

    Mr. Perrin. Thank you, Senator, Mr. Chairman, and 
distinguished Members of the Committee. Thank you for the 
opportunity to present these remarks. I want to go back to the 
issue of encouraging as many Americans as possible to vote. Our 
committee was active in Florida. We come down more on the side, 
I think, of the disenfranchisement issue. We made the argument 
that some votes should not be more equal than other votes, and 
in that process, we believed that the barriers to voting are 
probably more substantial than the fraud issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Perrin with attachments appears 
in the Appendix on page 191.
---------------------------------------------------------------------------
    In that regard, the barrier that I am going to discuss 
today is really more about the quality of public information 
concerning poll opening and closing times; in this case, in 
Florida. We were very intrigued by the notion of the early call 
in Florida and the effect that it had on the panhandle vote, 
which, as you know, is in the Central Time Zone. We then began 
looking at the evidence that was public. We came across a 
couple of studies that showed 3 or 4 percent decline in voting 
in the panhandle, which, as you know, is a predominantly 
Republican area. One study said 7,500 to 10,000 votes. In our 
own evaluation, we probably think it was close to 20,000 total 
votes, based on looking at the average number of votes per hour 
per polling place.
    In an attempt to evaluate the strength of our hypothesis 
about the early call, we hired some field directors and went 
out to people that we thought would probably have the best 
sense of what happened at the polls on the panhandle, which 
turned out to be the bailiffs and the poll clerks and the poll 
inspectors, and we did take a number of affidavits. We did 
scores more of interviews, and I will just summarize two of the 
affidavits that we have. This is from Precinct Number 23 in 
Dade County: ``I have been a poll worker since the 1970's. 
Voting was steady all day until 6 p.m. Between 6 and 7 p.m., it 
was very different from past elections. It was very empty. The 
poll workers thought it was odd. It was like, `the lights went 
out.' We joked with the deputy on duty because there was no one 
in line for the deputy to be placed behind when the polls 
closed.''
    Another clerk of elections in Ocaloosa County said: 
``Between 6:15 and 6:20 p.m., I looked around and said, `Where 
is everybody?' My poll workers were just as perplexed as I was. 
I do not think we had more than five people from 6:15 until 7 
p.m. We had averaged 80 voters per hour until the last hour.''
    Another part of this statement says that 8 years ago in the 
Presidential election, there were so many people in line that 
the last voter did not vote until nearly 10:30 p.m.: ``I went 
outside at the end of the day to tell people to hurry along and 
found there was no one in the parking lot.''
    So this clearly, in our mind, set up a dichotomy between 
the fact that the networks made their early call at 10 minutes 
till 8 p.m. Eastern, or 10 minutes to go before the polls 
closed in the Central Time Zone, and it did not square with 
what we were hearing from people on the ground. So we went back 
and looked at the network tapes. What we found was that between 
6 p.m. Central and 7 p.m. Central Time, when the polls were 
still open in the panhandle, every network stated that the 
polls in Florida had actually closed.
    We are not talking about an insubstantial number of polling 
places, although one can argue that any number of polling 
places would clearly be a concern, even if it was one. In this 
case, we are talking about 361 polling places. One local 
network television reporter told me that she was in the control 
room on election night, and shortly after 6 p.m., there were a 
number of very angry calls, complaining about this to the 
network.
    CBS, in particular, made repeated references to the fact 
that, in their mind, at any rate, that the polls had closed. 
So, Mr. Chairman, it is our view that the national news network 
owe it as a duty to not mis-state on Election Day the 
fundamentals of the electoral procedure itself. Certainly, this 
includes not telling voters that the polls are closed when, in 
fact, the polls are open.
    I have attached to my written testimony, two documents 
which I would direct the Committee's attention to: The first 
one is from the Secretary of State's office in Florida, which 
simply points out that the polls in the Central Time Zone do 
not close until 8 p.m. Eastern Time, and that this was released 
to the local and national media one full week before the 
election.
    In addition to that, there is a possible floor amendment 
language to make it--prohibit any licensee of the Federal 
Communications Act from falsely stating that polls are closed 
when, in fact, they are open. In order to give the Committee a 
sense of the degree of what we are talking about, we have put 
together a short tape, which we would like to play for you now.
    Chairman Thompson. Let's wait until the question round, and 
you can do that on my time.
    Mr. Perrin. Yes, sir.
    Chairman Thompson. Mr. McIntosh.

TESTIMONY OF GARY McINTOSH,\1\ STATE ELECTIONS DIRECTOR, STATE 
                         OF WASHINGTON

    Mr. McIntosh. Thank you, Mr. Chairman. My name is Gary 
McIntosh, and I currently serve as the director of elections in 
the Secretary of State's office in Olympia, Washington. I am 
also the immediate past president of the National Association 
of State Elections Directors, and I would like to begin by 
thanking the Committee for the invitation to appear here today. 
I think from looking at the panelists, I may be the only person 
appearing before you today who has actually conducted an 
election and actually has had to administer a statewide voter 
registration system of some kind. So I do appreciate including 
our perspective in your hearing today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McIntosh appears in the Appendix 
on page 199.
---------------------------------------------------------------------------
    In particular, I want to focus on the methods used to 
register voters through our Motor Voter program, and share with 
you some statistical information regarding our program, and 
finally talk with you a little bit about security provisions 
and share with you some perspectives as to recommendations that 
I think you may want to consider. Our State was an early 
advocate of the National Voter Registration Act. Our former 
Republican Secretary of State, Ralph Munro, I know testified, I 
think, about three times before Congress in support of the act.
    Our State was one of the first in the country to establish 
a program that allowed eligible citizens a near-automatic 
method of registering to vote when they applied for or renewed 
their driver's license. We established our program in January 
1992; in fact, a year before the act was enacted by Congress. 
Our program takes advantage of the fact that almost all the 
information that we need to register someone to vote is 
actually already contained in the driver's licensing system; 
that is, the name, address and age.
    What we simply do is use that information to flag a record 
if a person desires to register to vote. We create a new 
record, a voter registration record, utilizing that 
information, and then forward that information on to the 
county. To complete the transaction, the applicant just merely 
signs the voter registration form, attesting to their 
qualifications to be a registered voter.
    In terms of the impact that Motor Voter has had on our 
voter registration file, I am not going to repeat what I have 
submitted to you in my written testimony, but suffice it to say 
that we, despite having now gone through two driver's licensing 
cycles and two election cycles, we are still registering about 
500 new registrants a day through just the Motor Voter program. 
We are still registering about 1,000 a day through the 
registration by mail aspect of that program, so we are still 
getting a lot of transactions.
    We have done about 2.3 million transactions total since we 
started the program back in 1992. I would also like to offer a 
few comments concerning security and voter registration list 
maintenance. First off, I feel that Motor Voter does bring--
especially the Motor Voter aspect of NVRA--some added features 
to our voter registration process in terms of security. I think 
one of the most important advances is the link between the 
driver's license and voter registration records.
    By connecting these two systems, our office and local 
election officials have several new cross-checks and auditing 
tools to protect the integrity of the registration process. 
Again, a reminder that under Motor Voter, it is the only form 
of voter registration that we have where the applicant's 
picture is taken, and we have actually utilized that in cases 
where we have had questions regarding a person's eligibility or 
identity.
    Second, I would like to point out that our State does not 
have a statewide voter registration database. I think our job 
would be a lot easier and more efficient and accurate if we 
did. We, according to State statute, do require our county 
election officials to participate with our office in an annual 
list maintenance program, which is designed to detect those 
instances where a voter may be registered more than once in the 
State; and we are hoping to expand that program to twice a 
year. Of course, as with all of us at the State and local level 
on this issue, costs are an important factor in our ability to 
expand our program.
    The third comment I would like to make is that voters in 
our State do use mail-in ballots extensively. Over half the 
ballots cast in our last Presidential election in the State of 
Washington, about 54 percent, were cast by mail. Mail-in 
ballots not only help in turnout, but they are also a big 
factor in keeping our voter registration records accurate, 
because we can use information from the post office in terms of 
keeping our records clean.
    Fourth, as I mentioned in my written testimony, our 
legislature has recently enacted into law a new provision under 
the leadership of our current Republican Secretary of State, 
Sam Reed, which will require licensing examiners to remind 
voter registration applicants that they need to be 18 years of 
age and U.S. citizens in order to register to vote, and we 
believe that this is going to help in terms of preventing the 
inadvertent registering of ineligible applicants.
    I also want to just quickly point out, too, that we are a 
State that does provide provisional ballots. We do not turn 
away people from the polling place in our State. If you show up 
to vote in our State and you are not on the list, you are 
allowed to vote what we call a special ballot on a provisional 
ballot. We do the research and record searches and so forth on 
that particular individual registration after the election is 
over with. We have found that to be a tremendous help in our 
State, as well.
    There are some ways that, I think, the Federal Government 
can help us out. We certainly would like a break in our postal 
rates, which I think we have mentioned a couple of times to you 
before. There is a reference in the NVRA about getting first 
class service at a lower rate, and we think it is essential 
that take place; and, also, I would encourage Congress that if 
and when they do decide to make money available to State and 
local governments, that local election officials be given 
maximum flexibility as to its use.
    As we have discussed here today, there is not only a need 
for new technology for counting ballots, there is also a need 
for up-to-date voter registration systems that will provide the 
accuracy and security that our citizens rightfully expect.
    Again, thanks for the opportunity to testify, and I look 
forward to answering your questions.
    Senator Lieberman [presiding]. Thanks very much, Mr. 
McIntosh. Thanks to all of you for your patience. The first two 
panels went on a bit longer, I would say, than we expected, but 
you have been very helpful and I appreciate your coming, 
particularly those who came from far. We also welcome you, Mr. 
Secretary, even though you did not come from so far, and I look 
forward to your testimony now.

TESTIMONY OF HON. JOHN T. WILLIS,\1\ SECRETARY OF STATE, STATE 
                          OF MARYLAND

    Mr. Willis. Thank you very much. I hope Senator Thompson, 
the Chairman, will come back.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Willis with attachments appears 
in the Appendix on page 203.
---------------------------------------------------------------------------
    Senator Lieberman. He will be back soon.
    Mr. Willis. My grandfather used to run the general store in 
Kyles Ford, Tennessee, 100 years ago, and I am sure we might 
even be related at some point. My wife grew up in Westport, 
went to high school in Westport; and you and I have some law 
school colleagues and friends
    Senator Lieberman. We should have you back before this 
Committee when we have more time to talk.
    Mr. Willis. Hopefully, we can do that. I want to commend 
the Committee for not only trying to endeavor to set a tone, 
which I think the Committee, in both the Chairman's remarks and 
your remarks at the beginning of this session, were 
appropriate. I hope that tone will continue throughout the 
years, as the Congress deliberates this issue; and also, I 
think the framework, as it has emerged here, the tensions that 
both the panelists have presented, as well as the Senators in 
their questions, have presented, is a healthy framework. It is 
a good dichotomy that you have drawn, and I think it would be 
useful for the debate.
    As I prepared for this hearing, and after listening to the 
panelists, many of whom I know from other contexts, I was 
really struggling with how to be constructive to your process 
and deliberation. We have prepared a written statement, to 
which would also draw the Committee's attention, because the 
State of Maryland just went through this entire process. One 
advantage of being at the State level is we started our process 
in December, were able to complete that report in about 70 days 
or so, get it done, introduce legislation and get it passed in 
6-8 weeks in the State of Maryland. It will be signed on May 
15, be implemented June 1, and we are going to be undertaking 
reform.
    Senator Lieberman. My reaction is envy. Congratulations.
    Mr. Willis. The advantage, as Senator Sarbanes, old friend 
of mine, said to me one time about Washington versus Annapolis, 
was the ability to act a little more quickly. As this Committee 
has well articulated, as well as the other speakers, the 
administration of elections and the participation of citizens, 
are topics that have had substantial research. And every one of 
the Senators has a keen understanding. You are election 
professionals. I tell people I am coming down to talk to 
Congress about the election reform issues, and they know my 
involvement. They know I have written books. They know I teach 
at the University of Baltimore, and I said this is an audience 
that understands this issue.
    If you have not been yourself in a close election, many of 
your colleagues or friends in this profession have been subject 
to close elections and to recounts. One story that did not get 
related today is what the Senate had to do in 1975 in the State 
of New Hampshire, when they had recounts. The winner on 
Election Day lost by 10 votes on recounts. All the ballots from 
New Hampshire were shipped to the Senate and had to be counted 
by the Senate. The Senate could not make up its mind and sent 
it back to New Hampshire.
    These are, as I think Senator Bennett and Senator Thompson 
said, not old issues that we are dealing with, and surprisingly 
many of the same machineries were there. I think what I want to 
urge you to do, and what I want to focus on in my oral remarks, 
is that I think it is important, critical, essential, that the 
U.S. Senate and the Congress do something! It is very important 
that some positive action come out. I think it was Senator 
Durbin from Illinois who felt that among the populace, there 
was a certain angst, unsettlement and unease about what 
happened.
    I feel that, too, in my public travels. I am no longer the 
direct election administrator. We have an independent board 
that does that now. But I am on the Board of Canvassers. I 
write the ballot questions. I certify the elections. I am 
involved in the process, obviously, as a practicing political 
person. But if we do not do something, we are going to further 
erode public confidence, and the participation levels, which is 
the bottom line, will suffer if we do not do something.
    What I think you can do, you can use States as models. The 
other message I would like to deliver today is that while you 
are deliberating and you are framing it--and, Senator Thompson, 
while you were out, I commended both you and Senator Lieberman 
for setting the framework and the tone. I think you have done 
an excellent job this morning and I hope it will continue 
throughout the rest of this session of Congress, because I 
think it is the appropriate tone and framework.
    But what I want to tell you is States are doing things; 
States are going ahead. Local governments that have the ability 
to go ahead are going to go ahead. Now, I described quickly 
what Maryland did, but I want to restate it for you. Even 
before the election was judicially determined, our governor set 
up a special committee, which I chaired, to look into the 
voting systems in Maryland.
    We held our public hearings, just as you are starting now, 
took about 2 months to do that, and we came up with several 
recommendations. We got them in to the Mayrland General 
Assembly. They were passed in 6-8 weeks. They will be 
implemented. They will be on the ground, and we are going to go 
to implementing some of the recommendations that have been 
suggested here, from the League of Women Voters to some of 
Caltech suggestions. We will be implementing in Maryland 
provisional ballots. We will be implementing--we actually 
started in 1998, moving toward a centralized database for voter 
registration.
    We will be allowing voters--we had a huge battle. I brought 
the Motor Vehicles Department and the State Board of Elections 
into my office. We had hours' worth of meetings, and we reached 
an agreement between those two entities that we are simply 
going to transfer electronically information, so we are not 
losing voters which was the biggest problem in Maryland. When 
we look at elections, and there is a tendency to do that, 
everybody looks at it from their own perspective, their own 
jurisdiction, their own precinct. But we need to take a bigger 
view. In Maryland, we were somewhat stunned by what happened 
around the country. We do a good job of counting votes. Two 
million voters; only 10,553 did not vote for President; 0.518 
percent overall; at the polling place, it was only .450 
percent. I mean, these numbers that are getting thrown around 
in other States are just foreign to what our experience is in 
Maryland.
    Now, what we have noticed is that technology, the second 
point, in addition to the fact that States are moving forward, 
technology can help. We have changed our systems in the last 10 
years; 19 out of our 24 jurisdictions have improved their 
technology. We have reduced our no-vote rate, which was already 
low--we are among the best in the country--we cut it over half 
by new technology.
    Senator Lieberman. What are they using?
    Mr. Willis. The majority of the counties are using optical 
scan; Baltimore City went to a DRE, and in contrast to 
Caltech's studies, and I am interested to see their data, our 
results were the opposite. They moved from lever to DRE, cut 
their no-vote rate in half; technology did work in Baltimore 
City, a very urban area where I vote. You can prevent 
overvotes. We had one county that has punch cards. It is our 
wealthiest county, Montgomery County. They had 2,565 overvotes 
in Montgomery County because they use a data vote punch card 
central count system. The entire rest of the State of Maryland, 
had only a couple hundred overvotes. You can eliminate 
overvotes with technology. Technology can make a difference.
    My vision is for Maryland to contribute to improved voting 
system and equipment, and the governor for the first time put 
State money into voting systems. In Maryland, it has been 
historically a local responsibility. The governor for the first 
time said we are going to put State money in. Our new law now 
says a 50-50 share between the State and local governments for 
voting systems and equipment. What I would like to urge, and I 
told the governor I was going to say this, was that the Federal 
Government join us and that it really be almost a third, third, 
third; and what I think would be an appropriate level of 
funding from the Congress is one dollar per person of voting 
age. That is really less than some of the proposals that have 
currently been made in Congress. I think that is a concrete 
proposal that can happen.
    The issues--I think there is a lot we can do, and as my 
written testimony indicated, it is the constitutional questions 
and the citizen participation questions that, Mr. Chairman, 
both you and Senator Lieberman outlined, that are at the root 
of this issue in which we need to continue to make progress in 
this country.
    Senator I wanted to tell you, my grandfather ran the 
general store in Kyles Ford, Tennessee, which not very many 
people know where it is, and my father was raised in southwest 
Virginia. I can just recognize from your demeanor a little bit 
of what are some of my historical roots.
    Chairman Thompson [presiding]. I knew you were unusually 
perceptive and intelligent, and now I know the basis of it
    Senator Lieberman. That was that very distinguished 
demeanor you were speaking of.
    Mr. Willis. That is correct.
    Chairman Thompson. You certainly show that attention and 
leadership is a large part of the solution here, and lack of it 
has probably been a large part of the problem in other parts of 
the country. I was going to commend you even before you said 
that.
    Mr. Willis. Thank you, sir.
    Chairman Thompson. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. This was an 
excellent panel. As too often happens around here, I wish the 
room was full and all the media was here right now, but we are 
being televised, so I am sure some folks have heard. I thank 
you all for your testimony. I want to ask Mr. McIntosh and 
Secretary Willis, because you both are administering and 
overseeing; just to clarify, from your point of view, and I 
think you pretty much said this, Mr. McIntosh, that the so-
called Motor Voter law has been a success, which is that you 
testified specifically that it has substantially, and continues 
to substantially register voters, but you have found no 
substantial increase in fraud as a result of Motor Voter?
    Mr. McIntosh. No, we have not, not really at all. It is 
interesting that I can only think of perhaps in the entire 
history of our doing this, we have had one or two instances of 
fraud. In both of those cases, we were able to again utilize 
the records and the pictures and the photos and the IDs from 
the driver's licensing file as an aid in attempting to get to 
the substance of that particular situation, and which we would 
not have been able to do otherwise. So the answer is that we 
have not had much experience at all with fraud.
    Senator Lieberman. Secretary Willis.
    Mr. Willis. Historically, and if Senator Bennett was here, 
we could go back to examples in Baltimore from the American 
Know-Nothing days in the 1850's, which predate Utah, but we had 
our share back then. But recently we have had allegations, but 
not a lot of substance. We found, and I think that there is 
much more error on the implementation and administration phase, 
as the president of the League of Women Voters testified, than 
there is on the actual duplication or voter fraud.
    This issue came up during our recently-concluded 
legislative session, and it was raised in our Commerce and 
Government Matters Committee, as well, at the State level; and 
what I said to them is, ``Let's keep improving our 
technology.'' One is our statewide database for voter 
registration should be online. Second, we passed a law in 
Maryland that said if you move within the State, you are simply 
going to be transferred. You are not going to be dropped and 
added.
    We only have 24 jurisdictions, which is an advantage for 
us. We have large counties. They can all access that same 
database, and so we are not going to be dropping people from 
the rolls. The other thing with the voter identification, and 
we had several bills in our legislature pending that did not 
pass. They are on hold. My vision is, and it was interesting to 
hear, both from Deborah Phillips' perspective all the way to 
the League of Women Voters, that technology can get to this 
identification issue; and if every polling place can have a 
PowerBook or access to a statewide database, you can pull up 
that signature; you can compare it, and if you want to go the 
other step, you can actually have it compared electronically.
    We ought to be using the technology that is available in 
other sectors of our economy for our election infrastructure. 
We can get to that identification issue without creating all 
kinds of other problems.
    Senator Lieberman. I thank you for that. It does seem to 
me, having listened this morning, that one of the best things 
we can do, if not the only thing, to reduce voter registration 
problems would be to have every State computerize their voting 
lists and have it centralized.
    Mr. Willis. One point on this is we have shared with other 
States--we have shared with the District of Columbia. Linda 
Lamone, our election director, recently or several years ago, 
compared D.C. with Montgomery and Prince George's County. Most 
of it was purely innocent duplications between people moving 
and whatever. The Secretary of the Commonwealth in 
Pennsylvania, they are starting their State reform process in 
Pennsylvania. They have 67 counties, and I told Secretary 
Pitzingrilli, a Republican who with Governor Ridge, is doing a 
great job up here with his committee--that we will share our 
database with theirs, because we share a lot of border with 
Pennsylvania; and I think that some of those suggestions you 
have heard this morning can go to address that problem.
    Senator Lieberman. Thanks.
    Dr. Alvarez, I was interested, although the percentage is 
only one percentage more, but now that could be significant--
the higher problem rate with what I would call the 
touchscreens, and I know there are more expressions of that 
approach. For instance, I have been reading about Brazil and 
Peru; I think perhaps President Carter and President Ford have 
been to Peru and were impressed by the small error rates. So if 
you had your druthers, based on your research--if you were the 
king, what is the system you would try to--the technological 
voting system that you would try to implement in every State in 
the country?
    Mr. Alvarez. Right now, we are advocating precinct-based 
optical scanning as the best available technology at this 
point.
    Senator Lieberman. These are the ones where you fill out 
the ballot.
    Mr. Alvarez. Yes, it is like you are taking the SATs. You 
fill in a circle or you complete a line, because in those kind 
of systems, most people find it relatively easy to use the 
paper ballots.
    Senator Lieberman. You can organize them or work the 
machines so that they tell you how you voted, in case there is 
a mistake.
    Mr. Alvarez. Exactly, and you might have an opportunity 
then to correct your mistake; and they also obviously provide a 
paper trail for auditing in the future. The electronic machines 
are very varied in their interfaces, and many of them, at this 
point in time, do not allow for that same type of auditability 
after the election because they do not generate a paper trail 
of every single ballot that has been cast.
    Senator Lieberman. How about on the voter registration 
question? What would be your counsel? Am I right that the best 
thing we could do is centralize, have computerized lists in 
every State at a central place?
    Mr. Alvarez. Exactly. I would strongly urge you to 
recommend that every State develop a statewide voter 
registration database; that be computerized, and that linkages 
be made between the statewide database and the local election 
official offices, so that there can be instantaneous updating 
of those databases.
    I would also urge that you recommend or somehow facilitate 
the ability of States to tell voters, to let voters know, what 
their current registration status is. That is one of the 
loopholes right now. It is very difficult for many voters to 
find out if they are currently registered to vote and where 
they might be registered to vote, and get that information 
electronically in the polling place, so that, as we just heard, 
you can have polling place verification electronically. That 
eliminates, I think, a lot of the potential fraud problems, and 
I think it also facilitates access, so that if someone, for 
example, shows up at the wrong polling place, right now, in 
many locations, the local election officials in the polling 
place do not know where to send that person to vote.
    So, again, if they had access to the State electronic 
database, they could determine if that person is registered and 
they could tell them where they can go to vote.
    Senator Lieberman. Secretary Willis and Mr. McIntosh, am I 
right that you both said that you have provisional voting in 
your State?
    Mr. Willis. We just started. We just enacted ours.
    Senator Lieberman. You just did. You have got it?
    Mr. McIntosh. We have had it for over 30 years.
    Senator Lieberman. So far, it has worked well?
    Mr. McIntosh. Yes, it does work well. I would be remiss if 
I did not comment on behalf of the local election officials, 
that provisional ballots can be a real pain in the neck, in 
terms of giving the results out quickly, because with the 
substantial number of them that you have, they do require a lot 
of research and a lot of physical handling, and so they can bog 
down the process quite a bit, but I think they are absolutely 
essential, in terms of your Election Day activity, of just 
getting through your polling place problems.
    Senator Lieberman. So the basic arrangement is that any 
voter whose registration status is questioned, and he or she is 
convinced they are a voter, they make an affirmation, sign a 
document of some kind, and then go ahead and vote, and that 
vote is separated and then later investigated?
    Mr. McIntosh. That is correct. It is put in a separate 
envelope, a security envelope, along with the information 
regarding what the question might be.
    Senator Lieberman. Nobody is turned away?
    Mr. McIntosh. Nobody is turned away, and people are allowed 
to vote. We basically have this in two instances where this 
primarily comes up; one is the person is not on the list at 
all, or second, they are registered to vote in a district or 
they are not allowed to vote on a question that they feel that 
they should be allowed to vote on. It might be a school 
district measure or something like that. So whatever that 
situation happens to be, we do let them vote the way they want 
to vote, and then process the ballot later.
    Senator Lieberman. Mr. Secretary.
    Mr. Willis. In the formulation of our bill, we looked at 
all the other States that had provisional ballots, and the 
system that you have just described and Gary McIntosh described 
is what we adopted; so that we are not turning voters away and 
we are determining administratively the next day or the day 
after. That was our biggest complaint in the last election, 
because when people were going to motor vehicles departments, 
thinking that they had either changed their address or did not 
intend to change their voting address, but were just simply 
dealing with motor vehicles--they may have two homes. We have 
people who live at a home in Ocean City; they have one in the 
mountains, whatever--and they were suddenly dropped from the 
rolls. It happened to a voter right in front of me on Election 
Day. We had to send that voter down to the central office way 
downtown. That made them late for work. So we decided 
provisional ballots would, in fact, be a convenience to the 
voter, as well as protect the security of making sure that 
voter was registered, because you can determine that 
administratively. Across party lines in the State, that had 
very little controversy as it went through our State 
legislature.
    Senator Lieberman. Have the numbers been large, in 
Washington State, for instance, of the use of the provisional 
vote?
    Mr. McIntosh. Well, our numbers have been going down, 
Senator, because we do not have very many people going to the 
polling place anymore. Most of our people are voting by mail, 
so we have reduced the number of people that we process through 
our polling locations. So our numbers, in fact, are decreasing.
    Senator Lieberman. One quick factual question for the two 
of you. I have heard references a few times in this to North 
Dakota, which has no registration. What is going on out in 
North Dakota? You just walk in to vote? Do you know?
    Mr. McIntosh. Essentially, they do keep a registration file 
from election to election, as I understand it, so it is just 
that there is no ongoing process whereby people sign up to 
vote.
    Senator Lieberman. So, essentially, it is a kind of 
Election Day registration, effectively?
    Mr. McIntosh. Yes.
    Mr. Willis. You show and indicate--some indication of 
residency, and you are allowed to vote in North Dakota. I would 
say I think there is a certain mythology about urban voters--I 
live in Baltimore City, near Johns Hopkins University. People 
in my neighborhood know people in my neighborhood. It is a 
question, I think, of size and scale more than it is of exact 
location, because there are tight-knit communities everywhere 
in this country.
    Senator Lieberman. Good point. Thanks very much. You have 
been a really helpful panel.
    Chairman Thompson. Thank you.
    Mr. McIntosh, are most people satisfied that going to more 
of a mail system is a good thing in your State?
    Mr. McIntosh. Well, our numbers sure indicate that. The 
registered voters sure love it. In 1996, we had about 35 
percent of our ballots cast by mail, and as I mentioned 
earlier, about 54 percent were cast by mail in this last 
Presidential election. So the voters seem to favor this type of 
voting.
    Chairman Thompson. It takes a little longer to get your 
election results.
    Mr. McIntosh. Well, it does, and when you look at a State 
like ours, there are three factors in that. One is the large 
number of people voting by mail. The second factor is the fact, 
as I mentioned earlier, the fact that we have provisional 
ballots. The third factor is that we have a very late primary, 
and so we have a very compressed time frame by which we can get 
all of these ballots processed and get our results out, and 
that creates a problem, as well.
    Chairman Thompson. You mentioned your experience with the 
Motor Voter and people coming in and showing their ID and so 
forth, and that has worked. Have you had similar problems to 
other States in the mail-ins, with regard to Motor Voter?
    Mr. McIntosh. We have not had much in the way of voter 
fraud in our State at all, and that may be due to our political 
culture or history or whatever. That is not something we have 
had a lot of.
    I would say that what fraud we have had, where we actually 
have had some successful prosecutions, has been more related to 
initiative petition signature gathering, where people are paid 
to gather signatures for initiative petitions. This creates an 
incentive for them to dummy up----
    Chairman Thompson. Paid by the name, maybe?
    Mr. McIntosh [continuing]. To dummy up some voter 
registration forms, and then fraudulently put the signature on 
the initiative petition, so that they can get enough signatures 
and get more money, essentially. So we have had some instances 
of that, although normally when we have seen that, it has been 
fairly well-detected; the initiative petition signatures, for 
example, we have found to all be in the same handwriting. We 
found one sheet that all 20 names on the petition sheet were 
all in alphabetical order. So, obviously, these names they had 
just gotten out of a phone book somewhere.
    Chairman Thompson. Kind of like a bank robber I prosecuted 
one time, and found the money in sequentially numbered bills, 
and he still got acquitted. [Laughter.]
    Mr. McIntosh. Our individual was not as lucky.
    Chairman Thompson. It was in Columbia, Tennessee, by the 
way.
    Mr. Perrin, let me see if I understand the situation 
correctly. The polls in the Central Time Zone were open until 8 
o'clock?
    Mr. Perrin. Eastern.
    Chairman Thompson. Seven p.m. Central.
    Mr. Perrin. Yes.
    Chairman Thompson. The media announced that they had closed 
at 6 p.m. Central?
    Mr. Perrin. That is correct.
    Chairman Thompson. Is that what happened?
    Mr. Perrin. Yes.
    Chairman Thompson. You had something to show us, I think.
    Mr. Perrin. Yes, sir. Thank you. What you are going to see 
are excerpts of broadcasts between the hour of 6 p.m. Central, 
and 7 p.m. Central.
    Senator Lieberman. This will be particularly emotional for 
me to watch. [Laughter.]
    Mr. Perrin. I am sorry, Senator.
    Senator Lieberman. I will try to contain myself. I have 
relived this night so often.
    Mr. Perrin. Really, it is a much more clear-cut case than 
we are dealing with----
    Senator Lieberman. Although I think this was the point at 
which we had won. This was the high point. [Laughter.]
    Mr. Perrin. Well, Senator, I think there is a part of this 
tape you will particularly enjoy.
    [Videotape played in the hearing room.]
    Mr. Perrin. I did not mean to pile on there. It really is 
extraordinarily clear, at least from our perspective, from the 
poll workers, what happened there; and I would just urge the 
Committee not to take the media at their word. I think they 
have lost substantial credibility, and there needs to be a 
prohibition, because I simply do not believe that they will 
refrain from, in the heat of the moment, doing it again.
    Chairman Thompson. All right. Well, there have been 
hearings in detail on that issue over on the House side, and 
that is for another day, as to what, if anything, can or should 
be done about that. Perhaps what we are doing here today is the 
most that we can or should do about it, and that is have some 
accountability. I mean, we ought to have it. The news media 
ought to have it. When they look like they get it so badly 
wrong, and probably discouraging a large number of people from 
going to the polls, they need to be called on it; and I think 
it has already had a salutary effect on the media. I may be 
wrong.
    Mr. Perrin. I have heard a lot of discussion about the 
early call. I have not heard a lot of discussion or self-
criticism by the media about the fact that they were so wrong 
and that it affected so many polling places. I am not sure that 
the media can hold themselves to the standard of: We will 
police ourselves.
    Chairman Thompson. Sitting here and listening to this, 
calling an election is one thing. A voter ought to be on notice 
that is a projection and may or may not affect--telling 
somebody their voting place is closed is something else again, 
and I am not sure there has been much attention or sufficient 
attention drawn to that.
    Mr. Perrin. I thank you, Mr. Chairman and Mr. Lieberman, 
for the opportunity to present it today.
    Chairman Thompson. I want to thank this entire panel. It 
has been a very good panel.
    Thank you, Senator Lieberman, for these hearings. 
Hopefully, we will contribute to the body of knowledge and some 
additional understanding about this problem, what we can do 
about it.
    Senator Lieberman. Thanks, Mr. Chairman. I look forward to 
next week. Thank you all very much.
    Chairman Thompson. Thank you very much.
    We are adjourned.
    [Whereupon, at 2 p.m., the Committee was adjourned.]

 
               FEDERAL ELECTION PRACTICES AND PROCEDURES

                              ----------                              


                         WEDNESDAY, MAY 9, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:17 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Fred 
Thompson, Chairman of the Committee, presiding.
    Present: Senators Thompson, Lieberman, Levin, and Carper.

             OPENING STATEMENT OF CHAIRMAN THOMPSON

    Chairman Thompson. The Committee will come to order, 
please.
    Today, we will have our second hearing on election reform 
at the request of Senator Lieberman. During the first hearing, 
we discussed issues involved in getting people to the polls. We 
focused primarily on registration and the competing interests 
of increasing voter participation on the one hand and 
protecting the integrity of our campaigns on the other.
    We learned last week that voter registration systems in 
this country have problems, that they are vulnerable to fraud 
and mistake, and that steps need to be taken to clean and 
better maintain the voter rolls.
    Centralized databases, more aggressive scrubbing of the 
voter lists, and safeguards such as requiring identification at 
the polls might help.
    There also appeared to be a consensus on ideas such as 
provisional ballots which would help ensure the right to vote 
for some and also help to deter fraud.
    Today, we will hear about problems with absentee ballots, 
military ballots, and problems encountered at the polls, and we 
will delve further into the question of where the less accurate 
machines are actually located.
    One witness with us today is Dr. Stephen Knack. You may 
recall last week that there were some comments made that 
perhaps it is no coincidence that some of the more inferior 
machines that are used in this country have been placed in low-
income and minority areas. I cited a study by Dr. Knack that 
found that the more affluent counties are statistically more 
likely to have punchcard systems. To back that up, John Willis, 
the Secretary of State of Maryland, testified that Montgomery 
County, the richest county in the State, is the only one that 
still uses punchcards in that State.
    We have other witnesses who will outline problems people 
encountered voting in the last election and will also offer 
some solutions for problems such as absentee ballot fraud and 
the failure to properly count military ballots.
    There are many who are eager to have Congress spend money 
on elections, and particularly on new machinery. I think we are 
learning that there are several problems to be addressed, many 
of which can raise questions about the integrity of our 
elections. I hope that as we continue to highlight other 
problems with our electoral system that we will encourage 
people to be deliberate on how and where we spend those funds.
    Incidentally, since our last hearing, the Florida 
legislature moved in a bipartisan fashion to eliminate 
punchcard ballots in that State, to establish uniform recount 
rules, and to set up a statewide registration database. I 
applaud them for taking an affirmative step that will help 
ensure public confidence in their elections.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman.
    First, let me apologize to you, the witnesses, and everyone 
in the room that I am tardy today. I was on the floor on this 
vote, and I was brought into some urgent consultations on the 
education bill that is now before the Senate.
    Mr. Chairman, let me again express my appreciation to you 
for agreeing to hold these 2 days of hearings to explore the 
worrisome problems that we have with America's electoral 
system.
    I thought last Thursday's hearing underscoring the problems 
of voter registration produced some very constructive 
suggestions. In fact, we already have had such an extraordinary 
effect that just a day after that hearing, as you said, Florida 
adopted many of the reforms that were discussed last week.
    I did notice, including particularly the centralized voter 
registration database and provisional voting which seems like 
such a simple idea to deal with a common and most irritating 
problem, that you wonder why we have not all done it before, 
which is to say if you come to the voting place and for some 
reason you think you are registered and your name is not on the 
list, instead of sending you home or back to work, provisional 
voting says that you affirm that you are who you say you are, 
that you sincerely believe that you have a right to vote, you 
cast the vote. Provisionally, it is separated, and then 
afterward, the Registrar of Voters investigates to see whether 
your vote should ultimately be counted.
    I do understand, Mr. Chairman, that Palm Beach County is 
selling its punchcard machines on eBay, and I want to announce 
here publicly that I do not intend to be making a bid on those 
machines.
    Anyway, I am confident that today's hearing will prove 
equally helpful in furthering the national conversation on this 
critically important issue.
    Today, we are focused on votes that are cast and whether 
they are counted. It has been estimated that nationwide, of all 
the ballots cast last year, 2.5 million were not counted. It is 
a stunning, embarrassing figure. So that, what happened in 
Florida because of the virtual tie that occurred there, it 
illuminated, I think, for the country a much broader national 
problem that we have to tend to.
    I hope today's hearing serves to remind us that Americans 
not only have a right to expect that their votes will be 
counted. They have an equal right to expect that their votes 
will be counted. The constitutional promise of one person, one 
vote, is not just a statement of principle. It is a legal right 
that every American has, and the first step in making that 
right a reality is providing all citizens with voting equipment 
they can count on, voting equipment that will count their 
votes.
    Improved voting machines alone will not necessarily fulfill 
the constitutional promise of one person, one vote. For 
instance, we have seen some statistics that I find very 
disturbing that show that people of color nationwide are at 
least twice as likely to have their votes discounted as white 
Americans.
    In Georgia, the Secretary of State found specifically that 
African-American precincts lost votes at a rate of up to 3\1/2\ 
times white areas with the same voting machines. So this is not 
what America is supposed to be about, and I think we have got 
to all in a very open-minded way work together to find a means 
to reduce these discrepancies which become inequalities before 
the next election.
    As some of our witnesses will tell us today, the problems 
of our voting system cover a broad territory. Just to name a 
few, poll worker training and recruitment needs to be improved. 
Ballot designs need to be clearer. Voter instruction and 
education, accommodations for disabled and elderly and 
translation for non-English language voters need to be better.
    Until now, these problems have largely been the burden of 
local election officials who typically run elections as only 
one of their many duties and often manage to do it on very 
small budgets. One estimate I have seen puts it at 3 percent of 
the average country budget. But these types of systemic 
problems, I think become national problems and, therefore, are 
our responsibility, too.
    Finally, we cannot stop even at the polls. We must make 
sure that those voters who cannot make it to a voting booth, 
the elderly or the infirm also have their votes received and 
counted, and, of course, our service men and service women 
deserve exactly the same treatment. Those who would give their 
lives so that we can all be free, including the freedom to 
vote, must be able to exercise their franchise without 
hindrance or hardship.
    So, as Members of Congress, each one of us swore to uphold 
and defend the Constitution. That constitutional promise of one 
person and one vote is our promise to fulfill. The American 
people expect it. More to the point, they deserve it, and it is 
our job to ensure that they get it. I hope we will do so 
through election reform legislation adopted by Congress this 
year.
    Again, Mr. Chairman, I think these two hearings will help 
to provide the factual and legal basis for exactly such action.
    I thank you.
    Chairman Thompson. Thank you very much.
    I notice we have some young people with us here today. Are 
you from one school? Where are you from?
    Audience. San Diego, California.
    Senator Lieberman. San Diego.
    Chairman Thompson. All right. Well, we are glad to have you 
with us today.
    Senator Lieberman. The voting machines appeared to work 
very well out there last year.
    Chairman Thompson. Somehow I am not surprised that you 
noticed.
    Do not be voting for a few more years. OK?
    Our first panel, we have Arturo Vargas, executive director 
of the National Association of Latino Elected and Appointed 
Officials; Hilary O. Shelton, director of the Washington Bureau 
for the NAACP; Dr. Stephen Knack, senior research economist at 
The World Bank; and Hans A. von Spakovsky, member of the Fulton 
County Board of Registration and Elections. Thank you, 
gentlemen.
    Mr. Vargas, please proceed with your testimony. Your 
written remarks will be entered into the record in their 
entirety.

  TESTIMONY OF ARTURO VARGAS,\1\ EXECUTIVE DIRECTOR, NATIONAL 
    ASSOCIATION OF LATINO ELECTED AND APPOINTED OFFICIALS, 
                        EDUCATIONAL FUND

    Mr. Vargas. Thank you, Chairman Thompson and Ranking 
Member, Senator Lieberman. Thank you for the invitation to 
appear before you today on election practices and procedures.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Vargas appears in the Appendix on 
page 212.
---------------------------------------------------------------------------
    I am Arturo Vargas, executive director of the NALEO 
Educational Fund, the leading national organization that 
empowers Latinos to participate fully in the American political 
process. We achieve this by helping folks become citizens, 
doing voter education, encouraging people to go out to the 
polls on Election Day, providing training to people who want to 
run for office, and providing training opportunities for people 
who serve in elected and appointed office. Our constituency 
includes more than 5,400 Latinos in elected and appointed 
offices nationwide.
    In examining the issue of election procedures and 
practices, I would like to offer the Members of the Committee 
our experiences in promoting Latino involvement in the 
electoral process. I would like to start by discussing the 
issue of voting assistance being provided in languages other 
than English, which leads me to the importance of Section 203 
of the Voting Rights Act and the positive impact that it has 
had on minority electoral participation.
    The right to vote is fundamental. Yet, there are many U.S. 
citizens of language minority backgrounds who are not fully 
proficient in English and cannot effectively participate in the 
electoral process due to language barriers. Some of these 
Americans were born here and never had the opportunity to 
become fully proficient in English. Others are naturalized 
citizens who because of their advanced stage were not required 
to demonstrate a knowledge of English in order to qualify for 
U.S. citizenship.
    Being unable to read or comprehend in English, voter 
registration materials, referenda, or ballots can limit many of 
these voters, and, Senators, even myself born and raised here 
and schooled in English, sometimes I find it difficult to 
understand what the referenda and ballot materials say. Imagine 
the barriers for folks who are learning English as their second 
language trying to make sense of that language.
    Congress, recognizing the link between language barriers 
and low voter turnout, enacted Section 203 of the Voting Rights 
Act in 1975. This provision requires certain jurisdictions that 
meet certain population thresholds, not every jurisdiction and 
every country for every language minority voter, but certain 
jurisdictions that have a certain number of individuals who do 
not speak a particular language and where the Census data also 
show that there are high rates of illiteracy for those certain 
jurisdictions that they must provide assistance to language 
minority voters in those areas.
    Congress emphasized that many minority citizens were not 
exercising their fundamental right to vote due to high rates of 
literacy in English and unequal educational opportunities. 
Congress reauthorized and strengthened Section 203 in 1992.
    Many of our newest citizens are eager to participate in the 
political process, and what we have seen over the past 6 to 8 
years is that naturalized U.S. citizens, in fact, are turning 
out, registering to vote and turning out to vote in rates 
higher than native-born citizens. We think this is a good way 
to strengthen our democracy, and many of them are the engine 
that is driving our democracy today.
    Language assistance at the voting booth helps our Nation's 
newcomers exercise their rights to vote that they have worked 
so hard to attain. Consequently, we urge that any changes to 
Federal election law and regulations complement and strengthen 
the provisions provided to language minority citizens in 
Section 203 of the Voting Rights Act.
    Some folks falsely claim that the language provisions are 
too costly. This is simply not the case. Again, it is only 
certain jurisdictions under certain conditions that must 
provide non-English language assistance.
    The Voting Rights Act has served as a powerful tool to 
eliminate barriers that have prevented Latinos and other ethnic 
groups from voting. The increases in Latino voters and elected 
officials have given previously excluded Americans an active 
voice in every elected body in the Nation, save, perhaps the 
U.S. Senate, and we still are looking for the participation of 
a Latino or Latina to be among your colleagues.
    At least one attempt has been made in each of the last five 
Congresses to roll back the language assistance provisions of 
the Voting Rights Act. This would effectively disenfranchise 
thousands of American citizens of Latino and Asian-Pacific 
descent and others. We must ensure that opponents of the Voting 
Rights Act do not use electoral reform as a pretense to delude 
those protections.
    We are also aware that many proponents of election reform 
advocate a host of changes to election procedures and voting 
technology. As you assess these proposals, we would like to 
provide two recommendations for you to keep in mind. First, 
there is an urgent need for reliable and relevant research and 
the impact of these proposals on citizen participation in 
elections. This research needs to specifically consider the 
experiences and needs of Latinos and other minority voters.
    Much of the discussion surrounding the need for reform 
practices has been about the problem of punchcard ballot 
systems. Policy-makers have raised questions about whether 
Latinos and other minority voters are disenfranchised by their 
use. While we have seen some research indicating that Latinos 
are more likely to live in counties that use punchcard 
equipment, this may be largely attributable to the fact that 
L.A. County uses this system, and L.A. County is home to about 
1 out of 8 Latinos in the Nation.
    It is unclear whether these error rates that we have seen 
are a result of factors such as poor equipment maintenance, 
lack of a mechanism allowing voters to ascertain whether their 
ballots are punched accurately, poor chad removal systems, or 
low voter understanding about the use of punchcard systems. 
Thus, it is important for us to get a better understanding of 
whether technological improvements in and of themselves result 
in more accessible and accurate voting systems.
    We recommend that any efforts to reform voting procedures, 
standards, or technology must be accompanied by a comprehensive 
program to train and recruit poll workers and to educate voters 
about the practical mechanics of voting.
    One of our earliest efforts were to provide a toll-free 
bilingual hotline so that voters could report incidents of 
voter intimidation or harassment. However, we found that most 
of the questions we received were basic questions about voting, 
where to vote, how to vote, how do I find my polling place, 
etc.
    As the Latino population has increased throughout the 
country in States that are for the first time dealing with 
large numbers of Latino immigrants and Latino citizens, we 
believe the importance of voting, of ensuring at the voting 
booth there are adequate numbers of bilingual poll workers is 
extremely important, and we encourage jurisdictions to work 
with community-based organizations and educational institutions 
to promote recruitment of poll workers.
    We believe that public-private partnerships with community-
based organizations, schools, and others could help recruit the 
number of bilingual poll workers needed in our counties and 
cities across the country today.
    More than anything else, Senators, we believe that what we 
need is leadership on behalf of the Senate and the President in 
this respect. We ask that the Senate and the President take a 
leadership role. The dramatic changes in the growth and 
distribution of the Latino population revealed by the new 
Census data presents a prime opportunity for Congress and the 
President to set the tone for this critical discussion. Our 
leaders must show the Latino community and the Nation as a 
whole that the aim of electoral reform is to help revitalize 
our democracy and ensure that it remains vigorous and 
responsive to all of our distinctive voices. Thank you.
    Chairman Thompson. Thank you very much. Mr. Shelton.

TESTIMONY OF HILARY O. SHELTON,\1\ DIRECTOR, WASHINGTON BUREAU, 
   NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF COLORED PEOPLE

    Mr. Shelton. Good morning, Mr. Chairman, Senator Lieberman, 
and distinguished Members of the Committee. Thank you for the 
opportunity to come before you this morning on behalf of the 
NAACP. Our 1,700 branches in 50 States, the District of 
Columbia, Germany, Japan, Italy, and Korea. I am here in lieu 
of our president and CEO, Kweisi Mfume who is at this time over 
on the House side testifying before the House Judiciary 
Committee on discrimination in the Federal workplace. He sends 
his regrets as well as his appreciation for your activism in 
this case. The NAACP is deeply appreciative of the Senate 
Governmental Affairs Committee for convening this hearing to 
look into the issue of voting irregularities with respect to 
last year's Presidential election.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Shelton appears in the Appendix 
on page 218.
---------------------------------------------------------------------------
    While the situation in Florida obviously received the most 
national media attention, the NAACP believes that Florida is, 
in fact, a microcosm of the entire country. We are convinced 
throughout the United States, millions of American citizens 
were, for one reason or another, not able to cast their vote or 
have their vote counted.
    Furthermore, the NAACP strongly believes that many of the 
voting irregularities occurred disproportionately in 
communities of color. So it was ethnic minority Americans who 
were, in disparate numbers, excluded from having their voices 
heard. There was, as best as we have been able to determine, 
substantial, unresolved allegations across the country of 
massive voter disenfranchisement in African-American, Hispanic-
American, Haitian-American, and Jewish-American communities. 
The election appeared to have been conducted in such a manner 
that many of those same communities now believe unequivocally 
that it was unfair, illegal, immoral, and certainly 
undemocratic.
    Because the right to vote is the most sacred franchise in a 
democracy, we must challenge all Americans to focus again on a 
thorny issue of equal opportunity under law and whether or not 
a protection was afforded to duly registered voters who went to 
the polls on Election Day, November 2000.
    Every survey that we have found that was conducted at the 
election, regardless of where it was in the United States, has 
shown that the greater the percentage of black voters in a 
precinct, the greater was the likelihood that a significant 
number of the ballots of those voters were never counted.
    The national response to this has been a flurry of 
legislative initiatives announced and undertaken by 
conscientious Members of the House and Senate on both sides of 
the aisle. If anything, the bipartisan nature alone of the 
response thus far has been encouraging. However, the real test 
will be to see what, if anything, of substance emerges and is 
signed into law under the rubric of voting and electoral 
reform.
    In response to the problems that we have identified, the 
NAACP has developed a set of well-thought-out ideas and 
recommendations designed to avoid similar Election Day debacles 
in the future. Before I discuss what the NAACP feels needs to 
be done to correct the myriad of problems that face our Nation 
on Election Day 2000, I would like to begin talking about what 
happened prior to and during the election.
    The weekend prior to the election, the NAACP began 
receiving calls alerting us of the fact that a person or 
persons was making electronic phone calls into predominantly 
black households claiming to represent the NAACP in support of 
Republican candidate, George W. Bush. These calls were 
apparently taking place in key battleground States of Michigan 
and Florida. Beginning on Election Day and still to this day, 
the NAACP national staff as well as some of our local branches 
across the Nation began to receive calls from people who felt 
that their rights to vote had been violated.
    Subsequent to the election, NAACP national staff as well as 
several State conferences and local branches held hearings 
throughout the country to investigate allegations of voter 
fraud, voter intimidation, as well as technical and procedural 
barriers that resulted in a significant number of votes not 
being cast or counted.
    As a result of the flood of complaints we received, the 
NAACP held a series of hearings throughout the Nation to look 
into the problems faced by many Americans who wanted to vote, 
but were not able to do for one reason or another.
    We have also continued to receive complaints through phone 
calls, letters, faxes, testimonials, and affidavits. Let me 
list a few of the more egregious trends as well as some of the 
particularly disturbing accounts that we have heard. If the 
Committee or any Member would like additional material, I 
welcome the opportunity to share with them some of the volumes 
of trends and anecdotes, as well as transcripts from our 
hearings that our national headquarters has collected.
    One particularly disturbing trend was the blatant voter 
intimidation that appeared to occur throughout the Nation. In 
Georgia, State troopers pulled over a college student who was 
driving people to the polls. He was told that unless everyone 
in the van was related to him or unless he had a chauffeur's 
license, he must immediately cease and desist in driving people 
to the polls.
    In several States, including Florida and Missouri, we have 
received affidavits from African-Americans who were forced to 
show identification while their white neighbors were allowed 
access with no problems.
    NAACP members reported that off-duty police officers and 
prison guards wearing arm bands and armed with guns were posted 
outside several polling stations in New York under the guise of 
``identifying troubled spots.''
    In Missouri, an African-American businessman in suburban 
Kansas City reported a Christian Coalition voting guide on a 
table next to a voting machine. Upon complaining to one of the 
election officials, he was told, ``God wants you to vote for 
George Bush. God wants Bush to win. Democrat Al Gore kills 
babies.''
    Another very troubling trend that we have identified was 
the utilization of undertrained poll workers as well as 
inoperable or malfunctioning voting machines. Again, these 
trends appear to be more prominent in communities of color 
across the Nation.
    The president of the NAACP Arkansas College Chapter 
reported at hearing that students she had registered were 
having problems with poll workers not finding their names on 
rolls, being turned away by poll workers who indicated that 
their votes would not be counted, that their votes would be 
thrown in the trash, and being told that the poll workers 
simply did not feel like looking for any of the individuals' 
names on the list.
    In predominantly black Fulton County, Georgia, 1 in 16 
votes for President was invalidated. In nearby Cobb and Gwinnet 
Counties, mainly white counties, only 1 in 200 ballots had been 
destroyed because of irregularities.
    In Illinois, more than 50 Cook County precincts reported 
that on average 1 in 6 ballots went uncounted, while almost 
every vote was counted in Chicago's outer suburbs. We believe 
that it is part of our obligation as a non-partisan civil 
rights organization to insist that all voters be allowed to 
cast an unfettered ballot and be free from intimidation and 
harassment as promised in the Voting Rights Act of 1965. The 
NAACP has, therefore, developed a set of policies and 
procedures that we are asking every State as well as the 
Federal Government to adopt prior to the next election.
    Like most things that challenge our gift of freedom, we 
must work hard to ensure that our democratic system retains its 
integrity. Furthermore, it is important that we act now, so as 
to quickly start to restore the confidence in the electoral 
process that was lost for so many of our people throughout the 
Nation, especially in the African-American and Latino 
communities.
    Specifically, the NAACP is calling on the Federal 
Government as well as each of the 50 States to promptly enact 
laws, policies, and procedures that secure the following: One, 
ensure non-discriminatory equal access to electoral processes 
for all voters, including members of the U.S. Armed Forces; 
two, modernize voting and counting procedures throughout each 
State, including the utilization of provisional ballots; three, 
provide necessary and adequate funding and resources to 
modernize and upgrade all statewide equipment; four, retrain 
all poll workers and election officials across the State; five, 
launch an aggressive voter education initiative for new and 
existing voters; six, expand poll workers' training and 
recruitment programs utilizing the best practices from 
throughout our Nation; seven, put into place systems to 
maintain and easily access correct and up-to-date voter rolls 
using the latest technology; eight, enhance the integrity and 
timeliness of the absentee ballot; nine, ensure that every 
State and municipality are in full compliance with the voting 
accessibility for the Elderly and Handicapped Act, the Voting 
Rights Act of 1965, and the National Voter Registration Act of 
1993; ten, identify and eliminate practices which might be 
perceived as intimidating to certain sectors of the population; 
eleven, establish clear standards for bilingual ballots and 
interpreters for the language minorities and the disabled; and, 
twelve, reexamine and simplify and standardize voter 
reenfranchisement policies throughout the country, State by 
State. The NAACP realizes that these 12 proposals taken at once 
may be perceived by some as a tall order, but only by adopting 
a comprehensive package of voting reforms will we be able to 
say that we have done all we can do to make sure that our 
democracy is working.
    I realize that some of the recommendations that I have laid 
out for you today go beyond the scope of this particular 
Committee. I would, therefore, urge you in the strongest terms 
possible to work with your counterparts on other committees as 
well as your colleagues in the House to enact an omnibus bill 
that does address all of the points that I have raised.
    As such, I would like to bring to the Committee's attention 
S. 565, the Equal Protection of Voting Rights Act of 2001, 
which was introduced by Senator Christopher Dodd. Congressman 
John Conyers introduced the House companion as H.R. 1170. This 
legislation takes a comprehensive approach to the problems 
identified by the NAACP and other civil rights organizations in 
the November election.
    The entire NAACP organization is determined to follow 
through on the issue, and we will do everything we can to make 
sure we do not have the kind of debacle we had in the November 
2000 election.
    While many Americans may decry the fact that some people's 
rights were trampled on last November, the NAACP is especially 
outraged and insulted by what happened. These are rights that 
people marched for and, in some cases, died for only 35 years 
ago.
    Our friends and our members today or not too long ago know 
that it was legal to do these things, and, today, it is not 
legal, but, in fact, it still happens.
    Again, I would like to thank the Chairman and Members of 
the Committee for holding this hearing and for your continued 
interest and activism in this area. I welcome any questions or 
comments you might have.
    Chairman Thompson. Thank you. Dr. Knack.

 TESTIMONY OF STEPHEN KNACK,\1\ SENIOR RESEARCH ECONOMIST, THE 
                           WORLD BANK

    Mr. Knack. Good morning, Mr. Chairman and Senator 
Lieberman. I appreciate the opportunity to appear today to 
testify on voting and election administration issues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Knack with attachments appears in 
the Appendix on page 224.
---------------------------------------------------------------------------
    Prior to recently moving to The World Bank, I spent 10 
years at the University of Maryland and American University 
studying voting participation issues, including the effects of 
the Motor Voter bill.
    I am here today to report on a study on voting technology 
co-authored with Professor Martha Kropf of the University of 
Missouri at Kansas City.
    Following the last Presidential election, a widespread 
perception emerged that punchcard voting equipment was more 
prevalent in counties heavily populated by minorities and 
poorer persons. This perception was based mostly on patterns 
observed in Florida and in the Chicago and Atlanta areas which 
were the subject of a front-page story in The Washington Post.
    As a social scientist, I am always skeptical of 
generalizations made on the basis of just a few examples. In 
this case, I was particularly skeptical because the States I 
knew best did not fit the alleged pattern.
    In Tennessee, it is mostly the large cities that have the 
modern electronic voting machines, including my hometown of 
Memphis where nearly half of the State's African-Americans 
live.
    I now live in Maryland, where Baltimore, with the State's 
largest concentration of poor and minorities, has electronic 
voting equipment, but, as Senator Thompson noted, rich white 
people in Potomac and Chevy Chase still vote using a form of 
punchcard equipment. So I decided to study this issue using 
data from the entire country rather than citing a few selected 
examples on one side or the other.
    We do this by combining county-level Census Bureau 
demographic data with information from Election Data Services 
on voting equipment used by the counties in the 1998 election. 
Our results found little support for the belief that resource 
constraints cause poorer counties with large minority 
populations to retain antiquated or inferior voting equipment.
    Among our specific findings, first, nationally racial 
differences in punchcard use are negligible, 32 percent of 
whites, 31.5 percent of African-Americans lived in counties 
using punchcard equipment.
    Controlling for county size and other variables, counties 
with larger percentages of African-Americans actually have a 
significantly lower probability of using punchcard voting 
equipment.
    Second, as Mr. Vargas mentioned, we found that Hispanics 
are more likely to live in punchcard counties than blacks or 
whites, but this disparity is attributable entirely to the use 
of punchcard voting in Los Angeles County. In most States, 
whites are actually more likely than Hispanics to live in 
punchcard counties.
    Third, based on Presidential voting patterns in 1996, 
Democratic and Republican voters were equally likely to live in 
punchcard counties for the U.S. overall.
    Fourth, African-Americans are more likely than whites to 
live in counties using electronic voting or lever machines, the 
two types of equipment in which over-voting is impossible if 
the equipment is programmed correctly.
    Fifth, of those who live in counties using optical scan 
systems, 31 percent of blacks, but only 27 percent of whites 
and only 23 percent of Hispanics have access to the precinct-
based scanners that can be programmed to allow voters to check 
their ballots for over-votes.
    Because we elect Presidents by the electoral vote and not 
the popular vote, it is also important to make these 
comparisons on a State-by-State basis. It turns out that in the 
majority of States where some counties use punchcards and 
others do not, it is the whites, non-poor, and Republican 
voters who are more likely to reside in punchcard counties than 
African-Americans, the poor, and Democratic voters. 
Unfortunately, for Vice President Gore and Senator Lieberman, 
Florida happened to be one of the exceptions to this pattern.
    Finally, we found that public resources don't seem to 
matter much. Counties with punchcard systems actually tend to 
have higher incomes, higher tax revenues, and larger 
populations than do counties with more modern voting equipment. 
In counties using electronic voting systems, the most expensive 
type, per-capita income and property tax revenues are actually 
lower than in counties using punchcards or any other voting 
technology.
    Florida, in fact, is one of the best examples of these 
patterns. In Florida, it is the largest and richest counties 
that have retained punchcard equipment up to now.
    So our study shows that providing financial assistance to 
replace punchcard technology would not be subsidizing the 
poorest counties. In most States, including Florida, it would 
subsidize the richer counties.
    I would like briefly to mention a couple of other research 
findings. Another study we have done of survey data shows that 
three-quarters of 1 percent of all voters at the polls report 
deliberately not voting in the Presidential contest. This is 
important because often we hear the terms ``errors'' or 
``uncounted votes'' applied to all ballots for which no 
Presidential vote is recorded, but it turns out that nationwide 
more than one-third of these invalid votes reflect deliberate 
under-voting.
    Senator Lieberman mentioned in his opening remarks that 
there were 2.5 million ballots not counted nationwide, but our 
study finds that probably close to 1 million of these were 
actually deliberate.
    Of course, we should do everything reasonable to make sure 
the preferences of the other 1.5 million are accurately 
recorded, but there are many misconceptions regarding how best 
to accomplish this.
    A recent CalTech/MIT study has found electronic systems 
often promoted as the high-tech solution to chad problems 
appear to generate the same rate of invalid Presidential votes 
as punchcard equipment. So replacing punchcard technology with 
expensive electronic systems might not reduce the number of 
invalidated Presidential votes. In fact, it would probably 
increase it in the short run because we do not understand yet 
why electronic systems are generating high rates of invalid 
votes.
    On the other hand, just about everybody is now well 
acquainted with the problems of punchcard technology, and we 
can take corrective measures. Apparently, there were very few 
problems with chad in the Palm Beach County mayoral elections 
held in March. Voters appeared to take extra care in inserting 
the card into the machines correctly, to punch their selections 
forcefully, and tear off any hanging chad before turning in 
their ballot.
    We should also recognize that reducing the rate of invalid 
votes, depending on how it is accomplished, will not 
necessarily increase the total number of votes recorded. Lever 
machines are among the best at minimizing invalid votes, but 
they are also usually associated with long lines because there 
are not enough of them and they often break down. Longer lines 
mean more people giving up and going home without voting.
    Similarly, when voters use precinct-based scanners to check 
their ballots for over-votes, they can slow things down 
enormously in densely populated areas. This is why many 
election officials do not even program their precinct scanners 
to check for over-votes.
    To ensure that you do not have long lines that discourage 
people from voting, you might have to spend a lot more money on 
new machines than has been estimated. The bottom line is that 
we should not pretend that there is a simple technological 
solution to these problems for which we only need to spend a 
little more money.
    Thank you.
    Chairman Thompson. Thank you. Mr. von Spakovsky.

 TESTIMONY OF HANS A. VON SPAKOVSKY,\1\ MEMBER, FULTON COUNTY 
  BOARD OF REGISTRATION AND ELECTIONS, FULTON COUNTY, GEORGIA

    Mr. von Spakovsky. That is a pretty good pronunciation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. von Spakovsky appears in the 
Appendix on page 278.
---------------------------------------------------------------------------
    Chairman Thompson. How did I do?
    Mr. von Spakovsky. You did very well.
    Chairman Thompson. Really? I tried to slur it a little bit 
so that you cannot tell really what----
    Mr. von Spakovsky. I am Hans von Spakovsky. I am a member 
of the Election Board of Fulton County, Georgia.
    I am going to talk mostly about absentee balloting in my 
testimony.
    In an effort intended to reverse a long-term decline in 
voter turnout and to increase voting convenience, some States 
have adopted no-fault absentee balloting statutes as well as 
early voting. However, removing the voting process from the 
polling site is not good public policy for a number of reasons.
    First of all, when combined with some of the side effects 
of Motor Voter, absentee ballots make the job of vote thieves 
easier. Unfortunately, the United States has a long history of 
voter fraud from an election in New York City in 1844 in which 
135 percent of the eligible voters turned out, to more recent 
cases involving fraudulent absentee ballots in 1993 in 
Philadelphia, in 1994 in Green County, Alabama, a county 
commission race in Dodge County, Georgia in 1996, and the Miami 
mayors race in 1997 in a case involving 5,000 fraudulent 
absentee ballots.
    While allowing registration at government offices, for 
instance, which Motor Voter provided, is a good idea, some of 
its other provisions have opened security holes in our voting 
process. For example, Motor Voter made it illegal for States to 
check someone's identification before allowing them to register 
to vote, and it mandated mail-in registration. When you combine 
that with absentee voting, an individual can register and cast 
an absentee ballot without any election official ever seeing 
them. That makes multiple registration and multiple votes very 
easy.
    I can guarantee you, Senator, that if you picked up five 
mail-in registration forms, completed them under five different 
names, mailed them in, you would get registered and you would 
have the ability to cast five votes, and the chances of you 
getting caught are slim to none.
    Second, no-fault absentee ballot laws do not increase voter 
turnout, as some people think, and they may lead to greater 
declines in turnout. There was a study released last year that 
showed that early voting and no-fault absentee voting States 
did not see related increases in turnout and actually performed 
worse in terms of having lesser increases in years where there 
was a slight upturn in turnout, such as 1992 and 1994, than 
States which did not adopt either of these procedures.
    I would urge skepticism of you if you are urged to 
legislate to make it easier to obtain absentee ballots on the 
claim that this will increase turnout. Motor Voter was passed 
on the claim that eliminating registration requirements would 
increase turnout. What has happened is that registration has 
increased, but turnout has continued its general decline.
    Third, absentee ballots make vote-buying and voter 
intimidation easier to commit, and they make poll watching 
impossible. The secret ballot prevents coercion, and it helps 
prevent vote tampering. It was instituted in the United States 
in the late 1800's to prevent these very problems which were 
then prevalent in American elections. Absentee ballots are 
voted in unmonitored settings where there is no election 
official and no independent election observer present to ensure 
that there is no illegal coercion or intimidation.
    The ability of poll watchers to monitor polling sites is 
also an important guarantee of the integrity and security of 
our election process. That kind of transparency must be 
maintained.
    No-fault absentee ballot laws make it easier for campaign 
organizations to engage in tactics such as requesting absentee 
ballots in the names of low-income housing residents and senior 
citizens and either intimidating them into casting votes or 
completing their ballots for them. Absentee ballots also make 
vote buying easier because buyers can make sure that votes stay 
bought, something not possible in the traditional voting 
location.
    We make a necessary exception for military personnel or the 
physically disabled who cannot go to a traditional polling 
site. However, because of their inherent security risks, 
absentee ballots should remain an exception and not the rule.
    When voters cast absentee ballots in large numbers, the 
cost of political campaigns, which are already prohibitive to 
many citizens, are also significantly increased. As all of you 
know, the bulk of the money spent by campaigns is in the last 
few days before election on advertising and Get Out the Vote 
efforts. When significant numbers of voters cast absentee 
ballots, any candidate who does not spend that kind of money on 
those efforts throughout the entire balloting period will be at 
an inherent disadvantage. No-fault absentee balloting and early 
voting increase the cost barrier to the average citizen to be 
involved in the election process.
    The right to cast a vote in a fair and secure election is 
our most precious right. Every American citizen who is eligible 
to vote should be able to do so with a minimum of 
administrative procedures and statutory requirements. None of 
the measures that can and should be taken to amend Motor Voter 
and tighten State election laws would infringe on the right of 
citizens to vote.
    I have made a series of recommendations for changes in 
State and Federal statutes, and that is attached to my written 
testimony.
    That is all of my testimony, Mr. Chairman, but I would like 
to ask your indulgence for one more minute to address some 
allegations about Fulton County that were made by one of our 
other panelists, Mr. Shelton, if I may.
    Chairman Thompson. You will get that opportunity. We will 
get to that in our questioning.
    Mr. von Spakovsky. Thank you.
    Chairman Thompson. Thank you very much.
    Senator Lieberman, would you like to begin?
    Senator Lieberman. Thanks very much, Mr. Chairman. Thanks 
to the four witnesses for some excellent testimony.
    Let me just see if I can focus this on a few questions. The 
question before us, I had the number of 2.5 million. Whether it 
is 1.5 million, it is still a lot of voters as Dr. Knack's 
study suggests, a lot of voters who actually went to the polls 
and did not have their votes counted. We have had a series of 
different suggestions about why or why not that happened, and I 
think I want to get a little bit later to what we in the 
Federal Government or the States can do about it.
    But let me just focus in and ask you from your work. Mr. 
Shelton, I will begin with you. How do you explain that? What 
do you think are the causes of those millions of voters not 
having their votes counted? If you had to cite the most 
significant ones, what are they?
    Mr. Shelton. I think a number of things. I think the voting 
systems themselves, antiquated systems in communities. I think 
lack of education, the utilization of those voting systems. I 
think in some cases, untrained poll workers to be able to 
provide some assistance.
    We had so many people testify that even if they made 
mistakes with their cards, as they were filling out their 
voting cards, they were not allowed to make any changes and 
were told to either discard them or just simply present them. 
Things along those lines created major problems.
    I might add that we are seeing some solutions to these 
problems that are showing some ray of light. One of the 
examples shown to us was in Detroit, Michigan. Detroit is a 
city that is predominantly African-American. It has a very 
heavy poor population, but, for the first time, utilized 
optical scan systems.
    It was 4 years ago that they had an over 7 percent error 
rate in the Presidential election. In this last election, they 
brought that down to right around 1 percent.
    Senator Lieberman. That is great. How were they voting last 
time?
    Mr. Shelton. The last time, they used punchcards primarily, 
but, this time, they used optical scan; that is, the scratching 
grid.
    Senator Lieberman. Right.
    Mr. Shelton. You put it into an optical scanner. It leaves 
an auditable trail by leaving the paper ballot behind. If there 
is a problem in it, it kicks it back out and tells you so that 
you can make the adjustments.
    Senator Lieberman. If you voted more than once for a given 
office, the ballot will come back out at you.
    Mr. Shelton. Anything that would discount the ballot, it 
would kick it back out and would set off an alarm so you could 
go back and fix it.
    But the things that made it most effective were the 
training of the electorate itself; that is, everyone that was 
registered to vote was given the opportunity to be trained in 
precincts throughout the State. There was a systematic approach 
to training voters and also training poll workers to utilize 
this system.
    Senator Lieberman. Who sponsored those training programs?
    Mr. Shelton. They were sponsored by the Detroit Board of 
Elections Commission, and the head of the commission, as a 
matter of fact, who testified not too long ago on the House 
side. So it proved to be very effective; in other words, the 
combination of efficient, effective equipment, training, and 
education.
    One of their rules is they sent out a sample ballot in 
advance so that people can also become familiar with how the 
ballot is going to be set up, and, actually, their precinct 
standards are that ballot must also reflect the structure of 
the ballot they are actually going to be coming in to utilize 
on Election Day.
    Senator Lieberman. Those are very helpful examples.
    While I am speaking with you, Mr. Shelton, how do you 
explain the higher rates of uncounting of ballots cast, if I 
can put it that way, among people of color?
    I cited the Secretary of State of Georgia study, and there 
was a study in USA Today a while ago that had similar points 
made.
    Mr. Shelton. I think confusing ballots are part of the 
problem. I think poll workers that are not trained to assist 
people that are coming to the polls and being able to fill 
those ballots out adequately and in a way that they will 
actually be counted.
    I think on the other end of the spectrum, we have ballots 
that were not counted because they were simply lost; that is, 
we experienced some things in Florida where entire ballot boxes 
disappeared and we are still waiting for them to show up. So 
you have from one end of the spectrum to the other, Senator.
    Senator Lieberman. You just tweaked my interest there, but 
I am not going to pursue that line of inquiry about those boxes 
showing up.
    Mr. Shelton. We have some ballot box numbers that we are 
still looking for.
    Senator Lieberman. OK.
    Mr. Vargas, how would you answer that question? I suppose 
particularly from the perspective of the growing Latino-
American community. What do you think are the most significant 
problems? Do you agree basically with what Mr. Shelton said, or 
are there other problems here?
    Mr. Vargas. I would echo many of the examples that Mr. 
Shelton gave, but I would underscore the need for well-trained 
and bilingual poll workers.
    We ask a lot in our country of poll workers. We ask them to 
work 14-hour days, to engage in a very long and tedious task, 
and, yet, we do not compensate them for that. We ask them to do 
that as volunteers, and then we wring our hands when we cannot 
find enough people who are willing to sit, sometimes in cold 
garages or a cold auditorium, and sit there for 14 hours trying 
to run elections. Then we want them to be well trained. We want 
them to be expert in voting procedures. We want them to be 
bilingual. We want them to be articulate. We want them to be 
helpful. But then we do not want to compensate them for that. 
So it is very unattractive for anybody to want to engage in 
that kind of work.
    I think we have to value our voting systems to the point 
that we value the work that we ask of poll workers, and we need 
to encourage more Americans to undertake that valuable task to 
make sure our democracy works.
    We work closely with the L.A. City and L.A. County 
registrars to encourage high school students and college 
students. Oftentimes, we are able to negotiate them to get 
credit from the government classes in order to engage in this 
task, but sometimes it is a hard sell to tell students, ``OK. 
In order for you to do this, you have to sit here for 14 hours 
and sometimes skip your lunch in order to make this happen.'' 
We need to value the work that they do.
    Senator Lieberman. It is obviously an unusual job because 
it happens once a year, maybe----
    Mr. Vargas. Actually--no, sir--it happens all the time. 
There are elections held virtually every single month in 
jurisdictions all over the country.
    Los Angeles, for example, had its municipal elections in 
March.
    Senator Lieberman. A while ago.
    Mr. Vargas. And we are going to have a run-off in June. 
There are elections in San Antonio in May.
    Senator Lieberman. I agree. What I am saying is to be a 
poll worker, it is not a full-time job. So you are bringing 
people in to do it on an occasional basis, maybe more than 
that, one time for a day. The question is how do you get a 
cadre of people in sufficient numbers who are adequately 
trained, and maybe the Detroit example--and I know there are 
other programs like that around the country--of training is a 
good one.
    I want to bring you back to the Voting Rights Act because, 
as we react to what we learned in the 2000 election and 
Congress considers being involved here, one of the questions 
being raised is what can Congress do. It is our tradition, 
though these are national elections, that they be run and 
administered locally, but there is statute, as you point out in 
your testimony, Mr. Vargas, that it is pretty clear. Congress 
has previously--and Presidents have supported this--reached a 
judgment that there is a fundamental national interest and 
constitutional principle on the line that the law has 
prescribed quite in some detail what local election officials 
should be doing to protect those constitutional rights.
    You mentioned that in regard to language accessibility. How 
do you interpret those sections of the Voting Rights Act? Do 
they require, for instance, poll workers who are adequately 
trained and are bilingual, and at what point, just for the 
record--how many people who are bilingual and may need language 
assistance at the poll trigger the requirement that something 
special be done for them?
    We have heard stories in the last election that Asian 
voters, for instance, in some parts of New York either had 
ballots which were done in Chinese in one case that were 
reversed. They did not actually describe either ticket, and 
others, there was just not adequate language translations going 
on.
    So what under existing laws is the requirement, and what 
more might we, or should we, do?
    Mr. Vargas. Well, as I recall, the Voting Rights 
specifically states that in those jurisdictions where they have 
10,000 or more individuals of a single-language minority group, 
or 5 percent of the eligible voters overall, and where there 
are certain rates of illiteracy in English combined. So you 
need to have a certain number of folks of a particular language 
group, 10,000 or more or 5 percent of the overall eligible 
voting population, coupled with high rates of illiteracy in 
English in that jurisdiction. Where those criteria are met, 
then local election institutions are required to provide 
language assistance. It does not specify that it be bilingual 
poll workers and so forth. It just specifies that those 
individuals should be able to exercise their right to vote with 
sufficient assistance. Some folks provide the actual ballot in 
non-English languages. Sometimes they provide guides that 
translate the ballot. Sometimes they actually do provide 
individuals at the polling booth who are bilingual.
    Senator Lieberman. So I presume that there is a lot of 
unevenness in the reaction of various voting jurisdictions to 
that requirement under the Voting Rights Act.
    Mr. Vargas. Exactly. It is very uneven, depending on what 
resources are available, and this, I think, is one area where 
the Congress could help local jurisdictions ensure that all 
U.S. citizens are able to exercise their right to vote in an 
unfettered way, as Mr. Shelton said, by providing the resources 
to develop the kinds of infrastructure to allow all Americans 
to vote.
    Senator Lieberman. Dr. Knack, my time is ending, but I 
found your testimony quite interesting, particularly regarding 
the connection between income in voting districts and the use 
of the punchcard system or not.
    In your studies, do you agree that the punchcard system 
among the choices we have for voting is less accurate, and, 
therefore, regardless of the income of the given district, as a 
national goal, we ought to be trying to reduce and ultimately 
eliminate the use of the punchcard system?
    Mr. Knack. I think as a long-term goal, that is right. I do 
not think there is any particular reason to be in any big rush 
to get rid of it over the next 2 years or even 3 or 4 years.
    As I mentioned, I think at this point, people are aware of 
all the defects and can take corrective measures. Where it is 
still in use in the 2004 election, I would guess that the 
invalid vote rate in those areas turns out to be lower than in 
areas using other kinds of equipment.
    Senator Lieberman. If you were the chief election official 
and wanted to run an election in a particular county, where you 
wanted the most votes possible that were cast to be counted, 
what system would you go for?
    Mr. Knack. I do not think there is enough good evidence on 
that because, if I wanted to minimize the rate of invalid 
ballots, meaning of those who show up at the polls, what 
percentage of them show no recorded vote for the Presidential 
contest, then either lever machines or precinct count optical 
scan systems would probably be the best, judging by the data.
    Senator Lieberman. The so-called old lever machines?
    Mr. Knack. That is right. They show a very low rate of 
invalid ballots, but the problem with these systems, as I 
mentioned, can be that unless you are willing to spend huge 
amounts of money to have a lot of these machines there, you can 
end up with long lines.
    Senator Lieberman. Long lines, yes.
    We have those lever machines still in Connecticut, and this 
is not about last year, but I cannot help but say it. It did 
strike me when the news about the over-votes came out that, if 
some of those counties in Florida had not been so advanced and 
stuck with the old lever machines, I might not have had the 
privilege of being at this hearing today.
    Mr. Knack. It is very possible.
    Senator Lieberman. Thank you.
    With your indulgence, Mr. Chairman.
    Mr. Shelton, do you want to respond at all--I will give you 
the choice--to the notion that the punchcard system does not 
fall disproportionately on lower income or voters of color 
generally?
    Mr. Shelton. No. What we found is that regardless of the 
numbers that are being shared with us, we are finding that 
African-American voters are most often in areas that utilize 
punchcards, and we are finding that those are oftentimes 
creating mistakes and problems from having their votes counted.
    Let me put it very simply. For instance, we are going to 
hear more about this. Even Fulton County, when you have 1 out 
of 16 African-American voters having their votes thrown out and 
the other local counties being like 1 out of 200, that shows 
that we have major problems with punchcards, and I guess you 
could make arguments for other systems as well, but the point 
being that, for some reason, very high numbers are thrown out 
and punchcards seem to be the culprit in most of those cases.
    Senator Lieberman. Thank you. Thanks to all the witnesses.
    Chairman Thompson. All right. Thank you.
    Following up on that--Mr. von Spakovsky, I know you wanted 
to respond to that, and the statement that I think you wanted 
to respond to is Mr. Shelton's statement in his prepared 
remarks that the NAACP has received reports that some States, 
particularly Georgia, Illinois, and Florida, routinely 
disenfranchise thousands of voters, primarily in low-income and 
ethnic minority communities.
    In predominantly black Fulton County, Georgia, 1 in 16 
votes for President was invalidated, and nearby Cobb County and 
Gwinnet County, both mainly white, only 1 in 200 had been 
destroyed because of irregularities.
    Then it went on to say, interestingly, in Illinois more 
than 50 Cook County precincts reported that on an average, 1 in 
6 ballots went uncounted, while almost every vote was counted 
in Chicago's outer suburbs.
    What is your statement on Fulton County?
    Mr. von Spakovsky. Let me point out a couple of things. 
First of all, Fulton County does have a high rate of under-
votes, but I should point out that we are the largest county in 
the State, and it is not 100 percent African-American. It is 
probably about 45 percent white, about 55 percent black. So 
that rate you are talking about applies not just throughout the 
City of Atlanta and other areas of the county, but in some of 
the very wealthy suburban parts of the county which are 
predominantly white. So that rate applies everywhere.
    There seems to be some implication here that this somehow 
racially intentional. Let me point out that the board that I 
serve on, of its five members, three are African-American; of 
our board of commissioners, seven members, four are African-
American. The reason for the difference is that Cobb County and 
Gwinnet County switched. They used to use punchcards just like 
Fulton County. They had high under-vote rates, just like we 
did. Last year, their board of commissioners voted to spend the 
money to switch to precinct scan, optical scan systems, and 
their under-vote rate dropped down dramatically.
    I am proud to say that prior to the November election, our 
board of elections submitted a request to our board of 
commissioners to get rid of the punchcard equipment we have and 
to give us the money to purchase precinct opti-scan systems. 
Frankly, it looked like they were going to vote to do it in the 
2001 budget until all the news started hitting at the end of 
December and beginning of January, right before they voted, on 
all the bills being dropped in Congress and the fact that there 
might be Federal money coming down the pike.
    Then, when our Secretary of State, her news hit that she 
was going to ask the State legislature for money, and all of a 
sudden the county commissioners, just like any elected official 
down at the county level when they see the potential of Federal 
or State money coming down, suddenly said, ``Well, wait a 
minute. We are not going to vote in our county budget for the 
money to do this.''
    I would be happy to give Mr. Shelton the names and phone 
numbers of our Democratic commissioners on our board of 
commissioners, to please call them and ask them to vote to 
spend the money to buy this equipment.
    Chairman Thompson. They obviously have not been watching 
the speed with which Congress responds.
    Mr. von Spakovsky. Well, we are trying to make them change 
their mind.
    The precinct scan system can make a dramatic difference. I 
would cite an example. Polk County, Florida, in 1996 had an 
election controversy that was almost like a forerunner of what 
happened in November, and they were using a central opti-scan 
system. They had 6,000 under-votes because of the scanners not 
reading the ballots. It was such a problematic election that, 
as soon as the election was over, they switched to a precinct 
scan system, and the next election, they dropped to having only 
about 800 under-votes.
    Chairman Thompson. This whole area troubles me greatly in 
terms of trying to figure out what the nature of the problem 
is, and it seems that one of the things that you can say about 
it is that we have had problems with elections in this country, 
maybe any democracy, ever since we have had elections. We have 
had people intimidated at the polls, and we have had people 
buying votes. We have had people engaging in voter fraud. That 
is not to minimize it, but that is a problem when you have got 
a big country and thousands of voting precincts and such 
important things at stake at election.
    This last election, I am trying to get to the heart of the 
problem.
    Mr. Shelton, I think, very candidly and properly responded 
to Senator Lieberman's question, what is the nature of the 
problem. He mentioned several things, voting machines and poll 
workers, voter education, worker training, using latest 
technology and so forth, and I think we are learning a lot more 
about that, what we can do in that regard.
    There is an underlying message here that there is at least 
a series of local conspiracies to keep black and poor people 
from voting. If that is true, the Justice Department ought to 
be out there en masse. I know you filed a complaint before the 
end of the year. I do not know what, if anything, has been 
done. I think some of them have been disproven. I think some of 
them are still open. But that is the answer to that. That is 
violations of the law, and we have laws against that, State and 
Federal laws, and that ought to be pursued.
    We had witnesses here last week talking about voter fraud. 
We could have filled the room with witnesses talking about what 
they have heard about voter fraud. You could fill the room with 
witnesses talking about intimidating at the polls. So where 
does that leave us in trying to come to an accommodation? It 
has broad social implications here.
    I think we are dealing in an area that is volatile. It is 
serious. When you talk about routinely disenfranchising 
thousands of voters, that even voters using machines, that 
certain groups have their votes thrown out, what are we saying 
here, that there is a nationwide conspiracy of if they are 
conspiring?
    Cook County--I do not understand what the point is. I do 
not think the allegation is that the folks in Cook County are 
conspiring to deliberately disenfranchise African-American 
voters. I do not think that you could make that case just on 
the face of it unless you can come in with individual 
instances.
    I do not think it is fair to the States and the people 
running the elections involved, which are bipartisan and 
biracial in most cases, if we are not willing to label it what 
it is and not willing to try to get the Justice Department down 
there to look at it.
    On the other hand, if that is the case, some people need to 
be in jail. If it is not the case, we ought to be very careful 
about how we describe the nature of the problem.
    As I say, I think you are going to have all kinds of 
improprieties. There is no question that there were some in 
this last election. There is no question that some voters were 
intimidated in this last election. I think it probably happens 
all the time, unfortunately, but we can talk about all of these 
things that we can do in terms of bettering the system, but if 
what we are really saying is that we have localities, both 
north and south--and Michigan, you mentioned in your 
statement--in Illinois, in Georgia, in Florida, if we have 
places in more than these where in some way either the 
elections boards or the poll watchers are deliberately 
disenfranchising anybody, we have got a much more serious 
problem in this country than anybody ever realized. I would 
have thought that the Justice Department would be on this like 
a chicken on a june bug if there was prima facie cases of this. 
If we do, we need to face up to it.
    On the other hand, if we have a certain amount of that, but 
we have a large amount of untrained poll workers, lack of 
education initiative, lack of using proper technology--what you 
seem to be saying--you did not jump to the conspiracy theory. 
You responded in terms of constructive things that we can do, 
but there is a subliminal, not very subtle implication 
throughout all of this. I am not using you as an individual, 
but everybody, all of us, that, yes, we have these little 
problems, we need some voting machines, but what is really 
going on with these massive conspiracies or small conspiracies 
all over the country? There is no way to address it other than 
to get prosecutors down there in individual cases. I hope that 
is what is going on.
    What is going on as far as the Justice Department is 
concerned? I know you filed a complaint. Do you know?
    Mr. Shelton. We are waiting to hear. Perhaps that is 
another issue for a hearing before this Committee is to find 
out what the Justice Department has done thus far and following 
through on the many complaints that have been filed by the 
NAACP and other civil rights organizations as well as along 
this area. We would like to know as well.
    Certainly, the Voting Rights Section of the Justice 
Department can do a great job on individual cases, but when you 
have the volume of cases that we have here, I guess one of the 
questions that could probably very well come before this 
Committee and certainly the Judiciary Committee of the Senate 
is how are we funding the Voting Rights Section of the Justice 
Department, do they have the capacity for a quick response when 
complaints come out prior to an election, during the Election 
Day, and just after the election.
    I think you are seeing that we overwhelm the Justice 
Department, and I would love to see an increase in the budget, 
as a matter of fact, for the Voting Rights Section, but if you 
look at this particular budget being handed down by this 
particular President, we do not see such a line item.
    Chairman Thompson. Some of these accusations are State law 
violations, also.
    Mr. Shelton. Yes, they are, but, of course, the Federal 
Government has oversight.
    Chairman Thompson. There are States that are scattered 
around the country. So, certainly, there is some responsibility 
there, too.
    Mr. Shelton. Sure.
    Chairman Thompson. Dr. Knack, I do not know if you 
addressed this at all in your statement. I do not know if you 
got into this, but do you see any patterns in terms of 
discounted or invalidated votes? Do you see any income or 
racial patterns there? Did you come across that at all, one way 
or another, in your studies?
    Mr. Knack. We are working on a study now on this. Again, it 
is a nationwide county-level analysis. We are finding that in 
counties with more African-Americans that there are more 
invalidated Presidential ballots, even when you control for 
education and other variables to the best of our ability to do 
so.
    Obviously, education levels is not the full story. You 
cannot really measure quality of education and other things 
that you like to control for.
    This ethnicity effect seems to be stronger in areas with 
certain kinds of voting equipment. The greater rate of invalid 
Presidential votes in counties with more African-Americans, 
that relationship is stronger in counties that use punchcard 
equipment and optical scan equipment and paper ballots than it 
is in counties using the new DRE equipment or the old lever 
machine equipment.
    Chairman Thompson. Oh, I see. So, even though there is not 
a disproportion in terms of the use of equipment with regard to 
race, that is pretty much it, but where there are punchcard 
ballots in minority communities, the rate is higher?
    Mr. Knack. That is right. So you cannot attribute 
differences in the rate of invalid ballots across races to 
differences in the equipment used, but a given kind of 
equipment for whatever reasons, differences in educational 
quality or who knows what, can cause a high rate of invalid 
ballots for one group than another for a given type of voting 
equipment.
    Chairman Thompson. All right. Thank you very much.
    Is Senator Carper still with us?
    Senator Lieberman. He is not.
    Chairman Thompson. Did you have anything further?
    Senator Lieberman. Very briefly, Mr. Chairman.
    Mr. von Spakovsky, perhaps Mr. Shelton will help you in 
this, but the sad fact is that thus far, I would say that you 
should return to Fulton County and tell your fellow 
commissioners that it is not at all clear yet that help will be 
on the way from the Federal Government regarding either the law 
or funding.
    I hope that can be changed. I hope that these hearings can 
help to make sure that we do not leave what we learned last 
year, and I am not talking about Florida alone or about the 
outcome of the election, but about some of the things that you 
all have testified to here, without trying to do something to 
make it better. It is that fundamental.
    This is one of those elements of our public life that, for 
the most part, remains invisible unless there is an 
extraordinarily close election as there was last year, and when 
there is, when we see something revealed, that surprised me 
about the national implications, how many people were either 
turned away from the polling place because of registration list 
problems and one home disappointed or voted and did not have 
their votes counted.
    I do appreciate the tone of responses here. As you said, 
Mr. Chairman, there may be conspiracies in some places. It may 
be the way the machines are set up, the failure to educate and 
train the poll workers, the lack of clarity in the ballot, 
perhaps the lack of adequate training to handle bilingual 
voters. It may have the effect, even without a conspiracy, of 
having a disproportionately negative effect on the ability of 
some groups in our society to vote, but, just overall, the fact 
that so many people cast their vote and did not have it counted 
last year is something we ought to do something about.
    I hope that we can continue to focus on that, something as 
simple as poll worker training. In part, you hope that other 
States--Florida had a particular imperative to act, but what 
they did was quite significant last week, and I think it will 
have a very positive effect. Hopefully, as this continues to 
receive some attention, other States will act as well, and 
then, hopefully, before long, we can do the same.
    I honestly do see this as an extension of the Voting Rights 
Act. If somebody casts their vote and it is not counted, that 
is a denial of the right to vote, and I hope that we can find a 
way with the help of the testimony that you have given today to 
do just that.
    So I thank the four of you for being here.
    Thank you, Mr. Chairman.
    Chairman Thompson. Likewise, I thank you very much. I 
appreciate your being here with us today. It was very helpful.
    We will now proceed to our second panel. The witnesses are: 
Sharon Priest, Secretary of State for the State of Arkansas; R. 
Doug Lewis, executive director of The Election Center; Conny 
McCormack, registrar-recorder and county clerk of Los Angeles 
County, California; and Samuel Wright, co-chair of the 
Uniformed Services Voting Rights Committee for the Reserve 
Officers Association.
    Thank you very much for being here with us today.
    Ms. Priest, please proceed with your testimony. All of your 
written remarks will be entered into the record in their 
entirety.
    Thank you.

 TESTIMONY OF HON. SHARON PRIEST,\1\ SECRETARY OF STATE, STATE 
     OF ARKANSAS, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
                      SECRETARIES OF STATE

    Ms. Priest. Thank you, Mr. Chairman and Senator Lieberman. 
I appreciate the opportunity to be here to represent the 
National Association of Secretaries of State, and we appreciate 
your willingness to hear from us, the Nation's Secretaries, on 
the work that we do surrounding elections in this country.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Priest with an attachment appears 
in the Appendix on page 284.
---------------------------------------------------------------------------
    You already have my written testimony. So I am just going 
to summarize what I have there.
    First of all, I think it is very important that we remember 
that elections are the core of our democracy, and if our 
elections, if our core is bad, then it casts doubt on 
everything else that we do. I think given the voter turnout and 
participation, that is something we all should be very aware 
of.
    I think it is also worthy to note that many States have 
existing election laws that are good, and part of the problem 
is that those laws are not carried out. If there are 
violations, they are not always prosecuted. I think that is a 
very important part. I think election law violations ought to 
be prosecuted. We do not want to send little old ladies to 
jail, but there are instances where violations really need to 
be dealt with and dealt with seriousness.
    The Secretaries in February adopted a resolution that you 
have a copy of in my testimony, and we will be coming forward 
with more specifics in July. So we will, hopefully, be able to 
give you additional information.
    We have talked a lot about voting equipment, and I think 
you will all agree that part of the issue is voting equipment 
was not designed to be voter-friendly. Voting equipment was 
designed to give us the results as quickly as possible, and as 
a result, we see a lot of voters either making mistakes or not 
understanding how to operate the equipment.
    Senator Lieberman, you alluded to Secretary Cathy Cox's 
testimony before the Presidential Commission on opti-scan, and, 
in fact, they found that in opti-scan equipment, there was 5 
percent under-vote in 21 counties. One county has a 15 percent 
under-vote, which is remarkable.
    In Georgia, they also found that on the same equipment, 
minorities had more under-vote than over-vote, the same 
equipment, the same county.
    So I think the jury is still out on what is the best 
equipment, and although I think everybody would like to say 
give us new equipment, that will solve all our problems, I 
think that is unrealistic, and I think there is a lot more that 
goes into elections. There is people, the process, and the 
technology that make up the whole elections process.
    I also think, to avoid civil rights violations, mandatory 
poll worker training is necessary, and you have heard previous 
testimony that talked about the difficulty of finding poll 
workers, the difficulty of training poll workers, and the 
difficult job that poll workers do.
    I always say that we tend to hold poll workers prisoner for 
14 hours on Election Day, and we have an aging poll worker 
workforce. Recruitment is very important, but training is, I 
think, very important in terms of civil rights violations 
because I do not think poll workers are aware that if they 
violate somebody's civil rights, they are personally liable for 
that. There is no shelter from Federal, State, or local 
government, and we do not want to frighten poll workers to 
death and say, gosh, they are afraid that they are going to do 
something improper and be personally liable, but they have to 
be made aware so that, when there are issues that come up, 
people are not turned away from the polls because of personal 
prejudices.
    Recruitment is something that is very important. I do not 
think we have to hold poll workers prisoners if we can recruit 
enough people.
    Some States actually do pay poll workers. In Arkansas, we 
pay them the minimum wage, which is not a whole lot, but if we 
can recruit additional poll workers, we can work in shifts. We 
can have some people coming in, in the morning, some in the 
afternoon.
    I am endeavoring to get involved the 2- and 4-year 
colleges, as well as the private and public sectors to help us 
with poll workers.
    Most of our communities, most of our corporate sectors, are 
good corporate citizens and will provide us people who will 
work for a festival, for example, but they have never been 
approached and asked if they would provide poll workers, and I 
think that is something that we need to do.
    Voter education is a very important piece of this as well. 
It is very important that voters know that just because they 
register or apply, actually apply to register to vote under 
NVRA at the Department of Motor Vehicles, unless they receive 
their voter registration card, they are not registered. They 
need to know that they have to follow up on that. It is not 
automatic.
    Hilary Shelton talked about students. In many cases, 
students need to be made aware that they have to choose their 
residence. So, if they are going to school in Arkansas and they 
are from Chicago, they show their primary access as Chicago, 
that their application form is going to be forwarded to Chicago 
and they will be unable to vote in Arkansas. Some States have 
residency statutes dealing with that, but I think, again, it is 
a voter education issue.
    Voters need to know about candidates. They need to know 
about issues. They also need to know about how to operate the 
equipment.
    We had a lot of first-time voters in this last election, 
and, basically, they were never told about how to use the 
equipment. They walked into the precinct. Somebody said sign 
here, vote over there, and they were confronted with something 
they had never seen before. So I think being able to educate 
the voter on all of those issues is going to help make sure 
that fewer mistakes are made.
    I think the other thing is flexibility and funding. I think 
that it is unrealistic and, in fact, I would be very concerned 
if you were to throw money at States without any strings 
attached. I think that all of us who are elected have a 
fiduciary obligation to ensure that we are good stewards of 
taxpayer dollars, but I think there is flexibility in terms of 
how that funding is sent to the States and also on spending 
guidelines.
    Some States may need it for equipment. Some may need it for 
voter education. Some may need it to help supplement poll 
worker training. So there are a lot of areas, I think, that 
funding can be used.
    I do not want you to think that the Secretaries think this 
is solely a Federal obligation or a Federal burden. We in our 
resolution said State and local governments need to step up to 
the plate as well, and we want to partner with you. We do not 
want you to shoulder the entire burden.
    Democracy, as you know, does not come cheap. We pay a heavy 
price for democracy in this country, and that is why we know 
that you cannot run government like a business. So I think that 
while we are looking at the ability to return taxpayer dollars 
to the people of this country, I think we would all appreciate 
that, but I think our democracy is so important that has to be 
a key in there and we need to look at spending some of that 
money to ensure the fairness of our democracy.
    Our democracy depends on our abilities to work together 
without partisan battles for the best interest of our country.
    Thank you.
    Chairman Thompson. Thank you very much. Mr. Lewis.

TESTIMONY OF R. DOUG LEWIS,\1\ EXECUTIVE DIRECTOR, THE ELECTION 
                             CENTER

    Mr. Lewis. Thank you for having me here. It is always a 
pleasure to be with these fine panelists. I have been with them 
pretty much anywhere and everywhere in the country together. So 
we are all singing the same tunes constantly, it seems like, 
and we have sat on virtually every commission created to 
discuss this issue. So, in 5 or 6 minutes, it really gets tough 
to tell you all that we have now discussed for hundreds and 
hundreds of hours, but let me say to you that I am hopeful that 
with all of the conversation that has gone on, with everything 
that you have heard, with everything that you have seen, that 
you move cautiously and judiciously. This is a very complex 
process. It is a process in which all of the estimations of the 
imminent death of democracy are probably not right. It is a 
process in which all the estimates of how much fraud has gone 
on are probably not right, and all the allegations of denial of 
civil rights is probably not right.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lewis appears in the Appendix on 
page 286.
---------------------------------------------------------------------------
    The truth is that in 98.5 percent of our elections in 
America, things went very well. We have problems. There are 
systemic problems that did not start with the election of 2000, 
that have existed, that continue to exist, and part of those 
are going to continue until we have enough funds and enough 
training of enough people and enough elements of this process 
that we can fix those.
    Certainly, when it gets down to the way we administer 
democracy, we get a far better form of democracy than we 
deserve or than we pay for because, roughly, only one-quarter 
of our elections officials have at least as equally well funded 
an operation as any other part of government.
    Senator Lieberman, I think you said as high as 3 percent of 
the counties budget is spent on elections. I would be surprised 
in most cases in America if it amounted to one-half of 1 
percent of a county budget. That is how it has been ignored, 
and 75 percent of our jurisdictions run on thin air. We are 
talking about elections officials that we pay $16,000 or 
$17,000 a year to for a full-time job, and they still make it 
work despite the fact that their county commissions and their 
city and town councils do not appropriate the money to make it 
work.
    So, when we get to voting equipment, which everybody is 
focused on in this election and everyone seems to think that is 
a magic solution and a magic answer to this, and the truth is 
it has always been about policies and procedures--and people 
and laws--and the way you do those and the way you administer 
those.
    Certainly, we cannot allow a situation to exist in which 
any element of our society feels that it is denied equal access 
to participation. If you do not believe that the process is 
fair, you cannot believe in the government that results from 
it. We know that.
    We do not look at this as being one of those deals where we 
try to make sure that certain elements of society do not get to 
vote. That is not the case. It is simply not the case.
    We try to qualify all the voters. We try to include all the 
voters. But there are also misunderstandings about how the 
process works, and particularly in terms of inexperienced 
voters. If you go vote for the first time and you are told that 
you should go vote or somebody has encouraged you to go vote 
and you get up and you go try to actually do that, if you have 
not registered, in most States you are not going to get to 
vote. That is just the simple fact.
    So we have an education process to do with the voters, and 
particularly with inexperienced voters. All of the studies that 
we were talking about before in terms of whether it 
disproportionately affects African-Americans or what the 
reasons are for that, the truth is that if you are 
inexperienced, no matter what your color is, no matter what 
your background is, you are going to make mistakes in the 
process. We have not taken enough of that into consideration 
when we started planning and making the process work for those 
folks.
    We have all presumed as a society, as policy-makers, as 
administrators that people knew how to do this process. Well, 
it certainly has been proven that they do not always know how 
to do this process.
    Is there a role for the Federal Government in this? 
Absolutely. The notion that the Federal Government ought to 
stay completely out of it is not correct. Yet, at the same 
time, I am encouraging you folks to go slowly about intruding 
on it to the degree that we try to run it from the Federal 
level. It works best by being administered at the State and 
local level, and, certainly, we believe that the Federal 
voluntary voting system standards are absolutely critical to 
the improvement of American elections and the continued health 
of American elections and that is administered by the Office of 
Election Administration currently within the Federal Election 
Commission.
    We certainly believe that the operational standards that go 
with those, to show the best practices, need to be developed, 
but we have been saying that for 7 years and Congress has never 
put this into statutory authority and never given anybody 
responsibility to do it.
    We also believe that the Office of Election Administration 
ought to be researching on voting systems in which types of 
voting systems counties have and where voters make more errors 
on them in terms of that and tracking over-votes and under-
votes so that we know what a national norm is and then how to 
figure out ways to correct some of those problems.
    We believe that the Office of Election Administration's 
publications are absolutely critical to the continued well-
being of this process. They publish, what most of you all 
probably do not even know, a series called an Innovation 
Series. As running a national non-profit, I am envious of that 
series because it really can go to all of the jurisdictions in 
America, and it is very helpful in terms of the way to 
administer that. But that, again, is something Congress can do 
and make sure happens.
    Certainly, we need a new elections class of mail so that 
when we mail to voters, the biggest expense other than voting 
equipment and other than personnel is our mailing costs in 
elections. It certainly ought to be worth something to the 
Federal Government to establish an elections class of mail so 
that we can deliver first-class mail at about half the current 
first-class rates.
    Clearly, education and statewide databases are needed. We 
need to look at voter education, but let me say this. We are 
not going to build voter schools. This is not going to be the 
Field of Dreams. We are not going to build voter schools and 
have them come. They are not going to automatically show up.
    What we are going to have to do is show new voters how to 
vote in this process in probably 2 minutes or less inside the 
polling place and to make sure that they do not disqualify 
their ballots when they do so. We are going to have to use 
different things other than just printed information. We are 
probably going to have to do that visually and auditorially, 
and we are going to have to do a little studying to figure out 
how people learn how to do things in very short doses and very 
short time spans.
    Then, let me wrap up with we must have provisional ballots. 
I have done a survey at The Elections Center to find out how 
many of our States do not do this. I have 39 responses so far. 
Out of the 39 responses, 19 of the States do not offer 
provisional ballots. So we have a problem here that needs to be 
looked at, but when we solve that problem, we need to look at 
it with a couple of answers here.
    There are some States where the provisional ballot would be 
more cumbersome than what they do; that is, Election Day 
registration. The second set of States that are more cumbersome 
are going to be those that allow you to vote by a voter 
affidavit. You just swear that you are a resident and you, 
therefore, do not have to have it ever proven. So those States 
do not want to make that change to where they have to go to 
provisional ballots.
    Finally, let me say to you please have faith in the 
elections administrators of America. They want to do the right 
thing. They want to make this process work for everyone. These 
are our citizens. They live next to us. They are our neighbors. 
We want them in this process, and the assumption that we are 
somehow designing the system to keep them out of this process 
is a faulty assumption.
    These people want to make the right choices and want to do 
the right things, and a national coalition of those folks, 37 
of them representing all of the elections administrators in 
America, are going to offer to you and to the public in late 
June or early July a national plan of how to fix a lot of these 
problems, through the Election Center's National Task Force on 
Election Reform.
    Thank you.
    Chairman Thompson. Thank you very much. Mr. Lewis, all of 
that practice has served you well, I must say.
    Ms. McCormack.

 TESTIMONY OF CONNY B. McCORMACK,\1\ REGISTRAR-RECORDER/COUNTY 
            CLERK OF LOS ANGELES COUNTY, CALIFORNIA

    Ms. McCormack. Hon. Senators, I really appreciate the 
opportunity to come today and talk to you about the very 
important issue of electoral reform in this country which to me 
as a 20-year election administrator is certainly in my heart.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McCormack with attachments 
appears in the Appendix on page 290.
---------------------------------------------------------------------------
    I am the registrar of voters in Los Angeles County, 
California, which is the largest election jurisdiction in the 
United States. We have 4.1 million registered voters, and last 
November, we cast 2.7 million ballots, which was more ballots 
cast in our county alone and counted in our county alone than 
in 41 of the individual States in the United States.
    We even have 540,000 absentee ballots we had to 
individually deal with, and that was more ballots cast than in 
eight States.
    I began my career as the registrar of voters in Dallas, 
Texas, 20 years ago and moved on after a few years there to San 
Diego, and now I have been in Los Angeles for 5 years. So I 
have presided over literally thousands of elections and many 
recounts as well that I hope to have an opportunity to tell you 
a little bit about.
    In last year's election in Los Angeles County, we had to 
staff 4,963 precincts with 25,131 election poll workers. We had 
to process over a half-a-million absentee ballots, and we had 
to write software that would accommodate all of the ballots-
counting accurately, which includes merging absentee ballots in 
with Election Day ballots.
    For 33 years in Los Angeles County, we have been on the 
punchcard voting system. It is time to change. Last year, 
before the November election, I asked my board of supervisors 
for the funding to institute a pilot project for the electronic 
voting, the DRE system, and I am glad to say that they did give 
me a half-a-million dollars to begin a pilot program.
    We had a pilot program where, during the early voting 
period in the 2 weeks before the election, we set up nine 
locations around Los Angeles County. I have seven offices in 
the county because I am also the recorder of deeds and the 
county clerk, and we set up in our offices plus two city clerks 
so that anyone of our 4.1 million voters could go to any one of 
these locations in the 2 weeks before the election, including 
the Saturday and Sunday before the Election Day, and cast a 
ballot on the new electronic equipment.
    This was especially popular to people who had English as a 
second language. We have a very diverse community in Los 
Angeles, and by Federal Voting Rights Act requirements and 
local ordinance, we print our ballot in seven languages, but, 
with a punchcard with seven languages, it is very cumbersome 
for a person to go in with a translation and try to vote. But 
on the new touch-screen equipment, the very first thing they 
did when they touched the screen was choose the language. We 
had hundreds of voters come in and vote in Tagalog, Japanese, 
Chinese, Spanish, and in other languages, and they were 
literally in tears saying how easy it was to read their 
propositions in their native language.
    Propositions in California--it is a long ballot--are hard 
enough to understand in English. So this was a very popular 
feature.
    Also, this new equipment allowed us for the first time to 
have blind and visually impaired voters vote without 
assistance. I actually used the equipment and voted on it 
blindfolded. It was incredibly easy. You use an audio headset 
and a raised keypad, and we had hundreds of voters come in 
accompanied only by their Seeing Eye dogs and cast ballots 
privately and independently for the first time in their lives. 
It was a tremendous experience. We had a wonderful response 
from it, and we partnered with the Braille Institute and the 
Center for the Partially Sighted and they sent out for us 8,000 
brochures to all of their members encouraging people. At their 
own expense, they sent out this mailing since we have no money 
in elections. They brought in people to try the new system.
    It was a big success. We had 21,963 of our voters cast 
ballots on the new system, and 99 percent of the surveys that 
they filled out said that they loved it and it was a lot easier 
than the punchcard system.
    Later, I hope you will ask me some questions in following 
up to Mr. Knack and also the CalTech study as to what we saw 
with over-votes and under-votes in the same demography of our 
county compared with the punchcard system because, I think, it 
is more enlightening than what we are reading in some of the 
preliminary--and I urge this--studies from CalTech because now 
I am working with them so they can understand a little bit more 
about some of the variables that they are finding.
    As I mentioned, these features are very important that we 
have this in a diverse community, but with punchcard balloting, 
we simply are limited and cannot do this type of special 
feature voting.
    I would like to make some observations and recommendations. 
As I will echo some of what Doug said, the conduct of elections 
in this country involve candidates for Federal office as well 
as candidates for local office, and, yet, counties bear the 
sole responsibility for paying for all of these elections.
    When we have cities on our ballot, we have water districts 
on our ballot, they are all assessed a proportionate share of 
the cost. The election cost in Los Angeles County for the 
November election, for our county alone just to administer one 
election, was $20.4 million. The Federal Government took up 
space on that ballot, and they were the only entity that gave 
us zero pennies to conduct the election.
    We had water districts that do not have a nickel, and they 
had to pay us to conduct their part of the election. I do not 
think that is appropriate. I think that we should at least be 
able to assess a fair share to every governmental entity that 
shares the ballot in the election.
    My board of supervisors that I report to is fully 
supportive of completely converting our punchcard voting 
system, but in a county our size with 5,000 voting precincts, 
the cost to do that would be $100 million for the equipment 
alone.
    I have asked my board to have a $3-million infusion of 
funds this fiscal year to expand my early voting project, and I 
have to tell you, $3 million out of my county's budget of $15 
billion dollars and my own personal departmental budget of $72 
million sounds very small, but it is in total jeopardy of even 
getting $3 million because right now our county has a deficit 
in the health budget of $184 million. If I am sitting on my 
board of supervisors and I have a $184-million hole in the 
budget, it is hard to decide whether or not they can afford to 
give me $3 million. As of right now, they have not given it to 
me, which means I will not be able to continue the touch-screen 
project at all in 2002 because we cannot just go at the same 
level we had it the last time. We know we are going to have 
more people come out and want to use it.
    Similarly, our State is in complete financial turmoil and 
crisis right now. There is a bill in the State legislature that 
would appropriate up to $300 million to help with voting 
equipment, and without the electricity crisis costing an 
additional $54 million a day, I think we might have gotten it. 
It was the right year to ask for it. It was the wrong year. The 
lights are out, as you are probably reading about. I called 
home, and we do not have any electricity. So, again, it has 
been relegated.
    Unless we get some Federal funding to assist in this 
process, the voting reform and financing of new equipment is 
always going to remain illusive, the number 11 on every local 
government's top-10 list of priorities. It will just never 
surface, and we need to invest in the infrastructure of our 
democracy.
    One means to do that, as we have said, is a 50 percent 
reduction in postal rates. This would really save my budget 
when I mail out half-a-million first class absentee ballots. It 
costs hundreds and hundreds of thousands of dollars. In 
addition, in California, we mail every voter, every one of our 
4.1 million voters, a sample ballot, and those costs are very, 
very high.
    We need to have some sort of a subsidy of the postal. That 
would be, I think, something fairly easy for the Congress to 
do. Another possible source of funding could be a checkoff box 
on the IRS tax forms. We need to look at creative ways to find 
not just a one-time source of money to buy equipment, but 
sustainable funding because problems in elections start because 
we do not have any money and ratchet all the way down in not 
having enough money to pay for poll worker training.
    Our Federal Government spends over $30 million a year 
supporting democracy-building in foreign countries. We spend 
not a dime here. It is time we spent a little money in our own 
country to do some democracy-building.
    We had the Census last year, and the Federal Government put 
$100 million in an advertising campaign. It was a great 
campaign. It made people aware of the importance of the Census, 
and it had the effect, especially in Los Angeles County, of 
having a higher rate of Census completion than we have ever had 
before.
    Arturo Vargas here today and I know each other, and we all 
worked with the organizations. It was very successful, and I 
sat on the Census Committee. We need that type of investment in 
voter outreach in this country. If we can spent $100 million on 
the Census, why cannot we spend some Federal dollars on letting 
people know about the processes of election.
    We hear all about campaigning and the money that is spent 
there, but just so people can understand what the process is, 
how you actually vote, put some PSAs on the TV, show people how 
to punch the hole or touch the screen or color in the optical 
scan ballot. Why was that so revolutionary to spend a little 
bit of money advertising? We cannot do it in 2 minutes at the 
poll. We cannot do it.
    We ought to look at other foreign countries and be a little 
bit embarrassed. If you may remember, in Mexico they used to 
spend no money on their elections, and it was a problem. After 
their 1988 Presidential election, before the 1994 Presidential 
election--and I was able to go to observe that election--they 
infused a huge amount of their national dollars and required 
poll worker training for a week. You had to have a college 
degree to be a poll worker. This cost a fortune in their 
government, but it was paid for. I went down there and I saw 
polling place officials who knew what they were doing, had 
incredible supplies. Here we are and our standard for poll 
workers in the United States is if you prick them and they 
bleed, they are hired. I mean, that is truly the standard of 
getting a poll worker in our county, and 30 or 40 percent of 
them quit without telling us about it. We are left with people 
who do not know what they are doing at the polling places, and 
that ratchets all the problems that you have heard about and 
the anecdotal issues.
    We need to have testing of our poll workers. We need to pay 
them a decent wage, and we need to say this is important. If it 
is important, we should fund it. It is that simple.
    I see that I am over my time, and the rest of my testimony, 
I am sure you can ask me questions about, but I wanted to 
reiterate that one size does not fit all in elections. We 
really cannot say that an optical scan system or this type of 
system or another type of system will work in every 
jurisdiction. It simply does not. We need to have the 
authority, the ability to look at innovation, to realize that 
in Alpine County in California, with 700 registered voters, it 
does not need the same voting system that I need in Los Angeles 
County with 4 million registered voters and seven languages, 
which we anticipate may be 10 after the next Census.
    Thank you very much, and I look forward to your questions.
    Chairman Thompson. Thank you very much. Mr. Wright.

TESTIMONY OF SAMUEL F. WRIGHT,\1\ CO-CHAIR, UNIFORMED SERVICES 
 VOTING RIGHTS COMMITTEE, RESERVE OFFICERS ASSOCIATION OF THE 
                         UNITED STATES

    Mr. Wright. Thank you, Mr. Chairman and Senator Lieberman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wright appears in the Appendix on 
page 310.
---------------------------------------------------------------------------
    The controversy in November 2000 about the uncounted 
absentee ballots in Florida has put this issue that I have been 
trying to raise for 20 years on the national radar screen, but 
the problem did not start in the year 2000 and is not limited 
to Florida.
    There has been a lot of discussion among the prior 
witnesses about the cost of democracy. I respectfully suggest 
that the greatest cost of democracy is not represented in 
dollars, and the men and women that serve in our Armed Forces 
are the people that are called upon to pay that cost.
    As I mentioned, it is not a new problem. I found some 
hearings conducted in 1952, a year after I was born, by the 
Subcommittee on Elections of the House Administration Committee 
about disenfranchisement of military personnel in the Korean 
War. So it is the same problem now that it was then.
    There has been some progress in recent years. Arkansas 
passed a great legislation just a few weeks ago on our issue. 
Senator Thompson mentioned the Florida bill passed just a few 
days ago. It includes several provisions that we were pushing 
for. So at least we have put the military voting issue on the 
agenda when all of these other broader problems are discussed.
    I know the voters we are talking about numerically, I am 
sure, are very small percentages compared to the other issues 
that have been discussed, but I respectfully suggest because of 
their sacrifices for our country that they are entitled to 
special consideration from the Federal Government as well as 
the States.
    As you can appreciate, there are three time-consuming steps 
in absentee voting, especially if you are outside the United 
States. The request for an absentee ballot must go from the 
voter to the election official, and then the unmarked ballot 
must go from the election official to the voter. Finally, the 
marked ballot has to go from the voter back to the election 
official. Each of these steps can take weeks, and it is subject 
to being lost if you have to depend on the Postal Service.
    I have had this problem myself. I am a Captain in the Naval 
Reserve. I am not on active duty now, but I have done a lot of 
on and off active duty, most recently, from October 1999 to 
March 2000 in Tampa and Bahrain, but mostly in Tampa. I sent in 
a Federal postcard application form to vote in Virginia's 
Presidential primary on February 29, 2000. I mailed it from 
Tampa, Florida, from the post office at MacDill Air Force Base. 
It was postmarked 1 February. It was 11 days later that it came 
back marked ``returned to sender, attempted, not known.'' I 
sent it to the Registrar of Voters of Arlington County, 
Virginia, using the address contained in the Voting Assistance 
Guide.
    It turned out, it never left Tampa. Somehow my return 
address was confused for the address where I wanted it to be 
sent. That happens 1 or 2 percent of the time with all mail, 
but why did it take 11 days and why did it get this little note 
showing, attempted, not known? The Postal Service could not 
answer that question. As long as we are depending on snail 
mail, we are going to have these problems.
    I favor as a long-range solution a properly designed system 
of electronic voting through designated computers at U.S. 
military bases at home and abroad and also at U.S. embassies 
and consulates.
    We talk about the military, but there are also 2.5 million 
voting-age American civilians outside of the United States, and 
they are eligible to vote by absentee ballot at least for 
Federal offices and that has been true under Federal law since 
1975.
    We need Federal legislation. As I mentioned, there were 
hearings in 1952. In those hearings, it contains a letter to 
Congress from President Truman who called upon the States to 
solve this problem. He also called on Congress to enact 
temporary legislation for the 1952 Presidential election. He 
wrote any such legislation by Congress should be temporary 
since it should be possible to make all the necessary changes 
in State laws before the congressional elections of 1954. Well, 
it has not happened that way. Here we are, almost half a 
century later. The States have had their chance. They have not 
solved this problem.
    The Congress has the power to raise and support Armies, to 
provide and maintain a Navy. Other legislation, the Veterans 
Reemployment Rights law, now known as the Uniformed Services 
Reemployment Rights Act, has been applicable to the States as 
employers since 1973. The States objected to that, and the 
constitutionality was upheld. So I think under the War Powers 
clauses of Article I that Congress does have the authority and 
responsibility to solve this problem at least for members of 
the Uniformed Services.
    In 1940, when Congress first enacted a reemployment rights 
statute as part of the first peacetime conscription statute, 
Representative R. Ewing Thomason of Texas forcefully asserted 
that this is Uncle Sam's law, this is Uncle Sam who is drafting 
these men, and he ought to be fair enough to see that the law 
is enforced. What is true of the statutory right to 
reemployment in one's pre-service civilian job, I respectfully 
suggest should be even more true of the constitutional right to 
vote.
    I would invite the Committee's attention to the first 
paragraph of President Truman's 1952 letter to Congress. 
``About 2,500,000 men and women in the Armed Forces are of 
voting age at the present time,'' that being 1952. ``Many of 
those in uniform are serving overseas or in parts of the 
country distant from their homes. They are unable to return to 
their States either to register or to vote. Yet, these men and 
women who are serving their country and in many cases risking 
their lives deserve, above all others, to exercise the right to 
vote in this election year. At a time when these young people 
are defending our country and its free institutions, the least 
we at home can do is to make sure that they are able to enjoy 
the rights they are being asked to fight to preserve.'' I 
suggest those words are at least as true today as they were in 
1952, and they are addressed in the 107th Congress.
    In my written statement, I have attached what I think are 
some of the specific provisions that should be included in 
Federal law. They are included in the proposed Military 
Overseas Voter Empowerment Act, H.R. 1377, and Senator Allard 
has introduced very similar legislation in the Senate, 
guaranteeing that a member of the Armed Forces does not lose a 
right to vote because of absence from a place pursuant to 
military orders, even if he or she has changed their mind about 
where to live after leaving the military. That provision has 
passed the Senate, each of the last 4 years, as part of the 
Senate version of the NDAA, the National Defense Authorization 
Act. It has not yet gotten through the House because of States' 
rights objections, but I hope it will pass both houses this 
year and be signed into law by the President.
    The proposed Federal legislation would also provide for 
late voter registration for people recently separated from the 
military. As long as you are on active duty, you do not have to 
be registered in the traditional sense. You use the Federal 
postcard application, but when you leave active duty, then you 
must register in the traditional sense. You may be returning to 
a community from which you have been away for several years or 
you may be moving to a new community after you leave active 
duty, but in either case, you must register to vote. If you do 
not leave active duty until shortly before or even after the 
voter registration deadline, you are going to be 
disenfranchised.
    More than 20,000 service members leave active duty every 
month, including that last month before Election Day, and I 
think maybe the most important provision in the proposed 
Federal legislation this year is electronic voting, at least as 
a demonstration project for the 2002 congressional elections, 
and we hope that it will work well. I think the technology 
exists to provide for a private and secure electronic vote for 
people in the Armed Forces, their voting-age family members, 
and any U.S. citizen outside the United States.
    Thank you.
    Chairman Thompson. Thank you very much. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks to this 
panel for very interesting, very helpful testimony.
    I thought, Madam Secretary, that you made a very 
interesting point which is that maybe the machines that we are 
using now were designed more for speed of calculation or ease 
of calculation than ease of voting. I wonder if that message is 
getting over now to those who design and make machines. Do you 
think that is different for the latest forms, the optical 
scanners and the DREs?
    Ms. Priest. I think it is somewhat different, but, for 
example, we used DREs as a test in early voting in our largest 
county, Pulaski County, and there were a great deal of problems 
with them. Senior voters were a little bit intimidated by 
approaching a computer, and they had not seen it before. I know 
that Doug Lewis thinks that this is not a Field of Dreams, but 
I think we have to do more than just dealing with showing them 
something on Election Day.
    I think election officials must go out to drug stores, Wal-
Mart, public health clinics, civic clubs, and show people how 
equipment works. You just do not bring something in and throw 
it out there and expect people to automatically know. So I 
think it is changing.
    Senator Lieberman. Yes.
    Ms. Priest. But this real sense that we have to have 
instantaneous information----
    Senator Lieberman. Yes.
    Ms. Priest [continuing]. Is really a difficult issue to 
overcome.
    Senator Lieberman. Yes. That is a very interesting 
perspective, and I agree because it puts the emphasis in the 
wrong place. The right place, obviously, is to have a system 
that counts people's votes and makes it easier for them to 
vote.
    I thought all of you were helpful in your specific 
suggestions. I think you said that the Secretaries are getting 
together a little bit later this year and will make a set of 
recommendations. I look forward to those.
    Let me ask you about some of the ideas that are on. One 
idea that came out of the Florida situation and it seems to 
have fallen off--I am curious about your thinking--is that we 
ought to have at least a uniform voting system per State so 
that everybody in a given State votes the same way, whatever, 
levers, paper ballots, punchcards. What do you think?
    Ms. Priest. Personally, Senator, I think that we ought to 
have a statewide uniform system, even though in Bush versus 
Gore, the equal protection issue came out sort as a one trip, 1 
day, one train. In actual fact, I think it is an argument that 
will be used by State legislators, for example, who cross 
county lines. So I do think that it would be very helpful for 
States to have a uniform ballot.
    Senator Lieberman. Ms. McCormack, as you said, more people 
voted in Los Angeles County than in 41 other States. That is 
quite remarkable. Everybody in the county has the punchcard, I 
take it. Every voter in Los Angeles County votes with a 
punchcard.
    Ms. McCormack. For the first time in November 2000, they 
did have the option. Any one of the voters could have gone and 
used the touch-screen, but only during the early voting. It 
started 2 weeks in advance up until the weekend before.
    Senator Lieberman. Yes. You did mention that. Was it widely 
used?
    Ms. McCormack. It was the first time and only at nine 
locations, and it was not heavily advertised. We tried to get 
advertising, but Riverside County, our neighboring county, had 
put in all touch-screen and they got all the publicity. I was 
calling up all of the editors at the L.A. Times saying, ``You 
know, I think this paper is published in Los Angeles, and you 
are writing an awful lot of stories about Riverside.'' They 
then ran one story after that.
    We had 21,963 people do it, and the experience in Las Vegas 
and in Dallas, Texas, that have tried the electronic voting 4 
years ago and then the next cycle after that, it is exponential 
growth. Las Vegas is actually voting a third of their voters 
early now on the touch-screen. I think that in 2002, if I get 
my $3 million, which is in jeopardy at the moment, we wanted to 
have 50 sites available at shopping centers, and that we would 
have hundreds of thousands of people try it.
    Senator Lieberman. Yes. That is great.
    Ms. McCormack. So we are phasing it in, but to go to all of 
our whole 5,000 precincts is $100 million which, of course, we 
do not have.
    A statewide voting system, it sounds like a good idea. I 
think some States are more homogeneous than others. Certainly, 
our State is not homogeneous, and as I mentioned, some of our 
counties are very small and others are very large. So I am not 
sure that is necessarily a solution.
    Senator Lieberman. Why have you decided to leave the 
punchcards? Maybe it is self-evident. If you could just give a 
brief answer.
    Ms. McCormack. Well, it really is not self-evident. I have 
a report, and it is attached to my testimony that explains why 
optical scan systems just do not work in a county of our size. 
They are very good for 95 percent of the country for under a 
half-a-million voters in a jurisdiction that does not have a 
lot of languages on the ballot. It is very cumbersome and very 
expensive to get a optical scan.
    Senator Lieberman. That was a very important point you made 
that the touch-screen of the DRE really allows you to 
communicate with voters in different languages very easily.
    Ms. McCormack. Yes, very easily.
    Senator Lieberman. It is easy for them, too.
    Ms. McCormack. It was very easy because you could walk into 
any one of these nine locations. You qualified on the voter 
file to make sure that you are one of the voters. Then you are 
issued a card that is programmed to pull up your ballot style. 
We had 263 different combinations. We have 17 congressional 
districts. We have lots of assembly and water districts, with 
263 different combinations, in seven languages, and it had to 
be tallied down to the precinct level. So multiply 5,000 times 
263 times 7. Each one of those machines had 9 million 
combinations in it. So, as soon as you put it in there, it 
could call up 1 of 9 million. There is just no other system out 
there, and until these were certified--and this is new 
equipment----
    Senator Lieberman. It is impressive.
    Ms. McCormack. It was very impressive and very easy. I had 
an 85-year-old voter who said she had never used an ATM in her 
life, and she did not want any instructions. She wanted to see 
if she could do it, and she loved it. She had no problem with 
it.
    Senator Lieberman. But you definitely decided that it is 
time to leave the punchcards, that they do not give you the 
kind of range and accuracy that you want.
    Ms. McCormack. They do not give us the range and the 
accuracy, and the study that CalTech--and I am working now with 
them because their preliminary study really needs to be 
adjusted and I think it will be before they come out with a 
final because they really are not looking--they were looking at 
a lot of different types of touch-screens from back in the 
1980's and early 1990's that really were not very user-friendly 
and easily could have under-voted on them.
    I, frankly, tried to use one of them, and I could not even 
figure out how to use it.
    The ones that are out there now are incredibly user-
friendly. You cannot over-vote on it, so that eliminates that.
    The number of under-votes we had in our touch-screen was a 
half-a-percent compared to 2.2 percent on punchcards that 
people are familiar with, but if you just think about putting a 
ballot, punchcard ballot into a piece of equipment and trying 
to find this, you have some stylus breakage. You have some 
people who do not understand. You have hanging chad issues. You 
have people who skip a race inadvertently.
    I have to believe that if 2.2 percent of the people in L.A. 
County skipped the Presidential race, as I think Mr. Knack 
said, there is a natural under-vote of maybe about .7 of a 
percent, which we saw .5 of a percent in the touch-screen. That 
means if you subtract those out, the other people probably did 
want to vote in the Presidential race, and between the over-
votes of people who on punchcards, the half-a-percent who voted 
for two, which I am sure was inadvertent somehow, thought they 
were punching something else after they made an error and did 
not get another card, that is 29,000 people in our county alone 
that if we were on touch-screen would have had their votes 
counted for President.
    Senator Lieberman. That is significant.
    Ms. McCormack. I think it is a lot.
    Senator Lieberman. I gather that from groups or advocates 
for disabled Americans that the DREs are also, generally 
speaking, helpful to them, too, in helping them vote.
    Mr. Lewis. Yes.
    Senator Lieberman. Madam Secretary, obviously, we all got 
educated about the so-called butterfly ballots, and it raises 
this question that I never had thought of before because we use 
the levers in Connecticut, which in themselves force you to 
stand there for a minute and kind of get oriented, but what is 
typically done and then what should be done by election 
officials to try to provide a ballot that is clear for the 
voters, that is as clear and unconfusing as possible? Are 
ballots tested in any way? What should we do?
    Ms. Priest. Generally speaking, I do not think ballots are 
tested. I think one of the things that used to be done more 
frequency than is done now is sample ballots. For example, when 
I first got into politics, that was something that we did. We 
did a drop on the weekend before the election of a sample 
ballot. Newspapers do not seem to be printing sample ballots as 
they used to, and candidates do not seem to be using them as a 
tool anymore.
    So, with the different configurations, it is very difficult 
to put out one ballot that everybody is going to be able to 
identify with. So I think local newspapers can help. I think 
counties can help if they put out sample ballots for their 
constituents.
    I know it is expensive, but, as I said, democracy, it is 
either worth it or it is not. I think it is.
    Senator Lieberman. Amen. I agree.
    Mr. Wright, I appreciate your testimony and this long quest 
you have been on. I think your idea of electronic voting by 
overseas voters is an excellent idea.
    I gather that there was a pilot project, very small, that 
the Department of Defense carried out in last year's election, 
maybe less than a hundred voters.
    Mr. Wright. Yes, sir.
    Senator Lieberman. What do you know about how it worked?
    Mr. Wright. Well, at least for the 88 voters that 
participated, every single one of their ballots was counted.
    Senator Lieberman. Well, that is a good percentage.
    Mr. Wright. I think the system maybe was a little too 
complicated. It had this long procedure that you had to sign up 
in advance of the election. I would like to see an electronic 
voting system that you could do it in one sitting. You could 
sit down and communicate with your election official back in 
your homestate and then complete an electronic equivalent of 
the Federal postcard application form. If there is a mistake, 
they tell you what the mistake is right there in real time, 
instead of weeks later in the mail. Then, once you got it 
correct, you have the ballot there on the screen. You mark your 
votes, and it could have a system built in to prevent over-
votes or under-votes or at least to direct the voter's 
attention, ``Hey, you forgot to vote for particular offices. Is 
that really what you intended?'' Then you push send and you do 
the electronic equivalent of the affidavit on the back of the 
ballot return envelope. If there is a mistake, they tell you 
right then and you can correct it. Whereas, when you depend on 
the mail, people are going to be disenfranchised by even a 
small error.
    Senator Lieberman. Good for you. Well, keep pushing, and 
maybe we can help you. What you are asking ought not to be too 
difficult or complicated when you think about how many single-
seeded transactions involving great sums of money are carried 
out every day, millions of times around the world.
    Mr. Wright. The military uses a system like this to 
transmit top-secret communications.
    Senator Lieberman. Yes, exactly.
    Mr. Wright. So, with encryption, there can be safeguards to 
ensure that the system is private and secure.
    Senator Lieberman. Thanks. My time is up. I know we may 
have a vote soon. So I want to yield back to the Chairman.
    I thank all of you. Just a final request. Please do send us 
your specific ideas about what an ideal piece of Federal 
legislation, judicious as Mr. Lewis counseled us to make it, 
would contain.
    Thank you.
    Chairman Thompson. Thank you.
    I want to follow up on that, but, first, I cannot help but 
note we are going to have a hearing here next week on the 
Postal Service. While cut rates for voters would be a good 
idea, the only people in worse financial shape than some of 
these localities is the Postal Service. They are losing money 
and raising rates themselves. We are kind of stymied every 
direction we turn in, it seems like.
    It seems to me that the situation is this basically. We 
have elections in this country. We are on the ballot. You have 
Federal elections, State elections, local elections initiatives 
and so forth. Everybody pays something except the Federal 
Government for those elections, and we hand that off to the 
States to run it.
    Now we have these problems, and localities and States are 
saying, in some cases, we need more help, and the Federal 
Government's response is probably going to be, ``Well, OK, but 
we want to tell you how to use the money,'' and you run right 
into federalism issues and so forth.
    One of the things that we do--seem to be able to do up here 
better than anybody else--is research and development. I was 
specially interested, Mr. Lewis, in your idea of perhaps 
developing a national norm. It seems like most of the 
legislation that has been proposed as to setting up a 
commission to look at all the things that we should consider, 
in other words, the same things that we are doing with all 
these hearings, to see maybe if we are going to try to impose 
or suggest or induce towards certain rules or standards that we 
know what we ought to be pushing toward. Even those who get 
over the federalism hurdle are concerned that what makes us 
think that we know what the solution is.
    In looking at this, I would like a short answer, if I may, 
if you will, from each of you. Do we all agree that the Federal 
Government ought to participate more, at a minimum, some kind 
of matching funding, block grant-type thing for voter reform? 
That would be the minimum, I guess, moving toward the 
possibilities of money to be used for specific purposes. To 
what extent should we go down that road, and if we get to the 
point of trying to induce toward specific things, what is the 
most important thing?
    We mentioned a lot of things. Most of them sound like 
strictly State and local responsibilities and obligations, some 
of them, maybe not as much, but if we are going to pass a bill 
and we are going to past something of just setting up another 
commission and we are going to buy into the idea that we really 
do pretty much know and can at least agree on certain things 
that all States ought to be moving toward, what are those 
things? Do you have a top one, or if you need to, maybe one or 
two?
    First of all, what about the federalism issue? Should the 
Federal Government even be involved in this, past maybe a 
little funding?
    Ms. Priest. Senator Thompson, I think the Federal 
Government ought to be involved in it because you have a great 
stake in this, as we do at the local and State level.
    I think continuing to fund the Office of Election 
Administration, making sure--as you said, the Federal 
Government is very good at R&D. OEA can do a lot to help State 
and local in terms of voluntary practices, management 
practices, updating the Federal voting system standards which 
have not been done since 1990.
    I do not think at any time we should say we have solved 
this problem, we have thrown half-a-billion dollars at it, we 
have solved this problem, and think that we can go away and 
forget about it. Elections are an ongoing thing, and we have 
got to continually work to tweak the system to make sure as 
times change that the elections systems change with it. But I 
think the Federal Government has a very important role to play 
through OEA in terms of voluntary practices.
    Chairman Thompson. So your idea would be there is a lot of 
things we can do from an educational standpoint to show the 
Nation the kinds of things that work that they might consider 
doing.
    I might say parenthetically that Maryland and Florida 
apparently have shown what States can do when people get 
together within the State on a bipartisan basis and sit down 
and figure it out and make a commitment to do it. So, again, 
how much do we need to do?
    Mr. Lewis, I will ask you the same question.
    Mr. Lewis. You know, there is always this argument, 
Senator. You all have served in government long enough to know 
that the locales hate the States and the States hate the 
Federal Government, and none of us want anybody to ever control 
our actions or to interfere with our administration of whatever 
our fiefdom is. Yet, at the same time, we come to you with our 
hands out and say give us all the money we can stand and put 
into our process, but please do not tell us anything at all to 
do with what we do. That is the standard age-old argument and 
process.
    The problem is that in 225 years of running elections, the 
Federal Government has not put in one dime, and the problem is 
in about one-quarter of our States, they have contributed to 
it, but in three-quarters, they have not. So what we have is 
that we have run Federal elections and we have run State 
elections out of local coffers. Yet, somewhere in here, there 
has got to be an equity factor that says that you all ought to 
be paying your fair share somewhere in this process. Yet, at 
the same time, if accepting Federal dollars begins to mean that 
you have to now change dramatically the way you administer the 
process and that you now have to spend more of your time 
complying with verifications that you did certain things and 
that half of the dollars go away in terms of administrative 
accuracy checking and information checking, then it gets to be 
almost more of a burden than it is worth.
    Chairman Thompson. Then you would have some States 
accepting the Federal standard and some States not----
    Mr. Lewis. Exactly.
    Chairman Thompson [continuing]. And a new disparity would 
be created.
    Ms. Priest. Yes.
    The process is important enough for each level of 
government to have its responsibility of funding the operations 
of this, and Lord knows--listen, at the local level, bless 
those people's hearts. They have tried to fund it, but, in many 
cases, our local governments do not have enough funds for all 
the competing goods that go on. We, in the elections community, 
are always the last part of that because they look at this as 
not understanding what it is that those staffs do and they do 
not understand where the money goes.
    Chairman Thompson. Keeping in mind what you said about if 
you make the requirements too onerous, people are not going to 
respond to that, if you had it within your power and you get 
over that hurdle and the federalism issue to several million 
dollars and perhaps billions of dollars to spend this on the 
Federal level, would you spend it, and what would be your 
priorities? If we are not paying for anything, should we just 
send a check, or should we send it with some strings, and if 
so, what is the most important string to you?
    Mr. Lewis. We want you to be like parents. We want you to 
send all that you have, and we will find a way to spend it. 
Then we will tell you how we spent it, which may not match up 
to exactly how we spent it.
    The truth is that, certainly, when we are talking about 
voting systems in America, voting systems are horrendously 
expensive for locals to do on their own. I mean, $100 million. 
I will bet you by the time that Conny McCormack is done, it 
will be a whole lot more than $100 million by the time she is 
done actually getting a new system in and getting it 
implemented. The $100 million is only the beginning because 
then you have all of the maintenance costs that go with it.
    Chairman Thompson. Should we suggest what kind of system 
should be used?
    Mr. Lewis. No. I do not think so.
    Chairman Thompson. What if they want a more sophisticated 
punchcard system? Should we be sending Federal money for that?
    Mr. Lewis. I think, obviously, we have not done enough 
research over a long period of time to find out which systems 
truly favor voters.
    Chairman Thompson. That is what these bills address.
    Mr. Lewis. I understand.
    Chairman Thompson. So maybe we are on the right track.
    Mr. Lewis. But in terms of having one system nationwide, 
no, I do not think that is the answer.
    Chairman Thompson. Ms. McCormack.
    Ms. McCormack. Well, first of all, I would like to say that 
there are a lot of Federal laws on the books that require a lot 
of expenditures for those counties that are complying with 
them.
    For example, the Voting Rights Act and the language 
requirements in our county and the oral assistance of the 
polls, the recruitment program we have, the translation 
program, of the $20 million I spent on my election last 
November, more than $2 million was on compliance with the 
language requirements alone of the Voting Rights Act.
    Chairman Thompson. Unfunded mandates.
    Ms. McCormack. Completely unfunded. Every single election, 
my board of supervisors has to come up with that $2 million.
    ADA compliance. A lot of counties just say I am not going 
to comply, we do the best we can, we have no money.
    Voting rights, NVRA with the Motor Voter and all the issues 
and costs that has incurred in putting together inactive voter 
lists that we have to keep for 5 years--I would be very happy 
to see some money coming against the laws we have already put 
in place. Forget new funding. It would be nice to see some 
funding for all the laws that we already have.
    In terms of what you are saying, how can you assure that 
you would get some consistency, I think the American public has 
the right. This is my personal opinion, whether it is in the 
task force report which I sit on or not. The American public 
has a right to expect some consistency in the election process, 
and they are not getting it.
    I think that the Federal Government certainly has a role to 
say maybe they would encourage through incentives of who gets 
the grants. Maybe you would have a better shot at the grants if 
you have provisional balloting in your State and a recount 
process. It astounds me that there are States that a voter or 
candidate cannot get a recount if they want it. It is at the 
discretion of some canvassing board or something.
    In our State of California, anybody can get a recount, and 
believe me, we have them every election. There is some recount 
that goes on. They have to pay for it. The person asking for it 
has to pay for it, unless it is overturned, and we have had one 
that was a tie vote that was overturned.
    I would like to see some funding coming against the 
mandates we have now. I do not personally have a problem with 
Federal funding having an audit requirement and having some 
accountability. I think that it is naive for us in these 
positions to think that people are going to hand us money 
without some accountability. I have no problem with that, 
personally. We have to account for everything else we do. Why 
not Federal funding?
    Chairman Thompson. It is kind of interesting, isn't it, 
that we place strict limitations on how much money a Federal 
candidate can raise and what increments he can raise it in, 
and, yet, on Election Day, when the votes are going to be 
counted for that office, he is totally subject to a State or 
local process there with no Federal involvement at all?
    Mr. Wright.
    Ms. McCormack. It could be a lot better process if we had a 
little bit more money.
    Mr. Wright. Yes, sir. I am a member of the Federalist 
Society, and I believe in States' rights, but I also think that 
the Founders clearly contemplated that national defense would 
be at the core responsibility of the----
    Chairman Thompson. We can rule him out for a judgeship, I 
guess.
    Senator Lieberman. I was just going to say, I have some 
friends who would like to talk to you that are interested in 
going on the Federal bench.
    Mr. Wright. I am not a candidate for the Federal bench.
    The Founders contemplated that national defense would be at 
the core of the testimony of the responsibility of the Federal 
Government.
    Senator Lieberman. That is right.
    Mr. Wright. I think there is a role for Congress in this 
area.
    I mentioned the 1952 hearings and the half-century of 
inaction in the States, but, maybe more fundamentally, I think 
if we are going to have electronic voting, which I think is the 
answer, it is probably going to have to be by Federal 
legislation because the Department of Defense could implement 
one system. It cannot implement 50 systems or 55 systems. So, 
even if tomorrow morning, all 50 States said you are right, 
this is terrible that service members are being disenfranchised 
and you are right that electronic voting is the answer, but 
Connecticut comes up with one system and Tennessee with another 
and Michigan still another, then how is the Department of 
Defense going to administer a system like that?
    Chairman Thompson. Thank you very much. I am over my time.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.

             OPENING STATEMENT OF SENATOR LEVIN \1\

    I wish I had been here for all the panels, but let me just 
ask this panel the question. Is there an emerging consensus as 
to what the ``best system'' would be if we were starting from 
scratch right now? Would 75 percent of election officials 
across the country say this is the way to go?
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Levin for May 9 appears in 
the Appendix on page 116.
---------------------------------------------------------------------------
    Ms. Priest. Senator, I would like to tell you the answer to 
that was yes, but I am afraid that the jury is still out. There 
is a lot of research that has to be done on equipment to 
determine what is the best, and even then, what is the best for 
Arkansas may not be the best for California.
    Senator Levin. So 75 percent of the election officials, in 
your judgment, across the country would not say right now, 
putting aside cost, starting from scratch, this is the best 
system in your judgment. Mr. Lewis.
    Mr. Lewis. No.
    Senator Levin. Do you agree with that?
    Mr. Lewis. In fact, the problem is that it is so complex. 
From the one standpoint, I think most of us admit that the DRE 
systems are very good when it comes to disability and language 
minority and certainly are very fast and useful. Yet, you 
cannot count absentee ballots on DRE systems.
    You have to get over that fundamental policy fear that you 
do not have a paper ballot to go back to, which a whole lot of 
policy-makers within given States cannot wean themselves from 
the paper involved in the process. I think none of us are going 
to be up here defending punchcards, but, certainly, in terms of 
optical scan versus touch-screen technology being the two 
principal systems--the one thing we do know is that precinct-
based systems are far better than central-count systems in 
terms of making sure the voters do not make as many errors.
    Senator Levin. OK. Ms. McCormack, would you agree?
    Ms. McCormack. Well, as I said in my testimony, one size 
does not fit all, and where the optical scan system may be very 
good for 95 percent of the country, if someone forced me to do 
it, I would quit because I would not preside over an election 
in Los Angeles County on an op-scan system because, with seven 
languages and the size of that ballot, the cost of that ballot, 
we could buy the DREs in a few elections.
    San Francisco converted from punchcard. They used that up 
to 1996. Well, they used it up to 1999, converted in 2000. They 
have many languages, and they did not realize----
    Senator Lieberman. To the optical scanner?
    Ms. McCormack. To the optical scan. Now after one election, 
they are thinking of literally checking the entire investment, 
which was millions of dollars, and going to a DRE because they 
spent for their county--and I am 10 times bigger--$700,000 on 
ballot card costs per one election.
    We were using punchcards. Most of us that use punchcard are 
big counties, and we use them for one reason. I have to order 
about 4 million by the time I get all of my absentees for a 
half-a-million dollars. I do not want to spent $7 million on 
ballot cards. I would need another building to store them in. 
That is what happened in San Francisco, and they did not think 
about all of the logistics, and they were caught up in a system 
that did not work for them.
    It works for most counties. It is in my accompanying 
documentation as to why one size does not fit all, but I do not 
think that is necessarily the major issue for the Federal 
Government is to worry about which system. I think innovation 
is important, and I think that we are seeing a lot of 
innovation in this field in the last few years with the DREs. I 
think it would stifle that innovation if there was some sort of 
a requirement to have a uniform system.
    Senator Levin. Mr. Wright, let me ask you about some 
military voting issues.
    Mr. Wright. Yes, sir.
    Senator Levin. On the Armed Services Committee, we have 
real concerns about the military folks who are not really given 
an opportunity to vote or whose votes are not counted because 
of confusion and mixup, or there is no postmark, and all the 
other problems that we ran into. So we are trying to figure out 
how to improve that system. As a matter of fact, we have a 
request to the GAO to carry out a comprehensive review of the 
implementation of the current law, the Uniformed and Overseas 
Citizens Absentee Voting Act of 1986, and Senators Warner, 
Cleland, Hutchinson, and I think others have joined in that 
request to the GAO.
    But in the meantime, you have apparently carried out this 
test or the test has been carried out----
    Mr. Wright. I did not carry it out.
    Senator Levin [continuing]. Which you are familiar with, 
which I think Senator Lieberman was asking you about. Was that 
test carried out in many jurisdictions? You said there were 88? 
How many voters?
    Mr. Wright. There were only 88 voters.
    Senator Levin. Do you know how many jurisdictions?
    Mr. Wright. I think it was one whole State.
    Mr. Lewis. There were four States.
    Mr. Wright. There were four States, but one State they did 
for the whole State.
    Mr. Lewis. South Carolina.
    Mr. Wright. Not all absentee voters.
    Mr. Lewis. South Carolina.
    Mr. Wright. It was South Carolina, and then there were 
certain counties in Florida and Utah and--I forget which.
    Mr. Lewis. Texas.
    Mr. Wright. In Texas, right. Those were the four States.
    They started out with saying it was going to be 500 voters 
in five States. Somewhere along the line, Missouri dropped out. 
I am not sure why. It ended up being 88 voters, but at least 
for those 88, those people cast votes that were, in fact, 
counted. Whereas, the people that voted by mail, a substantial 
percentage were not counted for various reasons.
    Senator Levin. All right. When you have different voting 
systems not only in different States, but you have dozens of 
voting systems within the States themselves, how does that 
electronic system that you are talking about--that national 
electronic voting system--interface with that huge variety of 
voting systems?
    Mr. Wright. I do not think there is really a conflict there 
because the voting systems these other people have talked about 
primarily are for people voting on Election Day or people 
voting in what they call early voting, where they are still 
there in person to cast the vote, albeit maybe a few weeks 
before the election.
    When I voted by absentee ballot more recently in February 
2000 in Arlington County, even though we vote with an 
electronic system and on Election Day in Arlington County, they 
sent me a punchcard and a half a paper clip.
    Senator Levin. Mr. Lewis, in terms of the interface----
    Mr. Lewis. The interface, as I understand it--now, I did 
not see the actual test, but as I understand it, they relied on 
their own ballot design and then transmitted. They basically 
got the ballot from the local jurisdiction and then 
reprogrammed it to fit into the system so that they could then 
transmit the information back to be counted in that system.
    Senator Levin. So they would have to design their own 
system to meet every single local jurisdiction in every State?
    Mr. Lewis. As more of us move to electronic systems, they 
will be able to talk with each other and be able to do this. 
The electronic portion of this means that ballot design and 
being able to retrieve that from anywhere in the country is 
easier.
    Senator Levin. Is there any way that the current overseas 
ballots system can be improved without going to the electronic 
system? Can any of you comment on that?
    Ms. McCormack. I would like to comment on that.
    First of all, I would like to mention I don't know about 
this experiment except what I have read and what Doug Lewis has 
read, but the difficulty is if it is just going to be a Federal 
ballot, that would not be so difficult, but we had 263 ballot 
styles just in L.A. alone. I know when we did Desert Storm, 10 
years ago or whatever, we had to get all of those ballot styles 
in a Federal system. That was very interesting. Somehow we 
managed to do it.
    Right now, when people are overseas, and we have thousands 
of people overseas from Los Angeles who vote from overseas and 
we got many applications this year on E-mail, we accept an E-
mail application. So we had thousands of people who at least 
cut off some of the front end on the process. Right now, the 
Federal law needs to be changed, I think, because it requires 
30 days in advance for the person to have applied for a Federal 
write-in ballot, and if they wait until 10 days or 20 days out, 
it is too late. You had to have already had an application in 
the process.
    It would seem logical----
    Senator Levin. Received more than 30 days?
    Ms. McCormack. Yes, previous to the----
    Senator Levin. Or postmarked more than 30 days?
    Ms. McCormack. Received.
    So it does not really seem to make a lot of sense when our 
own State, in 7 days you can apply for an absentee, and why 
would you want to penalize these people who are the least. So 
that seems like it would be a simple law change that you could 
make, just to take away that 30 days. You do not have to have 
applied in advance. You can apply for the Federal write-in up 
to the last minute as long as we can get the ballot to you 
somehow, and we fax people ballots in California. We cannot 
take voted ballots by fax, but we faxed a lot of ballots 
overseas. We even now are E-mailing ballots to people overseas. 
So their whole ballot, we pick which one is their 263 and E-
mail it over there.
    So the technology is changing. We ought to start using the 
capability of the technology we have that we did not have 
before. As part of this process, I do think it is possible.
    Senator Levin. Did you keep the postmark requirement?
    Ms. McCormack. We do not have a postmark requirement in 
California. You have to have the ballot in by Election Day. 
Most of the States, you have to have it in by Election Day 
because we do not have the front-end problem like they do in 
Florida because our primary is in March. So there is plenty of 
time for people to know who is going to be on the ballot.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Chairman Thompson. Senator, along those lines, I think some 
of this might have been from Mr. Wright, but I think some of it 
was from the staff research of the various problems that arise 
with the current system, that there are considerable variations 
among the States as to exactly how absentee voting is 
conducted. On a single ship, there may be sailors from all 50 
States with just one voting assistance officer to help all of 
them.
    On the postmark, the DOD's postal manual requires that all 
absentee ballots be given a postmark. As many absentee ballots 
sent through the military mail systems do not require postage 
stamps, they are not postmarked unless the sender requests it.
    Further, forward-deployed mail is not always timely 
postmarked. There are instances when time constraints and the 
military situation do not allow for proper postmarking or 
cancellation. This mail is oftentimes postmarked later in 
route. As a result, overseas ballots postmarked in transit are 
often rejected. Is that another one of the problems?
    The voting assistance officer assigned to educate members 
and families are often doing collateral duty and does not have 
time to understand and explain the overly complex absentee 
voting procedures.
    Mr. Wright. This is the book that a voting assistance 
officer uses. It is published every 2 years by the Defense 
Department, not just military, but also State Department. It 
has a chapter for each State.
    All States do accept the Federal postcard application form, 
but there are big variations about how you fill it out. So the 
voting assistance officer may be from Tennessee and may be 
familiar with that procedure, but if he gives advice based on 
the Tennessee law, it may be wrong for somebody who is trying 
to vote in Michigan.
    There is more than 5,000 local election officials that 
administer absentee voting for Federal elections. I think as 
part of an electronic voting system that each State should be 
required to designate a statewide point of contact, at least 
for electronic voting. I realize there are tens of thousands of 
ballot combinations in a State the size of California, but it 
seems to me the Secretary of State in Sacramento ought to be 
able to figure out based on your permanent home address the 
particular combination of State reps and State senators and 
U.S. Representatives, etc., that applies to you and get you a 
ballot electronically and then count your ballot. I do not see 
that it is going to be feasible to get 5,000 local officials, 
some of whom do not even have telephones, much less computers, 
onto an electronic system.
    Chairman Thompson. Thank you very much.
    I want to thank this panel very much. As public officials 
and as private citizens, you are really doing a public service. 
It is encouraging to know that we have people like you working 
in these areas, and perhaps we can make our own contribution to 
that.
    Senator Lieberman. Thanks. Mr. Chairman, let me thank you 
again for convening these two hearings. I thank the witnesses 
on this panel and the previous panel. I have learned a lot 
today and last week, and I hope we can take what we have 
learned, continue to be in communication with you, and turn it 
into some legislation and law that will help us make the 
promise of the franchise, which is fundamental to being an 
American, more real than it is for people today and easier to 
exercise. So thanks very much.
    Chairman Thompson. Thank you very much. We are adjourned.
    [Whereupon, at 12:48 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


              PREPARED OPENING STATEMENT OF SENATOR LEVIN

                              May 3, 2001

    The Florida recount in the 2000 Presidential election was, in a 
way, like turning over a rock and finding things you'd rather not see--
in this case, the serious inadequacies and problems in our election 
system. But as is often the case, it takes a crisis like the Florida 
recount to force us to action--to address the inadequacies to which we 
had grown accustomed and with which we had become comfortable. The 
right to vote is too precious a privilege and too fundamental to the 
conduct of democracy to let these inadequacies go unaddressed, and I 
congratulate Senator Lieberman on calling these hearings and keeping 
this issue in our sights. As time elapses, it becomes easier for us to 
just put the rock back, but hopefully hearings like this one and 
Thursday's won't let us do that.
    The crisis in Florida reverberated throughout the Nation. There 
were reports of significant numbers being turned away from the polling 
places when they tried to vote, being told they weren't registered when 
they had registered, and having election officials stepping in to 
prevent them from voting rather than figuring out how to enable them to 
vote. Many people across the country realized for the first time the 
complexities and inaccuracies and the real-life failings of our voting 
system in which we have had such faith, unjustified though it may have 
been. The close election revealed the significance of the problems, and 
these hearings address the two big ones: Updating and distributing 
accurate registration information and ensuring the accuracy of the 
votes cast and how the votes are counted.
    One problem identified by many with respect to registration is the 
operation of the motor voter law--allowing citizens to register to vote 
when they apply for or renew their driver's license. There is a 
problem, apparently, in some States, in accurately transferring the 
information from the Bureau of Motor Vehicles to the Board of 
Elections. My home State of Michigan has done a good job of 
establishing a centralized computer database for all registered voters 
called the Qualified Voter File or QVF. The Michigan system is 
nationally recognized, because it links election officials throughout 
the State to a fully automated, interactive statewide voter 
registration database. One witness today, Dr. Michael Alvarez, from the 
Caltech/MIT Voting Technology Project, notes in his written testimony 
that Michigan's QVF is an example of ``best practices'' in the Nation.
    But even with this premier computer system, we had problems in 
Michigan. A recent change in Michigan law requires that if a person 
changes his voter registration address, his driver's license address is 
automatically changed, and if the person changes his driver's license 
address, he is given the opportunity to conform his voter registration 
to that same address. If the person declines to change his voter 
registration address to conform to his driver's license address, he is 
automatically dropped from the voter registration rolls with his old 
address. In last year's election that law had the effect of 
discouraging many college students from voting in Michigan's 8th 
district where they attend school, because they would have had to 
change the address of their driver's licenses to that of their school 
address where they intended to register to vote, and they didn't want 
to have to do that. Many college students prefer to keep a permanent 
address (or their parent's address) as the one address they use for 
their driver's licenses, and they don't want to have to change their 
driver's licenses each year that they move during college in order to 
be able to be registered to vote where they go to school.
    One Michigan State University student who was turned away by 
precinct workers on election day, had his driver's license address in 
the QVF as Grand Blanc, his home residence, and not as East Lansing, 
his college residence and where he had registered. He was not permitted 
to vote in East Lansing, because his driver's license address didn't 
match the address where he registered to vote. In Michigan, if a person 
believes that he should be on the precinct roll but his name is not 
there, that person has the right to file an affidavit which swears that 
he or she does actually live in that precinct and has registered to 
vote there. As it turned out, in many precincts, the election workers 
didn't know about the right to file an affidavit, and consequently many 
students apparently didn't vote. So, in the 8th district, where the 
election for Congress was decided by an 88 vote margin, the voting 
registration problem may have affected the outcome of the election.
    There are a number of possible solutions to some of these election 
problems: Increased voter education, new technology for voting 
machines, increased election worker training, standardization of voting 
machines, and a variety of other ideas. There are a number of election 
reform bills that have been introduced, and there are several academic 
studies underway looking at various aspects of elections. One of 
today's witnesses makes a point with respect to proposed solutions that 
coincides with my own experience, and that is that as we've applied 
allegedly improved technology to the voting process, we've seen new 
problems. For example, I don't remember seeing anything like an over 
count when we used to mark and count ballots by hand. That problem 
appears to come as a result of some of the new technologies election 
boards are using. These hearings will allow us to hear from election 
experts who will hopefully shed some light on problems like these.
    In order to make every vote count, Federal election reforms at the 
Federal level are necessary. At the same time, we must respect the 
rights of the States. We want to protect the rights of States to be as 
innovative and progressive as Michigan has been in its so-called motor 
voter registration, for example. We may want to set a floor for 
performance that no State should go below; at the same time we want to 
allow States to be creative and responsive to their own populations. 
The voting system that works best in rural Michigan may not be the best 
voting system for an urban area such as Detroit, so we need to allow 
the States some flexibility.
    Ensuring that all citizens can vote and that every vote counts is 
surely one of our highest national priorities. What happened in Florida 
during the Presidential election of 2000 never should have happened, 
and the passage of time should not diminish the need to find solutions 
to the serious election problems we faced in the last election. These 
hearings should help us to move towards a solution, and I look forward 
to the testimony.
                               __________

                PREPARED STATEMENT OF SENATOR CARL LEVIN

                              May 9, 2001

    We have a situation in too many localities in this country where 
despite the best efforts of the voting public, they cannot make their 
vote count. We hear over and over again how in this country, every 
voter should count--that is our goal and our expectation. But the 
reality doesn't meet that expectation. According to the Committee for 
the Study of the American electorate, in the 2000 Presidential 
election, 2\1/2\ million votes out of 101 million didn't count. They 
were cast, but they didn't count. And what we're wrestling with is 
``why,'' why those 2\1/2\ million Americans who went to the polls, 
didn't have their votes count. Is the culprit the voter registration 
systems? The inadequacy of the election officials? The complexity of 
the voting machines? Intimidation? Foreign language barriers? The 
inattention of the voter?
    The culprit is probably one, some or all of these depending upon 
the particular polling place, and some of these are more pervasive than 
others. Our job, because of the enormous importance of elections and 
the right to vote and to have each vote count, our job is to figure out 
why 2\1/2\ million votes didn't count and what we can do about it.
    And, while we often look to technology to cure our ills, it appears 
we must be cautious about technology in the area of election reform. 
Last week a member of one of our panels, Dr. Michael Alvarez, of the 
Caltech/MIT Voting Technology Project, delivered some surprising 
testimony. From his data, he told us that he has found that manually 
counted paper ballots have the lowest average incidence of spoiled, 
uncounted and unmarked ballots, followed by lever machines and 
optically scanned ballots. He also found that punch card methods and 
systems using direct recording electronic devices (DREs) had 
significantly higher average rates of spoiled, uncounted and unmarked 
ballots than any of the other systems. This seems counter intuitive: 
That the computer screens actually had a higher rate of unmarked votes 
than some of the other technology that we consider more primitive such 
as the lever machine or the optical scan machines.
    One problem here is that we just don't have the data to determine 
what works and what doesn't. A group called the Constitution Project, a 
bipartisan nonprofit organization that is looking closely at the issue 
of election reform, reports that ``there is an astonishing lack of 
information about the performance of voting equipment.'' Dr. Alvarez 
has done some interesting work here, but more needs to be done.
    Florida's debacle has served as our national wake-up call. And 
hopefully we won't just hit the snooze button and roll over, but we 
will persist in asking questions and getting information so we can make 
the 2\1/2\ million votes that didn't count in the last election, count 
in the next. Prior to Florida, many Americans didn't realize that the 
counting of the votes could be such a messy business. Now that we do 
know, we should use the lessons from the past election to ensure that 
the system fully works in the next election.
                               __________

                 PREPARED STATEMENT OF SENATOR CLELAND

                              May 3, 2001

    Mr. Chairman, thank you and your Committee for affording me this 
opportunity to discuss the vitally important subjects of electoral 
reform and voter registration. I can think of few more important topics 
than insuring the integrity of the voting process and securing the 
rights of American citizens to have their voices heard and their votes 
counted. Our representative democracy is grounded on the principle of 
popular sovereignty. Thomas Paine put it best: ``The right of voting 
for representatives is the primary right by which other rights are 
protected.''
    As Georgia's Secretary of State for 13 years, I am familiar with 
the challenges of registering million of voters. In 1995, I implemented 
the National Voter Registration Act (``Motor Voter'') in Georgia, which 
added almost one million new voters to the rolls. The statewide voter 
registration computer system needed to implement the program was 
designed and constructed in approximately 8 months.
    Georgia certainly has experienced problems in the area of 
registration, as does every State, but I think we are ahead of many 
because: (1) We have a consolidated statewide database, which many 
States do not have, (2) we collect Social Security Numbers and use 
these to help weed out duplicate and fraudulent registrations, felons 
and the deceased, and (3) we have been careful about relying on data 
from third party vendors in managing our lists.
    Georgia's Secretary of State, Cathy Cox, has published a detailed 
report on the 2000 election in Georgia. The report, A Wake-Up Call For 
Reform and Change, identifies the sources of complaints for individuals 
who had problems registering to vote in the State and outlines possible 
solutions for reform. Secretary Cox's report states that on the 2000 
General Election Date, 4,648,210 voters were eligible to cast ballots 
in Georgia.
    The sources of new voter registration in Georgia for the 2000 
elections originated from the following sources:


              Sources of New Voter Registration in Georgia
------------------------------------------------------------------------
                                                           Percentage of
          Registration location            Total number        total
------------------------------------------------------------------------
Department of Public Safety.............         381,938       61.22
Mail Direct to Secretary of State.......          66,323       10.63
County Registrars Office................          54,918        8.08
Libraries...............................          52,928        8.48
DFACS Offices...........................          49,364        7.91
WIC Offices.............................          17,078        2.74
Other Offices...........................           1,288        0.21
                                         -------------------------------
  Calendar Year 2000 Total..............         623,837      100.00
 
------------------------------------------------------------------------
  Source: Georgia Secretary of State

    In Georgia, voter registration additions, deletions and 
modifications are entered at the county level by local registrars into 
the State computer system. Secretary of State Cathy Cox's office 
received numerous complaints from individuals who believed that they 
had properly registered to vote, but whose names did not appear on the 
voter roll. A majority of these complaints came from metro Atlanta 
residents. The most complaints were associated with those who 
registered at the Department of Public Safety where the accuracy of the 
registration process depends entirely on the driver's license examiner. 
Another source of complaints were individuals who registered at 
independent voter drives.
    Secretary Cox identifies better education of registrants at 
Department of Public Safety Office, and developing an Internet-based 
voter registration verification system as possible solutions to 
registration problems. As you may know, I have previously introduced S. 
479, the Make Every Vote Count Act, which would provide block grants to 
States to upgrade their voting systems. Because many registration 
errors are caused by inadequate training of registration officials or 
education of voters in how to properly register, S. 479 would allow up 
to one-third of the grant funds to be used for training and education.
    In addition, I am concerned about the problems that military voters 
have experienced in attempting to register to vote. I have included 
some language in my proposal to improve ballot access for our military 
personnel. Section 3 of my bill is derived, verbatim, from Title VI of 
Senator Daschle's bill, S. 17. These provisions require that, for 
purposes of voting, no military member be deemed to have had a change 
of domicile or residence solely because he or she had to be absent in 
compliance with military orders. Furthermore, they provide that States 
and localities must permit absentee voting by uniformed service members 
in State and local elections, as is currently required only for Federal 
elections. These provisions are intended as preliminary steps to 
redress problems in military voting, pending completion of a General 
Accounting Office study of such problems which I requested along with 
Senators Warner, Levin, and Hutchinson.
                               __________

                 PREPARED STATEMENT OF SENATOR CLELAND

                              May 9, 2001

    Mr. Chairman: I want to thank you and Senator Lieberman for your 
continuing leadership on the issue of election reform. We can all agree 
that last year's election was one of the most unusual political events 
this country has ever seen. As a former Secretary of State and chief 
elections official in Georgia, I believe it was also a wake up call for 
reforming our electoral process.
    Now that we have completed the campaign finance debate, it is time 
for election reform debate and action. In February, the National 
Association of Secretaries of States adopted an election reform 
resolution. One of their recommendations was that Congress should 
provide funding to the States to assist the State and local efforts for 
reform. Several bills have been introduced in the Senate this year, 
including my own proposal, which would address the issue of election 
reform. And this Committee, Commerce, and the Rules Committees have 
also begun hearings on this priority issue. However, States like 
Florida, Maryland, and Georgia have already developed election reform 
plans and need Federal assistance to help their efforts.
    As I have said before: Time is the enemy with respect to the 
provision of sufficient Federal funds to really make a difference in 
sharply reducing the number of Americans who are literally being 
disenfranchised by our voting machinery. So, I would urge my colleagues 
to head the wise words on election reform which appeared in the Atlanta 
Journal-Constitution on March 28: ``Congress should not squander this 
opportunity for meaningful change that will allow people to vote with 
ease and with confidence that their votes will be counted.'' (Article 
follows this statement.)
    As a young man I had the opportunity to be one of the first in our 
country to use the then-brand new punchcard voting machines when they 
were introduced in my home county of DeKalb in 1964. Then I faced the 
even more daunting challenge of voting by absentee ballot while serving 
in Vietnam in 1968. And for 13 years, I had the privilege of being my 
State's chief election official as Georgia's Secretary of State. So 
when I saw the problems experienced in our neighboring State of Florida 
during the 2000 Presidential Election, with both citizens and election 
officials struggling with chads, I had a great deal of empathy and 
sympathy.
    But I would hasten to add that I don't think Florida was, or is, at 
all unique in facing serious problems in ensuring that every citizen's 
vote will be correctly tabulated. From my own experience in Georgia, 
and from the testimony of my very able successor, Georgia Secretary of 
State Cathy Cox, to the Commerce Committee a few weeks ago, I know that 
my State would fare no better, and quite possibly much worse, if 
subjected to the same set of circumstances where the vote margin was so 
small as to turn on what to do about incomplete counting of ballots.
    A recent study by Dr. Charles Bullock of the University of Georgia, 
further analyzed the report on the 2000 Georgia elections by Secretary 
Cox. The findings in this study found that:

<bullet> Lthe rate of undervotes was significantly higher in counties 
using punch cards or optical scanning equipment than in counties using 
lever machines;

<bullet> Lin the optical scan counties, the error rate was worse for 
the counties that did not use a type of optical scanning equipment that 
kicks-out ballots containing errors;

<bullet> Land undervoting was significantly higher in counties that had 
a large increase in registrants between the time of the primary and the 
general election.

    I am pleased to report that Georgia was the first State in the 
Nation to require a uniform electronic voting system to be in place by 
July 2004.
    Although the choice of voting systems and of means for assuring the 
voting rights of service members and disabled citizens is also 
primarily a matter for State and local decision-making, I believe in 
these cases consensus exists that an infusion of Federal funds can make 
a decisive difference, and make it in the near term. The Washington 
Post reported on April 5 that the number of Detroit voters whose 
ballots were invalidated dropped by almost two-thirds after the city 
switched from punch-card to optical-scan machines that warn of errors 
and allow for an immediate re-vote. (Article follows this statement).
    Thus, I see the legislation I am proposing--which provides for an 
immediate, large and one-time infusion of Federal funding to deal with 
widely recognized problems with our voting equipment--is complementary 
and not in competition with the other bills I just alluded to earlier. 
My bill, S. 479, the Make Every Vote Count Act, seeks to quickly and 
effectively improve our electoral system by increasing the likelihood 
that all citizens' votes will be properly counted but to do so in a way 
which fully respects the primary role of State and local governments in 
the conduct of elections. It accomplishes this by providing Federal 
funds to modernize voting systems, promote uniformity in voting 
equipment within States, and require greater standardization in 
assuring the voting rights of military personnel abroad. In addition, 
it allows up to one-third of the funds to be used for training of 
elections officials and voter education.
    Again, I want to thank the Chairman and Ranking Member for their 
efforts to address this critical need for reform. This issue will not 
be resolved in one hearing, but I think we have made some great strides 
in this Committee for further action. I am confident that a Committee 
with two former Secretaries of State is a great place to get started.
                               __________
                               [GRAPHIC] [TIFF OMITTED] T3391.001
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.002
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.003
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.004
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.005
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.006
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.007
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.008
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.009
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.010
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.011
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.012
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.013
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.014
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.015
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.016
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.017
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.018
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.019
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.020
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.021
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.022
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.023
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.024
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.025
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.026
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.027
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.028
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.029
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.030
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.031
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.032
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.033
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.034
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.035
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.036
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.037
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.038
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.039
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.040
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.041
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.042
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.043
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.044
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.045
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.046
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.047
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.048
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.049
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.050
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.051
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.052
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.053
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.054
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.055
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.056
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.057
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.058
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.059
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.060
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.061
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.062
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.063
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.064
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.065
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.066
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.067
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.068
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.069
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.070
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.071
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.072
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.073
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.074
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.075
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.076
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.077
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.078
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.079
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.080
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.081
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.082
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.083
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.084
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.085
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.086
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.087
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.088
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.089
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.090
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.091
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.092
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.093
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.094
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.095
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.096
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.097
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.098
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.099
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.100
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.101
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.102
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.103
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.104
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.105
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.106
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.107
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.108
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.109
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.110
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.111
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.112
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.113
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.114
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.115
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.116
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.117
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.118
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.119
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.120
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.121
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.122
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.123
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.124
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.125
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.126
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.127
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.128
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.129
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.130
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.131
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.132
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.133
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.134
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.135
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.136
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.137
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.138
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.139
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.140
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.141
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.142
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.143
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.144
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.145
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.146
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.147
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.148
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.149
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.150
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.151
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.152
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.153
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.154
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.155
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.156
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.157
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.158
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.159
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.160
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.161
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.162
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.163
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.164
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.165
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.166
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.167
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.168
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.169
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.170
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.171
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.172
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.173
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.174
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.175
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.176
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.177
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.178
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.179
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.180
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.181
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.182
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.183
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.184
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.185
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.186
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.187
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.188
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.189
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.190
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.191
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.192
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.193
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.194
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.195
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.196
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.197
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.198
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.199
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.200
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.201
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.202
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.203
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.204
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.205
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.206
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.207
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.208
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.209
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.210
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.211
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.212
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.213
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.214
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.215
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.216
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.217
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.218
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.219
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.220
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.221
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.222
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.223
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.224
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.225
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.226
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.227
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.228
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.229
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.230
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.231
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.232
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.233
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.234
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.235
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.236
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.237
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.238
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.239
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.240
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.241
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.242
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.243
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.244
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.245
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.246
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.247
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.248
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.249
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.250
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.251
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.252
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.253
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.254
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.255
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.256
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.257
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.258
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.259
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.260
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.261
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.262
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.263
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.264
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.265
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.266
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.267
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.268
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.269
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.270
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.271
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.272
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.273
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.274
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.275
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.276
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.277
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.278
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.279
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.280
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.281
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.282
                               
                               [GRAPHIC] [TIFF OMITTED] T3391.283
                               
                                   - 
</pre></body></html>
